       INSPECTOR GENERAL, DOD, OVERSIGHT OF THE
    NAVAL AUDIT SERVICE AUDIT OF THE NAVY WORKING
        CAPITAL FUND FINANCIAL STATEMENTS FOR
                   FYs 1997 AND 1996



Report Number 98-106                           April 7, 1998




             Office of the Inspector General
                 Department of Defense
     Additional Information and Copies

     To obtain additional copies of this audit report, contact the Secondary Reports
     Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
     (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932, or visit the Inspector
     General, DOD, homepage at: www.dodig.osd.mil.

     Suggestions for Future Audits

     To suggest ideas for or to request future audits, contact the Planning and
     Coordination Branch of the Analysis, Planning, and Technical Support
     Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
     and requests can also be mailed to:

                       OAIG-AUD (ATT’N: APTS Audit Suggestions)
                       Inspector General, Department of Defense
                       400 Army Navy Drive- (Room 80 1)
                       Arlington, VA 22202-2884

     Defense Hotline

     To report fraud, waste, or abuse, contact the Defense Hotline by calling
     (800) 4249098; by sending an electronic message to Hotline@dodig.osd.mil; or
     by writing to the Defense Hotline, Pentagon, Washington, DC 20301-1900. The
     identity of each writer and caller is fully protected.




Acronyms

GAO                    General Accounting Office
                       Inspector General
ES                     Naval Audit Service
                                    INSPECTOR     GENERAL
                                    DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                    ARLINGTON, VIRGINIA 22202




                                                                          April 7, 1998
MEMORANDUM FOR UNDER SECRETARYOF DEFENSE (COMPTROLLER)
                  AND CHIEF FINANCIAL OFFICER
               DIREEX& DEFENSE FINANCE AND ACCOUNkING

SUBJECT: Inspector General, DoD, Oversight of the Naval Audit Service Audit
         of the Navy Working     ital Fund Financial Statements for FYs 1997
         and 1996 (Report No. C?
                              9 -106)

        We are providing this audit re rt for your information and use and for
transmittal to the Director, Office of L     ement and Budget. It includes our
endorsement of the Naval Audit Service (NAS) disclaimer of opinion on the Navy
Working        ital Fund Financial Statements for FYs 1997 and 1996, alo with the
NAS Audit X port, “Fiscal Years 1997 and 1996 Consolidated Financials tatements of
the Department of the Navy Working Capital Fund. n An audit of the Navy Working
    ital Fund Financial Statements is required by the “Chief Financial Officers Act of
1
%4    mas amended by the “Federal Financial Management Act of 1994.” Since this
repo4 contains no findings or recommendations, written comments are not required.
       We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. Richard Bird, Audit Program Director, at (703) 604-9175
(DSN 664-9175, e-mail rbird@dodi~.osd.mil) or Mr. Joel K. Cey,         Au+it Project
Manager, at (216) 5224091, e$er+ion 235, e-e JchaneyQdodig.os$m~). See
zrnx.aD      for the report dlstrlbutlon. The audit team members are listed mslde the
           .




                                        David K. Steensma
                                 Deputy Assistant Inspector General
                                           for Auditing
                            Office of the Inspector General, DOD
Report No. 98-106                                                        April 7,1998
   (Project No. 7FI-2035)

               Inspector General, DOD, Oversight of the
      Naval Audit Service Audit of the Navy Working Capital F’und
              Financial Statements for FYs 1997 and 1996

                                   Executive Summary

Introduction. An audit of the Navy Working Capital Fund Financial Statements is
required by Public Law 101-576, the “Chief Financial Officers Act of 1990,”
November 15, 1990, as amended by Public Law 103-356, the “Federal Financial
Management Act of 1994, * October 13, 1994. We delegated the audit of the Navy
Working Capital Fund Financial Statements for FYs 1997 and 1996 to the Naval Audit
Service. This report provides our endorsement of the Naval Audit Service disclaimer
of opinion on the Navy Working Capital Fund Financial Statements for FYs 1997 and
1996, along with the Naval Audit Service Report, “Fiscal Years 1997 and 1996
Consolidated Financial Statements of the Department of the Navy Working Capital
Fund. *

Audit Objective. Our objective was to determine the accuracy and completeness of
the Naval Audit Service audit of the Navy Working Capital Fund Financial Statements
for FYs 1997 and 1996. See Appendix C for a discussion of the audit process.

Audit Results. The Naval Audit Service report, “Fiscal Years 1997 and 1996
Consolidated Financial Statements of the Department of the Navy Working Capital
Fund,” February 27, 1998, stated that the Naval Audit Service was not able to express
an opinion on the Navy Working Capital Fund Financial Statements for FYs 1997 and
1996. We concur with the Naval Audit Service disclaimer of opinion; our endorsement
of that disclaimer is at Appendix A. The Naval Audit Service report is at Appendix B.

Internal Control Structure and Compliance With Laws and Regulations. The
Naval Audit Service issued reports on internal controls and compliance with laws and
regulations in the Navy. Those reports are included in the Naval Audit Service report.
Table of Contents

Executive Summary                                                       i
       Appendix A. Inspector General, DOD, Endorsement Memorandum
                   (2 pages)
       Appendix B. Naval Audit Service Report,
                   “Fiscal Years 1997 and 1996 Consolidated Financial
                   Statements of the Department of the Navy Working
                   Capital Fund, n (138 pages)
       Appendix C. Audit Process
       Appendix D. Report Distribution
Appendix A. Inspector General, DOD,
            Endorsement Memorandum
                                     INSPECTOR GENERAL
        ,                            DEPARTMENTOF DEFENSE
        I                              400 ARMY NAVY mlVE
                                     ARLlNGToN, VIRGNA 22202



                                                                             February 27, 1998

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER) AND
                 CHIEF FINANCIAL OFFICER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE

SUBJECT:     Endorsement of the Disclaimer of Opinion on the FY 1997 Department of the
             Navy Workin Capital Fund Consolidated Financial Statements
             (ProJect No. $ FI-2035)


        The Chief Financial Officers Act of 1990, as amended by the Federal Financial
Management Act of 1994, requires financial statement audits by the Inspectors General.
Before FY 1992, DOD operated a significant number of its commercial and industrial facilities
under a revolving fund concept. In FY 1992, the revolving funds were consolidated to form
the Defense Business Operations Fund (DBOF). On December 11, 1996, the Under Secretary
of Defense (Comptroller) restructured DBOF into separate working capital funds. The
Inspector General, DOD, was responsible for auditing both the DBOF financial statements and
working capital fund financial statements. On January 16, 1997, we delegated to the Naval
Audit Service (NAS) the audits of the Navy Working Capital Fund financial statements.

         Summarized below are the NAS disclaimer of opinion on the FYs 1997 and 1996
financial statements and the results of our review of the work conducted by the NAS. We
endorse the disclaimer of opinion expressed by NAS (see the Enclosure).

        Diihimer of Opinion. The NAS disclaimer of opinion on the FYs 1997 and 1996
Navy Working Capital Fund Consolidated Financial Statements, dated February 27, 1998,
states that the NAS was unable to express an opinion on the statements. We concur with the
NAS disclaimer of opinion for the reasons summarized below.

        o Navy Working Capital Fund activities and the Defense Finance and Accounting
Service did not provide sufficient information to evaluate management’s assertions and the fair
presentation of the September 30, 1997, financial statements.

      o The NAS did not observe the taking of the physical inventories reported as of
September 30, 1996, and could not verify inventory quantities by other auditing procedures.

        Iat-     Coatrols. Internal controls did not ensure that the FYs 1997 and 1996 Navy
Working Capital Fund Consolidated Financial Statements contained no material misstatements.
Procedural and compliance problems also contributed to the lack of accurate financial
reporting. The Department of the Navy and the Defense Finance and Accounting Service have
recognized these weaknesses and repoti them in their FY 1997 Annual Statements of
Assurance. Details on these matters and on compliance with laws and reguIations will be
discussed in a separate report.

       Compliance With Laws and Regulations. The NAS also identified areas of
noncompliance with laws and regulations. Under the Federal Financial Management
Improvement Act of 1996 and OMB Bulletin No. 93-06, Addendum 1, “Audit Requirements
                                                                                               2

        Compliance With Laws and Regulations. The NAS also identified areas of
noncompliance with laws and regulations. Under the Federal Financial Management
Improvement Act of 1996 and OMB Bulletin No. 93-06, Addendum 1, ‘Audit Requirements
for Federal Financial Statements, n January 16, 1998, the NAS work disclosed that financial
management systems did not comply with Federal financial management system requirements;
applicable Federal accounting standards; and the United States Government Standard General
Ledger at the transaction level.

        Review of Naval Audit Service Work. To fulfill our responsibilities for determining
the accuracy and completeness of the independent work conducted by the NAS, we reviewed
the approach and planning, and monitored the progress at the key points. We also performed
other procedures necessary to determine the accuracy and reliability of the approach and
coachrsions.

         We conducted our review of the NAS work of the FYs 1997 and 1996 Navy Working
Capital Fuud Consolidated Financial Statements from August 27,1997.t~~~~~~27.1998,
in accordance with generally accepted Government auditing standards.
indication that we could not rely on the NAS disclaimer of opinion or its related evaluations of
internal controls and compliance with laws and regulations.




                                           - David K. Steensma
                                      Deputy Assistant Inspector General
                                                for Auditing

Enclosure
Appendix B. Naval Audit Service Report
Naval Audit Service
NAVAUDSVC    P-7520.1




Audit
Report




      Fiscal Years 1997 and 1996
   Consolidated Financial Statements
     of the Department of the Navy
          Working Capital Fund
            024-98      27 February 1998
                              DEPARTMENT      OF THE NAVY
                               AUDITOR GENERAL OF THE NAW
                                     5611 COLUMBIA PIKE                      7540/97-ooo3
                                 ROOM 506B, NASSIF BUILDING
                                FALLS CHURCH, VA. 22041-5060                 T9
                                                                             27 Feb 98




From:   Auditor General of the Navy

Subj:   FISCAL YEARS 1997 AND 1996 CONSOLIDATED FINANCIAL
        STATEMENTS OF THE DEPARTMENT OF THE NAVY WORKING
        CAPITAL FUND (024-98)

Ref:    (a) Public Law 101-576, “Chief Financial Officers Act,” 15 Nov 90
        (b) SECNAV Instruction 7510.7E, “Department of the Navy Internal Audit”

 1. We conducted an audit of the Fiscal Years 1997 and 1996 Consolidated Financial
Statements of the Department of the Navy Working Capital Fund and attempted to
issue an opinion, in accordance with reference (a). Audit results were discussed with
the designated representatives of the Department of the Navy and Department of
Defense.

2. Our primary objective was to determine the accuracy of the information presented
in the Statement of Financial Position and the related Statement of Operations and
Changes in Net Position, and Statement of Cash Flows, for the Consolidated Financial
Statements of the Department of the Navy Working Capital Fund for the years ended
as of 30 September 1997 and 1996.

3. The following account balances were audited to determine the accuracy of the
information presented in the Consolidated Financial Statements: Fund Balance with
Treasury; Accounts Receivable, Net, Federal; Advances and Prepayments, Federal;
Accounts Receivable, Net, Non-Federal; Advances and Prepayments, Non-Federal;
Inventory, Net; Work in Process; Operating Materials/Supplies,    Net; Property, Plant,
and Equipment, Net; Other Entity Assets; Other Non-Entity Assets; Accounts Payable,
Federal; Debt, Federal; Other Federal (Intragovernmental)  Liabilities; Accounts
Payable, Non-Federal; Accrued Payroll and Benefits; Other Non-Federal
(Governmental) Liabilities; Invested Capital; Cumulative Results of Operations; Other
(Net Position); and Future Funding Requirements.    We performed limited audit work
on the Statement of Operations and Changes in Net Position accounts of: Other
Revenues and Financing Sources, and Depreciation and Amortization.        We concluded
that the account balances reported on the statements were misstated and we
recommended adjustments to the accounts to make the reported balances more
representative.

4. This report contains our Independent Auditor’s Opinion on the Consolidated
Financial Statements for the Fiscal Years 1997 and 1996 Department of the Navy
Working Capital Fund in which we were unable to issue an opinion, as well as our
Subj:   FISCAL YEARS 1997 AND 1996 CONSOLIDATED   FINANCIAL
        STATEMENTS  OF THE DEPARTMENT     OF THE NAVY WORKING
        CAPITAL FUND (024-98)


Report on Internal Control Structure and our Report on Compliance With Laws and
Regulations.    A separate supporting report will contain details on specific findings, as
well as recommended adjustments to the accounts to make the reported balances more
representative.

5. Any request for our report under the Freedom of Information Act must be
approved or denied by the Auditor General of the Navy, as required by reference       (b).

6. We appreciate   the cooperation   and courtesies extended to our auditors.




                                                  JAMES D. WATTS
                                                  By direction




Distribution:
Assistant Secretary of the Navy (Financial Management and Comptroller)
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Commander, Naval Supply Systems Command
Commander, Naval Inventory Control Point
Under Secretary of Defense (Comptroller)
Inspector General, Department of Defense
Director, Defense Finance and Accounting Service
General Accounting Office




copy to:
UNSECNAV
CNO (N09B)
CMC
ASN (FM&C) (FMO-31) (7 copies)
ASN (FM&C) (FMO)
ASN (FM&C) (FMB)
NAVSEA (SEA-00N3)
(continued)
Subj:   FISCAL YEARS 1997 AND 1996 CONSOLIDATED FINANCIAL
        STATEMENTS OF THE DEPARTMENT OF THE NAVY WORKING
        CAPITAL FUND (024-98)


NAVAIR      (AIR-091)
            (AIR-09G)
SPAWAR (OO-G3)
NAVFAC (FAC-0 1A)
NAVSUP (SUP-341M)
CINCLANTFLT        (NOOIG) (3 copies)
CINCPACFLT (001) (5 copies)
CNR
MSC
COMNAVCOMTELCOM            (2 copies)
NAVICP (Mechanicsburg office)
FISC Norfolk
FISC San Diego
FISC Oakland
FISC Pearl Harbor
FISC Jacksonville
FISC Puget Sound
FISC Yokosuka
MCAS Cherry Point
NSWC Crane
NAVSHIPYD Portsmouth
NAVSHIPYD Pearl Harbor
NAVSHIPYD Puget Sound
NAVSHIPYD Norfolk
NADEP Cherry Point
NADEP Jacksonville
NADEP North Island
WPNSTA Concord
WPNSTA Seal Beach
WPNSTA Yorktown
WPNSTA Charleston
WPNSTA Earle
MCLB Albany
MCLB Barstow
NAVSURFWARCENDIV           Indian Head
NAVSURFWARCENDIV           Dahlgren
NAVSURFWARCENDIV           Port Hueneme
NAVSURFWARCENDIV           Crane
NAVSURFWARCENDIV           Carderock
NFESC Port Hueneme
(continued)
Subj:   FISCAL YEARS 1997 AND 1996 CONSOLIDATED FINANCIAL
        STATEMENTS OF THE DEPARTMENT OF THE NAVY WORKING
        CAPITAL FUND (024-98)


NAVUNSEAWARCENDIV             Keyport
NAVUNSEAWARCENDIV             Newport
SPAWARSYSCEN        San Diego
SPAWARSYSCEN        Charleston
SPAWARSYSCEN        Chesapeake
NRL
NAVAIRWARCENACDIV            Patuxent River
NAVAIRWARCENACDIV            Trenton
NAVAIRWARCENWPNDIV             Point Mugu
NAVAIRWARCENWPNDIV             China Lake
PWC Norfolk
PWC Pensacola
PWC Great Lakes
PWC San Diego
PWC Pearl Harbor
PWC Guam
PWC Jacksonville
PWC Washington, DC
PWC Yokosuka
FMSO
NAVINSGEN (NIG-04) (3 copies)
UNSECDEF (Comptroller) (MC BMD)
DFAS (AFCA)
DFAS-CL
DFAS-KC
DFAS-CO
DODIG (AIG/A&IM) (2 copies)
DODIG (AIG/APTS) (7 copies)
DODIG (AIG/P&O) (2 copies)
DODIG Cleveland Field Office
Air Force Audit Agency (AFAA/DO) (2 copies)
U.S. Army Audit Agency (SAAG-PRP-R)
Defense Logistics Studies Information Exchange (DLSIE)
GAO (AFMD)
      (AIMD)
                       Table of Contents

Section A: Introduction.                           ..............................


      Background.       .................................


      Objectives.     ..................................


      Scope and Methodology.                    ...........................




Section B: Results of Audit Work.                                             ......................                      7

      Part I:       Independent Auditor’s                     Opinion on the
                    Consolidated Financial                     Statements for the
                    Fiscal Years 1997 and                     1996 Department of the
                    Navy Working Capital                      Fund . . . . . . . . . . . . . . . . . . . .                7

      Part II:      Report on Internal Control Structure . . . . . . . . . . . . . . . .                                  8

      Part III:     Report on Compliance                      With Laws and Regulations                . . . . . . . .    14



Section C: Overview, Consolidated Principal Statements,
           and Consolidated Footnotes. . . . . . . . . . . . . . .                                               . .     23


Section D: Department of the Navy Working Capital Fund
           Management Representation Letter


Section E: Department of the Navy Working Capital Fund
           Legal Representation Letter
                                Section A
                                   Introduction

Background

                                   Audit Requirement

    The 101 st Congress of the United States passed the Chief Financial Officers Act
(Public Law 101-576) on 15 November 1990. The Act was passed to improve general
and financial management practices within the Federal Government and make
Government operations more efficient and effective. The Act requires that financial
statements be audited by the Inspector General of the Department of Defense or by an
independent external auditor designated by the Inspector General, Department of
Defense.

    A centralized financial management structure was established within the Office of
Management and Budget and in each executive department and agency by statutory
provisions of the Act. The Act strengthens internal controls over financial management
by requiring that: (1) S-year financial management systems improvement plans, both
Government-wide     and in the 23 agencies covered by the Act, be prepared; (2) financial
statements and audits for revolving funds, trust funds, and commercial operations of
agencies be prepared to hold agency heads accountable for their operations; and (3) the
status of general and financial management in the Federal Government be reported
annually to the President and Congress..

    Reporting agencies are required to prepare financial statements. Pending issuance of
final accounting standards, the reporting agencies are to prepare the statements in
accordance with those standards contained in agency accounting policies, procedures
manuals, and/or related guidance as set forth in “Department of Defense Guidance on
Form and Content of Financial Statements for Fiscal Year 1997 Financial Activity.”
Department of Defense accounting standards are incorporated in the Department of
Defense Accounting Manual, DOD 7220.9-M, dated February 1988, in supplemental
memorandums, and in the Department of Defense Financial Management Regulation,
DOD 7000.14-R.

                  Department     of the Navy Working Capital Fund

    The Department of Defense established the Defense Business Operations Fund on
1 October   199 1 by combining five industrial funds, four stock funds, and several
appropriated fund support activities, including the Defense Finance and Accounting
Service and the Defense Commissary Agency, into a single Department of Defense-wide
revolving fund. The focus of the Defense Business Operations Fund was to provide a
management structure that encouraged Department of Defense business-like support


                                              1
 organizations to provide industrial and commercial-type services at lowest cost. The
 Fund was designed for activities that provide services that can be charged to customers,
just as is done in private industry.

    On 11 December 1996, the Under Secretary of Defense (Comptroller) canceled the
Defense Business Operations Fund and established four funds: Department of the Army
Working Capital Fund, Department of the Navy Working Capital Fund, Department of
the Air Force Working Capital Fund, and Defense-Wide Working Capital Fund.

     The basic principle of the Department of the Navy Working Capital Fund is to
capture all costs of operating an activity group and to reflect the total cost of doing
business in stabilized rates charged to customers. For Fiscal Year 1997, the Defense
Finance and Accounting Service, with assistance from the Assistant Secretary of the
Navy (Financial Management and Comptroller), prepared consolidated financial
statements for the Department of the Navy Working Capital Fund and financial
statements for each reporting entity. Comparative statements were produced for
reporting purposes on the consolidated statements, which included:

        l   Statement of Financial Position
        l   Statement of Operations and Changes in Net Position
        l   Statement of Cash Flows

Copies of these statements for 30 September    1997 are in Section C.

    The Department of the Navy Working Capital Fund consists of six primary activity
groups. Our audit encompassed all primary groups through statistical sampling
techniques, and our audit encompassed four primary activity groups:

       Supply Operations. This activity group finances the purchase of material to be
       held in inventory until issued to end users. The Naval Supply Systems Command
       has overall responsibility for this activity group. The material is overseen by the
       Naval Inventory Control Point, which is headquartered in Philadelphia, PA, and
       also has an office in Mechanicsburg, PA. The material is stored and maintained
       at Department of the Navy and Department of Defense locations worldwide,
       aboard selected ships, and at contractor facilities. Supply Management is
       financially structured into 12 Budget Projects, which delegate responsibility for
       budgets, funds allocation and execution, and accounting.

        Depot Maintenance. Within the Depot Maintenance primary area, we focused
        on three secondary groups: Shipyards, Aviation, and Ordnance.

            Shipyards. Four shipyards provide logistics support for assigned ships and
            service craft; perform authorized work in connection with construction,
            overhaul, repair, alteration, drydocking, and outfitting of ships and craft as




                                              2
            assigned; and provide services and material to other activities and units as
            required.

            Aviation. Three aviation depots maintain and operate facilities required to
            perform depot level maintenance and rework operations on airframes, engines,
            components, weapons systems, accessories, and equipment, in addition to
            providing engineering and other professional services with respect to aviation
            maintenance and logistics problems.

            Ordnance. Five weapons stations provide all services for explosive
            outloading of ships; perform retail ammunition management services; provide
            intermediate and depot maintenance assignments for various weapons
            systems, engineering functions, and technical logistics support; and provide
            ordnance packaging, handling, storage, and transport.

       Base Support. Nine public works centers provide utilities services, facilities
       maintenance, family housing services, transportation support, engineering
       services, and shore facilities planning support required by operating forces and
       other activities.

       Research and Development. Six secondary activity groups within this primary
       activity group provide engineering support and services for naval weapons,
       weapons systems, and other systems as required, and conduct research,
       development, testing, evaluation, and related services for the Department of the
       Navy and other Department of Defense customers.

The two primary activity groups not included in our review were Transportation and
Information Services. These primary activity groups were in the universe included in the
multistage selection process used in our statistically based sampling methodology but did
not get selected.



Objectives
The objectives of this audit were to determine:

        l   Whether the Department of the Navy Working Capital Fund Consolidated
            Financial Statements fairly represented the financial position and results of
            operation for Fiscal Years 1997 and 1996, in all material respects, in
            accordance with the appropriate comprehensive basis of accounting other than
            generally accepted accounting principles.

        l   Whether the internal controls of the Department of the Navy Working Capital
            Fund Consolidated Financial Statements were adequate to detect or prevent




                                              3
            errors and misstatements   that had a material effect on the financial statement
            balances.

            Whether the Department of the Navy Working Capital Fund was in
            compliance with laws and regulations that had a material effect on the
            financial statement balances.

           Whether known contingencies had been disclosed in the Department          of the
           Navy Working Capital Fund Consolidated Financial Statements.

            The effect, and report conditions, that come to the auditor’s attention that
            impact the Department of the Navy Working Capital Fund Consolidated
            Financial Statements.



Scope and Methodology
    Overall responsibility for auditing Department of Defense financial statements rests
with the Inspector General, Department of Defense, as required by the Chief Financial
Officers Act of 1990. Our audit of the Department of the Navy Working Capital Fund
was accomplished in support of this requirement.

     Our audit evaluated selected accounts of the Fiscal Years 1997 and 1996 Department
of the Navy Working Capital Fund Consolidated Financial Statements. Of six primary
activity groups, four were reviewed as a result of statistical activity selection: (1) Supply
Operations; (2) Depot Maintenance (Shipyards, Aviation, and Ordnance); (3) Base
Support; and (4) Research and Development.

    Our audit focused on transactions and operations for Fiscal Year 1997 that impacted
the Department of the Navy Working Capital Fund Consolidated Financial Statements.
We also reviewed some transactions from Fiscal Year 1996 and prior years that impacted
on the Fiscal Year 1997 statements.    We further reviewed reported contingencies in the
financial statements to ensure all known contingencies were stated as required, including
claims reported in the Department of the Navy Working Capital Fund Legal
Representation Letter provided by the Department of the Navy Office of the General
Counsel.

    We performed our audit work from 1 April 1997 to 27 February 1998 at the Under
Secretary of Defense (Comptroller); Under Secretary of Defense (Budget); Defense
Finance and Accounting Service (Headquarters, Cleveland, and Columbus); Assistant
Secretary of the Navy (Financial Management and Comptroller); Assistant Secretary of
the Navy (Financial Management and Comptroller) (Financial Management Operations);
Naval Supply Systems Command; Naval Air Systems Command; Naval Sea Systems
Command; Naval Facilities Engineering Command; and subordinate activities.




                                               4
     We reviewed internal controls and Management Control Programs at all activities.
We also evaluated compliance with laws and regulations, presentation in financial
statements, and the consistency of applying the comprehensive basis of accounting other
than Federal generally accepted accounting principles. We further reviewed for
completeness the deficiencies disclosed in the Management Representation Letter
provided by the Assistant Secretary of the Navy (Financial Management and
Comptroller) for the Department of the Navy Working Capital Fund. We coordinated the
audit with the Inspector General, Department of Defense and the General Accounting
Office.

     The audit was conducted in accordance with generally accepted government auditing
standards. We reviewed applicable laws, policies, procedures, regulations, and directives
related to the audited accounts for the Department of the Navy Working Capital Fund
Consolidated Financial Statements for Fiscal Years 1997 and 1996.

     We examined accounting records and reports, and held discussions with officials at
activities visited. We performed various audit steps to enable us to evaluate internal
control structures and compliance with applicable laws and regulations. As part of our
audit, we reviewed management’s process for evaluating and reporting on internal control
and accounting systems under the Department of the Navy’s Management Control
Program as to whether there was reasonable assurance that the objectives of the Federal
Managers’ Financial Integrity Act were achieved. We compared the Department of the
Navy Working Capital Fund’s most recent Federal Managers’ Financial Integrity Act
report with the results of the audit we conducted of the Fund’s internal controls. We also
reviewed the comparative balances for Fiscal Year 1996 on the Fiscal Year 1997
consolidated statements for consistency of reporting.




                                             5
6
                                Section B
                       Results of Audit Work

                                 Part I:
                Independent Auditor’s Opinion on the
                  Consolidated Financial Statements
                  for the Fiscal Years 1997 and 1996
             Department of the Navy Working Capital Fund

     We attempted to audit the Statement of Financial Position of the Consolidated
Financial Statements of the Department of the Navy Working Capital Fund as of
30 September 1997 and 1996, and the related Statement of Operations and Changes in
Net Position, and Statement of Cash Flows for the years then ended. These financial
statements are the responsibility of the Department of the Navy Working Capital Fund
management.

     The Department of the Navy Working Capital Fund or its accountant, the Defense
Finance and Accounting Service, did not provide us sufficient information necessary to
evaluate management’s assertions contained in the 30 September 1997 and 1996 financial
statement presentation. Specific accounts for which sufficient information was not
provided included: Accounts Receivable, Net, Federal; Accounts Receivable, Net,
Non-Federal; Inventory, Net; Work in Process; Operating Materials/Supplies, Net;
Property, Plant, and Equipment, Net; Accounts Payable, Federal; Other Federal
(Intragovernmental)   Liabilities; Accounts Payable, Non-Federal; Other Non-Federal
(Governmental) Liabilities; Invested Capital; Cumulative Results of Operations; and
Other (Net Position). Additionally, we did not observe the taking of the physical
inventories reported as of 30 September 1996 and we were unable to satisfy ourselves
regarding inventory quantities by means of other auditing procedures. Inventory amounts
as of 30 September 1996 enter into the determination of Excess (Shortage) of Revenues
and Financing Sources Over Total Expenses, and Cash Flow, for the fiscal year ended
30 September 1997.

    Since the Department of the Navy Working Capital Fund or its accountant, the
Defense Finance and Accounting Service, did not provide us with sufficient information
necessary to evaluate management’s assertions, and we were unable to perform tests
necessary to satisfy ourselves as to the fair presentation of the statements, the scope of
our work was not sufficient to enable us to express, and we do not express, an opinion on
these statements.
                                                 --He
                                        7    JAMES D. WATTS
                                             By direction
27 February 1998


                                             7
                                    Part II:
                     Report on Internal Control Structure


     We attempted to audit the Statement of Financial Position of the Consolidated
Financial Statements of the Department of the Navy Working Capital Fund as of
30 September 1997 and 1996 and the related Statement of Operations and Changes in Net
Position and the Statement of Cash Flows for the years then ended. We issued our report
thereon dated 27 February 1998.

    We conducted our audit in accordance with Federal generally accepted auditing
standards that are stated in Government Auditing Standards issued by the Comptroller
General of the United States, and in Office of Management and Budget Bulletin
No. 93-06, “Audit Requirements for Federal Financial Statements.” Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether
the Statement of Financial Position, the Statement of Operations and Changes in Net
Position, and the Statement of Cash Flows of the Consolidated Financial Statements of
the Department of the Navy Working Capital Fund are free of material misstatements.

    In planning and performing our audit of the Statement of Financial Position, the
Statement of Operations and Changes in Net Position, and the Statement of Cash Flows,
we considered the internal control structure of the following accounts of the Consolidated
Financial Statements of the Department of the Navy Working Capital Fund activities as
of 30 September 1997: for Entity Assets: Fund Balance with Treasury; Accounts
Receivable, Net, Federal and Non-Federal; Advances and Prepayments, Federal and
Non-Federal; Other Federal (Intragovernmental);     Other Non-Federal (Governmental);
Inventory, Net; Work in Process; Operating Materials/Supplies, Net; Property, Plant, and
Equipment, Net; and Other Entity Assets; for Non-Entity Assets: Other; for Liabilities
Covered by Budgetary Resources: Accounts Payable, Federal and Non-Federal; Debt,
Federal; Other Federal (Intragovernmental) Liabilities; Accrued Payroll and Benefits;
and Other Non-Federal (Governmental) Liabilities; and Net Position: Invested Capital;
Cumulative Results of Operations; and Other. The purposes of this consideration were:
(1) to determine our auditing procedures for the purpose of expressing an opinion on the
Department of the Navy Working Capital Fund Consolidated Financial Statements, and
(2) to determine whether the internal control structure meets the objectives identified in
the following paragraph.

    We obtained an understanding of the internal control policies and procedures and
assessed the level of control risk relevant to all significant cycles, classes of transactions,
or account balances. For those significant control policies and procedures that have been
properly designed and placed in operation, we performed sufficient tests to provide
reasonable assurance that the controls are effective and working as designed.

    Management of the Department of the Navy Working Capital Fund is responsible for
establishing and maintaining an internal control structure. In fulfilling this responsibility,


                                               8
management uses estimates and judgments to assess the expected benefits and related
costs of internal control structure policies and procedures. The objectives of an internal
control structure are to provide management with reasonable but not absolute assurance
that: (1) obligations and costs are in compliance with applicable laws; (2) funds,
property, and other assets are safeguarded against waste, loss, unauthorized use, or
misappropriation;    and (3) revenue and expenditures applicable to agency operations are
properly recorded and accounted for so that accounts and reliable financial and statistical
reports can be prepared to maintain accountability over assets.

     For the purpose of this report, we have classified the significant internal control
structure policies and procedures for the accounts reviewed into the following functional
areas:

    Entity Assets:

       Fund Balance with Treasury: (1) collections, (2) disbursements,
       (3) certifications, (4) reconciliations, and (5) financial reporting.

       Accounts Receivable, Net, Federal: (1) revenue cycle, (2) billing cycle,
       (3) collections cycle, and (4) financial reporting.

       Advances and Prepayments, Federal: (1) receipt cycle, (2) billing cycle,
       (3) expense cycle, (4) disbursement cycle, (5) collections cycle, and (6) financial
       reporting.

       Other Federal (Intragovernmental):           (1) asset classification,   and (2) financial
       reporting.

       Accounts Receivable, Net, Non-Federal: (1) revenue cycle, (2) billing cycle,
       (3) collection cycle, and (4) financial reporting.

       Advances and Prepayments, Non-Federal: (1) receipt cycle, (2) billing cycle,
       (3) expense cycle, (4) disbursement cycle, (5) collections cycle, and (6) financial
       reporting.

        Other Non-Federal     (Governmental):       (1) asset classification,   and (2) financial
        reporting.

        Inventory, Net: (1) inventory cycle, (2) financial and inventory accounting
        cycle, and (3) financial reporting cycle.

        Work in Process: (1) revenue cycle, (2) billing cycle, (3) expense cycle, and
        (4) financial reporting cycle.




                                                9
       Property, Plant, and Equipment, Net; and Operating Materials/Supplies,              Net:
       (1) requesting, (2) receiving, (3) issuing/disposal, and (4) financial reporting.

       Other Entity Assets: (1) asset classification,    and (2) financial reporting.

   Non-Entity     Assets:

       Other: (1) requesting, (2) approving, (3) receiving, (4) disposing, and
       (5) financial reporting.

   Liabilities   Covered by Budgetary Resources:

       Accounts Payable, Federal and Non-Federal: (1) expense cycle, (2) receipt
       cycle, (3) disbursement cycle, and (4) financial reporting cycle.

       Debt, Federal:    financial reporting.

       Other Federal (Intragovernmental) Liabilities: (1) billing cycle,
       (2) production cycle, (3) expense cycle, and (4) financial reporting cycle.

       Accrued Payroll and Benefits:       (1) personnel liabilities, and (2) financial
       reporting.

       Other Non-Federal (Governmental) Liabilities: (1) expense cycle, (2) receipt
       cycle, (3) disbursement cycle, and (4) financial reporting cycle.

    Net Position:

       For Invested Capital, Cumulative Results of Operations, and Other: financial
       reporting.

     We noted certain matters involving the internal control structure and its operation that
we consider to be reportable conditions under standards established by the American
Institute of Certified Public Accountants and Offtce of Management and Budget Bulletin
No. 93-06. Reportable conditions involve matters coming to our attention relating to
significant deficiencies in the design or operation of the internal control structure that, in
our judgment, could adversely affect the organization’s ability to ensure that:
(1) obligations and costs are in compliance with applicable law; (2) funds, property, and
other assets are safeguarded against waste, loss, unauthorized use, or misappropriation;
and (3) revenues and expenditures applicable to agency operations are properly recorded
and accounted for so that accounts and reliable financial and statistical reports can be
prepared in accordance with applicable accounting standards and accountability over
assets can be maintained.




                                                10
    The specific reportable internal control conditions are briefly identified below.
Details on these conditions are presented in a separate supporting report.

    1. Amounts reported as collected and disbursed in support of Fund Balance with
       Treasury for the 30 September 1997 Department of the Navy Working Capital
       Fund Consolidated Financial Statements did not agree with individual activity
       records even after cash reconciliations were performed.

   2. Accounts Receivable, Net, Federal was inaccurate because guidance was not
      followed for revenue recognition, reconciliations, billings, and collection
      procedures. Additionally, transactions were incorrectly reported and others were
      not reported.

   3. Accounts Receivable, Net, Non-Federal was misstated because transactions were
      not reported or were incorrectly reported, and because amounts reported as
      outstanding had already been collected.

   4.   Advances and Prepayments, Non-Federal was inaccurate because of payment data
        not being properly registered or recorded, system weaknesses, and previous
        payment errors not being corrected.

   5. Inventory, Net records were inaccurate due to errors in inventory transaction
      processing and reporting, inadequacies in commercial repair transaction program
      recognition, and the lack of or questionable transaction reporting by some
      contractors. In addition, Material-in-Transit was inaccurate due to payment
      mischarges and various systemic problems.

   6. Work in Process was inaccurate because the present revenue recognition policy
      was incorrectly applied, reconciliations were not performed, misclassifications
      occurred, and inappropriate costs were included.

    7. Operating Materials/Supplies, Net was inaccurate because of improper
       reconciliation procedures, items being misclassified, noncompliance with material
       and supplies levels, and unauthorized use of an allowance account. In addition,
       records for material were inaccurate because of flawed physical inventory
       techniques, lack of statistical sampling techniques, lack of sightback procedures,
       and inaccurate reporting of inventory results.

    8. Property, Plant, and Equipment, Net was inaccurate because assets were not
       reported or recorded correctly, other assets were misclassified, depreciation was
       not correctly reported, leases were not capitalized, and depreciation was not taken
       for Assets Not-In-Use and misclassified assets.




                                              11
   9. Accounts Payable, Federal was not accurate because of failure to adjust
      accounting records for paid liabilities, bookkeeping errors, improper
      reconciliations, and misclassifications.

  10. Other Federal (Intragovernmental) Liabilities was inaccurate because of
      reconciliations not being performed, customer orders being billed in excess of
      authorized funding, misclassifications, accounting errors, lack of supporting
      documentation, and premature revenue recognition. Submissions were misstated
      for Advance Return of Depot Level Repairable Carcasses, due to unique
      processing transactions and systemic processing problems. In addition, Liabilities
      for Deposits in Advance of Sales for the Foreign Military Sales Trust Fund and
      for Ships Stores Profits Transferrable had not been reviewed for validity.

  11.   Accounts Payable, Non-Federal was misstated due to bookkeeping errors, invalid
        transactions being included in records, misclassifications, and records not being
        updated.

  12.   Other Non-Federal (Governmental) Liabilities was inaccurate due to bookkeeping
        errors, unrecorded payments, incorrect postings, and misclassifications.

  13.   Under Net Position, Invested Capital, Cumulative Results of Operations, and
        Other were inaccurately reported because losses from excess material, assets
        transferred out to others, and material transferred in from others were posted to
        incorrect capital accounts.

  14.   Vulnerability assessments were inaccurate for assessable units related to the
        accounts reviewed for internal controls on the Fiscal Year 1997 Department of the
        Navy Working Capital Fund Consolidated Financial Statements.

  15.   Department of the Navy Working Capital Fund did not include all intrafimd
        eliminating transactions for Accounts Receivable, Unearned Revenue, Accounts
        Payable, or Advances because systems that would identify intrafund transactions
        were not fully developed.

 16.    Financial accounting systems used by Department of the Navy Working Capital
        Fund activities could not adequately control, distribute, identify, or transfer
        collections and disbursements because audit trails and internal controls were
        lacking.

 17.    Department of the Navy Working Capital Fund activities could not always
        provide complete and usable transaction-driven databases to support reported
        financial statement balances.

    Based on our comparison of the agency’s most recent Federal Managers’ Financial
Integrity Act report and the results of our audit, we concluded that the agency’s Federal


                                             12
Managers’ Financial Integrity Act report was not completely accurate. The Federal
Managers’ Financial Integrity Act report did not disclose the material internal control
weaknesses identified in this audit regarding Accounts Receivable, Net, Non-Federal;
Non-Entity Assets; Invested Capital; Cumulative Results of Operation; Other (Net
Position); and Financial Accounting Systems. In addition, Department of the Navy
Working Capital Fund activities prepared inaccurate vulnerability assessments for
assessable units related to the accounts reviewed on the Fiscal Year 1997 Department of
the Navy Working Capital Fund Consolidated Financial Statements. We reviewed
118 assessable units and found 76, or 64 percent, were not given an accurate vulnerability
assessment by the activities. This means that management rated the assessments either
too low or not at all. Of the 76 assessments that were not accurately rated, activities gave
no rating for 43. Accurate vulnerability assessments form the basis of a meaningful
Management Control Plan that schedules Management Control Reviews and Alternate
Management Control Reviews to identify material internal control weaknesses.
Inadequate internal control systems increase the vulnerability of assets to fraud, waste, or
mismanagement.

     We consider these reportable conditions to be material weaknesses. A material
weakness is a reportable condition in which the design or operation of specific internal
control structure elements does not reduce to a relatively low level the risk that errors or
irregularities, in amounts that would be material in relation to the Statement of Financial
Position being audited, may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions.

     Our    consideration of the internal control structure would not necessarily disclose all
matters    that might be reportable conditions and, accordingly, would not necessarily
disclose    all reportable conditions that are also considered to be material weaknesses as
defined    above.




                                              /        JAMES D. WATTS
                                                       By direction
27 February 1998




                                                  13
                              Part III:
          Report on Compliance With Laws and Regulations


    We attempted to audit the Statement of Financial Position of the Consolidated
Financial Statements of the Department of the Navy Working Capital Fund as of
30 September 1997 and 1996 and the related Statement of Operations and Changes in Net
Position and Statement of Cash Flows for the years then ended. We have issued our
report thereon dated 27 February 1998

     We conducted our audit in accordance with Federal generally accepted auditing
standards as stated in Government Auditing Standards issued by the Comptroller General
of the United States and as stated in Office of Management and Budget Bulletin
No. 93-06, “Audit Requirements for Federal Financial Statements.” Those standards
require that we plan and perform the audit to obtain reasonable assurance that the
Statement of Financial Position, Statement of Operations and Changes in Net Position,
and Statement of Cash Flows of the Consolidated Financial Statements of the Department
of the Navy Working Capital Fund are free of material misstatements.

     Compliance with laws and regulations applicable to the Department of the Navy
Working Capital Fund activities is the responsibility of the Department of the Navy’s
management.     As part of obtaining reasonable assurance about whether the Statement of
Financial Position, Statement of Operations and Changes in Net Position, and Statement
of Cash Flows of the Consolidated Statements were free of material misstatement, we
tested compliance with laws and regulations that could directly affect the statements and
appropriate laws and regulations designated by the Office of Management and Budget,
Department of Defense, and the Department of the Navy for the following accounts: for
Entity Assets: Fund Balance with Treasury; Accounts Receivable, Net, Federal and Non-
Federal; Advances and Prepayments, Federal and Non-Federal; Other Federal
(Intragovernmental);   Other Non-Federal (Governmental); Inventory, Net; Work in
Process; Operating Materials/Supplies, Net; Property, Plant, and Equipment, Net; and
Other Entity; for Non-Entity Assets: Other; for Liabilities Covered by Budgetary
Resources: Accounts Payable, Federal and Non-Federal; Debt, Federal; Other Federal
(Intragovernmental)   Liabilities; Accrued Payroll and Benefits; and Other Non-Federal
(Governmental) Liabilities; and for Net Position: Invested Capital; Cumulative Results
of Operations; and Other. Transactions were tested against the following laws and
regulations as applicable:

    l   Public   Law   103-356, “Government Management Reform Act of 1994.”
    l   Public   Law   103-62, “Government Performance and Results Act of 1993 .‘I
    l   Public   Law   101-576, “Chief Financial Officers Act of 1990.”
    l   Public   Law   100-496, “Prompt Payment Act of 1988.”
    l   Public   Law   97-255, “Federal Managers’ Financial Integrity Act of 1982.”




                                              14
Public Law 96-5 lo,94 Stat. 2767, “Comprehensive Environmental Response,
Compensation, and Liability Act,” as amended by Public Law 99-499,
100 Stat. 1613.
Budget and Accounting Procedures Act of 1950.
Title 3 1, “Money and Finance.”
Subtitle II, The Budget Process, of Title 3 1, U.S. Code, including the
Antideficiency Act provisions found in Title 3 1, U.S. Code, Section 1341,
“Limitations on Expending and Obligating Amounts,” and Title 3 1, U.S. Code,
Section 15 17, “Prohibited Obligations and Expenditures.”
Subtitle III, Financial Management, of Title 3 1, U.S. Code, including the
requirements for accounting and accounting systems and information in Title 3 1,
U.S. Code, Sections 3511,3512,3513,      and 3514; and the financial statement
requirements in Title 3 1, U.S. Code, Section 35 15.
Title 10, “Working Capital Funds.”
Office of Management and Budget Bulletin 93-06, “Audit Requirement for
Federal Financial Statements.”
Office of Management and Budget Bulletin 93- 18, “Audited Financial
Statements.”
Office of Management and Budget Bulletin 97-O 1, “Form and Content of Agency
Financial Statements.”
Office of Management and Budget Circular No. A- 123, “Management
Accountability and Control.”
Office of Management and Budget Circular A- 125 (Revised), “Prompt Payment.”
Office of Management and Budget Circular No. A-127, “Financial Management
Systems.”
Office of Management and Budget Statement of Federal Financial Accounting
Concepts Number 1, “Objectives of Federal Financial Reporting.”
Office of Management and Budget Statement of Federal Financial
Accounting Standards Number 1, “Accounting for Selected Assets and
Liabilities.”
Office of Management and Budget Statement of Federal Financial Accounting
Standards Number 2, “Accounting for Direct Loans and Loan Guarantees.”
Office of Management and Budget Statement of Federal Financial Accounting
Standards Number 3, “Accounting for Inventory and Related Property.”
Office of Management and Budget Statement of Federal Financial Accounting
Standards Number 5, “Accounting for Liabilities of the Federal Government.”
Treasury Financial Manual.
Federal Financial Management Improvement Act of 1996 (Public Law 104-208).
Federal Acquisition Regulation, Part 45.
Department of Defense Appropriations Act of 1993 (Public Law 102-396).
Department of Defense Instruction 4140.1 R, “Materiel Management Regulation.”
Department of Defense Instruction 4140.39, “Storage.”
Department of Defense Manual 7220.9-M, “Department of Defense Accounting
Manual.”




                                    15
Department of Defense Instruction 7000.14, “Department of Defense Financial
Management Policy Procedures.”
Department of Defense Financial Management Regulation, DOD 7000.14-R,
Volume 1, “General Financial Management Information, Systems, and
Requirements.”
Department of Defense Financial Management Regulation, DOD 7000.14-R,
Volume 2B, “Budget Presentation and Formulation.”
Department of Defense Financial Management Regulation, DOD 7000.14-R,
Volume 4, “Accounting Policy and Procedures.”
Department of Defense Financial Management Regulation, DOD 7000.14-R,
Volume 5, “Disbursing and Policy Procedures.”
Department of Defense Financial Management Regulation, DOD 7000.14-R,
Volume 6, “Reporting Policy and Procedures.”
Department of Defense Financial Management Regulation, DOD 7000.14-R,
Volume 8, “Civilian Pay Policies and Procedures.”
Department of Defense Financial Management Regulation, DOD 7000.14-R,
Volume 10, “Contract Payment Policy and Procedures.”
Department of Defense Financial Management Regulation, DOD 7000.14-R,
Volume 11 B, “Reimbursable Operations, Policy, and Procedures-Defense
Working Capital Fund.”
Department of Defense Financial Management Regulation, DOD 7000.14-R,
Volume 14, “Administrative Control of Funds and Antideficiency Act
Violations.”
Department of Defense Financial Management Regulation, DOD 7000.14-R,
Volume 15, “Security Assistance Policy and Procedures.”
Department of Defense Directive 50 10.38, “Internal Management Control
Program.”
Department of Defense Manual 7200.1 OM, “Report of Survey.”
Department of Defense Directive 4140.3 1, “Defense Inactive Item Program.”
Defense Finance and Accounting Service - Cleveland Memorandum
7220.1 -G, “DFAS-CL Year-End Closing Guidance for Fiscal Year 1997.”
Defense Finance and Accounting Service Memorandums dated 25 June and
19 August 1993, “Update to New Accounts, Data Base Codes and Procedures for
Use by Navy Industrial Fund.”
Defense Finance and Accounting Service Memorandum dated 1 August 1997,
“Revised Fiscal Year 1997 Factors to Adjust Defense Working Capital Fund
Supply Management Inventory Values.”
Under Secretary of Defense (Comptroller) Memorandum dated 3 1 March 1994,
“Negative Unliquidated Balances/Disbursements     in Excess of Obligations.”
Under Secretary of Defense (Comptroller) Memorandum dated 30 June 1995,
“Obligation of Amounts for Unmatched Disbursements and Negative
Unliquidated Obligations.”
Under Secretary of Defense (Comptroller) Memorandum dated 30 June 1995,
“New Accounts, Database Codes and Procedures for Use by Obligation of
Amounts for Unmatched Disbursements and Negative Unliquidated Obligations.”


                                  16
       Under Secretary of Defense (Comptroller) Memorandum dated 19 August 1994,
       “Recording Monthly Cash Transactions.”
       Secretary of the Navy Instruction 5200.35C, “Department of the Navy
       Management Control Program.”
       Secretary of the Navy Instruction 52 12X, “Navy and Marine Corps Record
       Disposition Manual.”
       Secretary of the Navy Instruction 7000.18E, “Policy for Development and Control
       of Accounting Systems in the Department of the Navy.”
       Secretary of the Navy Instruction 5500.4F, “Reporting of Missing, Lost, Stolen,
       or Recovered Government Property.”
       Assistant Secretary of the Navy (Financial Management and Comptroller)
       Memorandum of 6 November 1996, “Procedures for Expensing Problem
       Disbursements over 180 Days Old in the Defense Business Operations Fund.”
       Assistant Secretary of the Navy (Financial Management and Comptroller)
       Memorandum of 21 October 1997, “Procedures for Expensing Problem
       Disbursements over 180 Days Old in the Navy Working Capital Fund.”
       Chief of Naval Operations Instructions 4440.39 and 4440.23, “Storage.”
       Naval Supply Publication 437, “Standard Operating Procedures Manual.”
       Naval Supply Systems Command Instruction 4440.179A, “Report of Discrepancy
       (ROD) Manual.”
       Naval Supply Publication 1, “Storage.”
       Naval Supply Systems Command Instruction 4440. I 15G, “Physical Inventory
       Program.”
       Naval Supply Systems Command Instruction 4440.177, “Inventory Accuracy
       Officer for Inventory Control Points.”
       Navy Comptroller Manual, Volume 3, “Appropriation Cost and Property
       Accounting (Field).”
       Navy Comptroller Manual, Volume 5, “Navy and Marine Corps Industrial
       Funds.”
       Navy Comptroller Manual, Volume 8, “Financial Inventory Accounting,
       Reporting, and Billing.”

     As part of our audit, we reviewed management’s process for evaluating and reporting
on internal control and accounting systems under the Department of the Navy’s
Management Control Program and Financial Management Systems Review and
Evaluation Program. Our review focused on whether there was reasonable assurance that
the objectives of the Federal Managers’ Financial Integrity Act were achieved. We
compared the Department of the Navy Working Capital Fund’s most recent Integrity Act
reports with the evaluation we conducted of the Fund’s internal control system. We also
reviewed and tested the Fund’s policies, procedures, and systems for documenting and
supporting financial, statistical, and other information presented in the Overview of the
Renorting Entitv and Supnlemental Financial and Management Information. However,
our objective was not to provide an opinion on overall compliance with such provisions.




                                            17
     Material instances of noncompliance are failures to follow requirements and
violations of prohibitions contained in laws or regulations that cause us to conclude that:
(1) the aggregation of the misstatements resulting from those failures or violations is
material to the Statement of Financial Position of the Consolidated Financial Statements
of the Department of the Navy Working Capital Fund, or (2) the sensitivity of the matter
would cause it to be perceived as significant by others. The results of our tests of
compliance disclosed instances of noncompliance, the effects of which have not been
corrected in the Fiscal Year 1997 Department of the Navy Working Capital Fund
Consolidated Financial Statements.

    The specific material instances of noncompliance are briefly described below.
Details on these instances are presented in a separate supporting report.

1.    Amounts reported as collected and disbursed in support of Fund Balance with
      Treasury for the 30 September 1997 Department of the Navy Working Capital Fund
      Consolidated Financial Statements did not agree with individual activity records
      after cash reconciliations. (Under Secretary of Defense (Comptroller) Memorandum
      dated 19 August 1994; and Department of Defense Financial Management
      Regulation, DOD 7000.14-R, Volume 1 lB, chapter 54, paragraph B.5.)

 2.   Accounts Receivable, Net, Federal was inaccurate because guidance was not
      followed for revenue recognition, reconciliations, billings, and collection policies.
      (Department of Defense Financial Management Regulation, DOD 7000.14-R,
      Volume 4, paragraphs 010406 and 030203; Volume 5, paragraph 280203; and
      Volume 11 B, chapter 54, paragraph C.5, and chapter 61, paragraph A.7.)

 3.   Accounts Receivable, Net, Non-Federal was misstated because transactions were
      not reported or were incorrectly reported, and because amounts reported as
      outstanding had already been collected. (Department of Defense Financial
      Management Regulation, DOD 7000.14-R, Volume 4, paragraphs 010402 and
      030201; and Volume 1 lB, chapter 54, paragraph C.4.)

4.    Advances and Prepayments, Non-Federal was inaccurately reported because
      payment data was not properly registered or recorded, system weaknesses existed,
      and previous payment errors were not corrected. (Department of Defense Financial
      Management Regulation, DOD 7000.14-R, Volume 4, paragraph 050309.)

5.    Inventory, Net records were inaccurate due to errors in inventory transaction
      processing and reporting, inadequacies in commercial repair transaction program
      recognition, and the lack of or questionable transaction reporting by some
      contractors. In addition, Material-in-Transit was inaccurate due to receipts not
      being posted or being posted using incorrect prices, and because of payment
      mischarges. (Department of Defense Financial Management Regulation,
      DOD 7000.14-R, Volume 11B, chapter 55, paragraph G. 1; and Federal Acquisition
      Regulation, Subpart 45.5 .)


                                              18
6.    Work in Process was inaccurate because the present revenue recognition policy was
      incorrectly applied, reconciliations were not performed, misclassifications occurred,
      and inappropriate costs were included. (Department of Defense Financial
      Management Regulation, DOD 7000.14-R, Volume 11B, chapter 61, paragraph
      A.7.B; and chapter 63, paragraph F.2.D.)

7.    Operating Materials/Supplies, Net was inaccurate because of improper
      reconciliation procedures, items being misclassified, noncompliance with material
      and supply levels, and unauthorized use of an allowance account. In addition,
      material records were inaccurate because of flawed physical inventory techniques,
      lack of statistical sampling techniques, lack of sightback procedures, and inaccurate
      reporting of inventory results. (Department of Defense Financial Management
      Regulation, DOD 7000.14-R, Volume 1 lB, chapter 55, addendum 1, paragraphs
      a-f.)

8.    Property, Plant, and Equipment, Net was inaccurate because assets were incorrectly
      reported and recorded, other assets were misclassified, depreciation was not
      correctly reported, leases were not capitalized, and depreciation was not taken for
      Assets Not-In-Use and misclassified assets. (Department of Defense Financial
      Management Regulation, DOD 7000.14-R, Volume 1 lB, chapter 58, paragraphs D.6
      and D.7; and Addendum 1, paragraph B. 1.)

9.    War Reserves material was included in Inventory, Net rather than separately as
      required. (It was stated in the footnotes to the Department of the Navy Working
      Capital Fund Statement of Financial Position that this condition would be corrected
      in Fiscal Year 1998.) (Department of Defense Financial Management Regulation,
      DOD 7000.14-R, Volume 6, paragraph 061202.A. 1.l.)

10.   Other Non-Entity Assets included Individual Material Readiness List equipment
      that should not have been reported on Department of the Navy Working Capital
      Fund financial statements. These assets did not meet criteria for reporting as
      Department of the Navy Working Capital Fund assets. (Department of Defense
      Financial Management Regulation, DOD 7000.14-R, Volume 11 B, chapter 58,
      paragraph 7.E.2.)

11    Accounts Payable, Federal was misstated because of failure to adjust accounting
      records for paid liabilities, bookkeeping errors, improper reconciliations, and
      misclassifications. (Department of Defense Financial Management Regulation,
      DOD 7000.14-R, Volume 4, paragraphs 080204,080301,080302,             and 090201
      (A. and B.).)

12.   Other Federal (Intragovernmental) Liabilities was misstated because of
      reconciliations not always being performed, customer orders being billed in excess
      of authorized funding, misclassifications, accounting errors, lack of supporting
      documentation, and premature revenue recognition, Submissions were misstated


                                             19
      for Advance Return of Depot Level Repairable Carcasses, due to unique processing
      transactions and systemic processing problems. In addition, Liabilities for Deposits
      in Advance of Sales for the Foreign Military Sales Trust Fund and for Ships Stores
      Profits Transferrable had not been reviewed for validity. (Department of Defense
      Financial Management Regulation, DOD 7000.14-R, Volume 1, paragraphs 020206,
      030602, chapter 3, Addendum 1; Volume 4, chapter 13, paragraphs 080203,
      080204,0803 10,130102, and 130303; and Volume 1 lB, chapter 61, paragraphs
      AS, B.2.b, and B.3.)

13.   Accounts Payable, Non-Federal was misstated due to bookkeeping errors, invalid
      transactions being included in records, misclassifications, and records not being
      updated. (Department of Defense Financial Management Regulation,
      DOD 7000.14-R, Volume 1, paragraph 020206; Volume 4, paragraph 090205; and
      Volume 1 lB, chapter 59, paragraph B.2.)

14.   Other Non-Federal (Governmental) Liabilities was misstated due to bookkeeping
      errors, unrecorded payments, incorrect postings, and misclassifications.
      (Department of Defense Financial Management Regulation, DOD 7000.14-R,
      Volume 1, paragraph 020206; Volume 4, paragraph 090205; and Volume 11 B,
      chapter 59, paragraph B.2.)

15.   The Net Position accounts of Invested Capital, Cumulative Results of Operations,
      and Other were inaccurately reported because losses from excess material, assets
      transferred out to others, and material transferred in from others were posted to
      incorrect capital accounts. (Department of Defense Financial Management
      Regulation, DOD 7000.14-R, Volume 11B, chapter 56, paragraph E.; and Defense
      Finance and Accounting Service memorandums dated 25 June and 19 August
       1993.)

16.   Department of the Navy Working Capital Fund did not include all intrafund
      eliminating transactions for Accounts Receivable, Unearned Revenue, Accounts
      Payable, or Advances because systems that would identify intrafund transactions
      were not fully developed. (Department of Defense Financial Management
      Regulation, DOD 7000.14-R, Volume 6, chapter 6, paragraph 0616, Appendix AI.)

17.   Department of the Navy Working Capital Fund activities did not recognize the
      financing source and corresponding depreciation expense received from the use of
      real property assets because personnel did not think it was appropriate for such
      assets. (Department of Defense Financial Management Regulation,
      DoD 7000.14-R, Volume 11B, chapter 62, paragraph D.2.)

18.   Problem disbursements over 180 days old were not being written off as required.
      (Under Secretary of Defense (Comptroller) Memorandum of 30 June 1995.)




                                            20
19.   General Ledger Account 2270, Accrued Expenses - Other was being reported in
      Other Non-Federal (Governmental) Liabilities rather than in Accounts Payable,
      Federal as required. (Department of Defense Financial Management Regulation,
      DOD 7000.14-R, Volume 6, paragraph 06 1205 .)

20.   The Defense Industrial Financial Management System did not comply with Federal
      Financial Management Systems requirements. (Federal Financial Management
      Improvement Act of 1996, PL 104-208, Section 803; and Department of Defense
      Financial Management Regulation, DOD 7000.14-R, Volume 1, paragraph
      020204-B.)

21.   Department of the Navy Working Capital Fund activities could not always provide
      complete and usable transaction-driven databases to support reported financial
      statement balances as required. (Department of Defense Financial Management
      Regulation, DOD 7000.14-R, Volume 6, Chapter 6, paragraphs 060 102 and
      06070 1.)

     Except as described above, the results of our tests of compliance indicated that, with
respect to the items tested, the Department of the Navy Working Capital Fund activities
complied, in all material respects, with the provisions referred to in the third paragraph of
this auditor’s report. With respect to items not tested, nothing came to our attention that
caused us to believe that Department of the Navy Working Capital Fund activities had
not complied, in all material respects, with those provisions.




                                           /        JAMES D. WATTS
                                                    By direction
27 February 1998




                                               21
22
          Section C
            Overview,
Consolidated Principal Statements,
   and Consolidated Footnotes




                23
      Chief Financial
          Officer
     Annual Financial
        Statements
         FY 1997




  Department of the Navy
Navy Working Capital Fund
                                                                                                                             Table of Contents

                                  DEPARTMENT OF THE NAVY
                                 NAVY WORKING CAPIT& FUND



                                                           Table of Contents

Overview .......................................................................................................................              1

Consolidated             Principal Statements                   .........................................................................   .2 1

Consolidating             Statements ..........................................................................................             31

Consolidated             Footnotes .............................................................................................             73

Audit Opinion ...........................................................................................................                   133




                                                                                     i
                    Overview




DEPARTMENT OF THE NAVY

 NAVY WORKING CAPITAL
        FUND

       OVERVIEW
Overview




           2
                                                                                    Overview


                         DEPARTMENT OF THE NAVY
                        NAVY WORKING CAPITAL FUND
                                OVERVIEW

Introduction

       These financial statements report on the financial position and results of operations of the
Department of the Navy (DON) Navy Working Capital Fund for FY 1997. They are prepared
pursuant to the requirements of the Chief Financial Officer’s Act of 1990 as amended by the
Government Management Reform Act of 1994 and the Department of Defense (DOD)
implementing guidance.

       The financial statements include all aspects of the DON’s supply and industrial
operations. They do not include any other appropriated, trust or revolving funds. The principal
statements are prepared from the same sources as are reports used to monitor and control
budgetary resources. In FY 1996, the DON’s financial statements were presented for each
primary and select secondary activity groups as well as a consolidated level financial statement.
In FY 1997, the DON’s financial statements are presented at the consolidated level only in
accordance with DOD guidance.

Description    and Overview

       Working capital funds were created in the DOD by the National Security Act
Amendments of 1949. This legislation gave the Secretary of Defense the authority to establish
working capital funds to finance inventories of supplies and for industrial activities that provide
common services within the Departments and Agencies of the DOD.

         Working capital funds can be broadly segregated into two functional areas: industrial
operations and supply operations. Working capital funds finance the operating costs of most
industrial, manufacturing, and service activities of the DOD. Industrial and service activities are
g,iven working capital to finance the cost of producing goods and services ordered by customers
and subsequently receive reimbursement by billing, much as a private business does. By using
money generated from sales to replenish its working capital, these funds are intended to be self-
sustaining; hence the term “revolving fund.” Working capital funds also fmance the costs of
supply operations which hold inventories of parts, subsistence, fuel, and other supplies for sale to
military units.

        Beginning in FY 1992, the DOD combined five industrial funds and four stock funds, and
several appropriated fund support activities, including the Defense Finance and Accounting
Service (DFAS) and the Defense Commissary Agency, into a single revolving fund called the
Defense Business Operations Fund (DBOF). The primary goal of establishing DBOF was to
focus the attention of all levels of DOD management on the total costs of carrying out certain



                                                  3
Overview

critical DOD business operations and to manage those costs effectively. Within the Department
of the Navy this combining of funds involved the Navy Industrial Fund, the Marine Corps
Industrial Fund, and the Department of the Navy Stock Fund.

        The Office of the Secretary of Defense (Comptroller) centrally managed the cash balance
of the DBOF. On 1 February 1995, DOD returned the management of the DBOF’s cash balance
to the military service and DOD component level to more appropriately align cash management
with the operating entities. This action made each individual DOD component directly
accountable for its respective cash balance since it was their management decisions that directly
affected cash.

        A further evolution of the fund occurred on 11 December 1996, when the Under
Secretary of Defense (USD) (Comptroller) canceled the DBOF and established four funds: the
Army Working Capital Fund, the Navy Working Capital Fund (NWCF), the Air Force Working
Capital Fund, and the Defense-wide Working Capital Fund. This decision reinforced the role the
DOD components by clearly establishing the component’s responsibility to manage.
Collectively, these four funds are known as the Defense Working Capital Funds.

        The NWCF is a business-type financial operation which distinguishes between capital
and operating costs using standard accounting principles. A basic principle of the NWCF, like
the DBOF, is to capture all the costs of operating an activity group and to reflect the total cost of
doing business in stabilized prices charged to customers. It operates on a break-even basis over
the long term. Profits, when they occur, are returned to customers through lower rates in
subsequent years. Similarly, losses are recouped through an increase in rates in subsequent
years.

        The DON has historically operated a large number of its supply and industrial facilities
under revolving fund concepts. Effective 1 October 1996, the Department merged the Logistics
Support Activities activity group into the Supply Management activity group, and transferred the
Defense Automated Printing Service activity group to the Defense Logistics Agency, thereby
reducing the number of activity groups reported in FY 1997. There are six diverse primary
activity groups remaining in the DON, covering about fifty reporting entities. These six activity
groups are (1) Supply Management, (2) Depot Maintenance, (3) Research & Development, (4)
Base Support, (5) Information Services, and (6) Transportation.

        Three of the six primary activity groups include operations so extensive as to warrant
smaller “secondary” activity groups that correspond to the Department of the Navy systems
command structure. For example, the activity group of Depot Maintenance consists of four
secondary activity groups. Generally, the primary and secondary activity groups can also be
categorized by the type of functions performed for its customers, i.e., supply, industrial, or
services. The DON also has Component-level activity group that represents a “corporate-level”
holding area for financial transactions (primarily collections and disbursements) which are
pending identification to a specific activity group. A brief synopsis of the primary and associated
secondary NWCF activity groups categorized by these three functions is provided below.



                                                   4
                                                                                    Overview

                                              Sumly

Sup~lv   Management - Ibis primary activity group of Supply Management consists of two
secondary activity groups, Supply Management-Navy and Supply Management-Marine Corps,
which perform inventory management functions for shipboard, aviation, and amphibious
reparable and consumable spare parts and commodities. In FY 1996, the Navy Distribution
Depot activity group, which provided management of overseas Fleet Industrial Supply Centers,
merged with Supply Management-Navy, and in FY 1997, the Logistics Support Activities
activity group, which provided support functions for ashore and afloat commanders, merged into
Supply Management-Navy.

                                            Industrial

Denot Maintenance - This primary activity group of Depot Maintenance consists of the
following four secondary activity groups: (1) Ordnance with five activities; (2) Shipyards with
four activities; (3) Aviation with three activities; and (4) the Marine Corps with two activities.
The functions associated with Depot Maintenance are maintenance, repair, manufacturing,
overhaul, refit and restoration, and engineering services for design and development.

                                             Services

 Iiansnortation - This primary activity group provides service-unique vessels such as Naval
Fleet Auxiliary Force vessels, Special Mission Ships, and Afloat Prepositioning Force ships for
sea transportation, logistics forces, and special missions. The Military Sealift Command
manages these vessels from eight commands around the world.

Research and Develonment - This primary activity group consists of the following six
secondary activity groups: (1) Air Warfare Center, (2) Surface Warfare Center, (3) Undersea
Warfare Center, (4) Command, Control, and Ocean Surveillance Center, (5) Naval Research
Laboratory, and (6) Facilities Engineering Service Center. These activities perform a wide range
of research, development, test, evaluation and engineering support functions.

Information Services - This primary activity group consists of three secondary activity groups
which provide regional automated information systems services and design support, and design,
development, maintenance, and environmental support for information technology systems used
by the DON, other DOD activities, and Federal agencies.

Base Sunnort - This primary activity group is comprised of nine public works centers which
support facilities maintenance, environmental services, and utilities for the operating forces and
other activities throughout the world.
Overview

Performance          Measures

        All NWCF activity groups use performance measures as tools in determining
management and operations effectiveness. Performance measures may include cost per direct
labor hour, cost per unit of sales or product, operating costs and results, capital investments,
current assets, financial obligations, financial conditions, and asset management.     Performance
measures and information discussed below, representing an aggregation of all NWCF activity
groups include the civilian and military workforce, revenue, operating results, cash, fill rate for
supply items, and activity accomplishments.

        Personnel Resources

                                         Trend Analysis of Civilian
                                        End Strength and Workyears
                                                  FYs 1994-1997
                                                                                              Q End Strength
                                                        p                                     nW0rkyeat-s
           L”“,““”




           150,000

           100,000


                50,000

                      n
                      _   .
                                Ml994   -       Ml995       ~             FY 1996             FY 1997




                      End Strength          157,117             138,034             118,318          IO6,652

                         Workyears          163,601             149,178             128,321          112,129



         Civilian personnel levels in the DON are at the lowest level since before World War II.
FY 1997 reflects the continued downward trend of the civilian work force as a result of base
closures, reductions in force structure, decreasing workload, and management efficiency. About
49% of the DON’s civilians work at NWCF activities supporting depot level maintenance and
repair of ships, aircraft, and associated equipment, development of enhanced warfighting
capabilities at the Warfare Centers of Excellence, supply, and public works support. Decreases
are anticipated beyond FY 1997 reflecting continued base closure actions, workload decline, and
continued efforts of competition, outsourcing, and regionalization.
                                                                                  Overview



                                    Trend Analysis of Military
                                   End Strength and Workyears
                                          FYs 1994-1997




                   Ml994       .       Ml995           FY1996            FYI997




          End Strength                 4,827         4,443            3,837         3,573

          Workyears                    5,074         4,477            3,875         3,601



         Military personnel levels at NWCF activities reflect the same downward trend seen in the
civiiian workforce resulting from base ciosures, reductions in force structure, decreasing
workload. and management efficiencies. Decreasing levels are anticipated beyond FY 1997 with
further base closures and workload declines.

Revenue by Customer and Provider


                           FY 1996 Revenue by Customer

                                                       m DOD-Other
           q DON-Other                                     17%




                                                       n DON-O&M
                                                                42%
Overview



                   FY 1997 Revenue by Customer




                                                  n DON-O&M
                                                       43%




                      FY 1996 Revenue by Provider


                n SUPPlY
                   280/ _       1 Printing
                         0                       0 Depots
                                     2%
                                                    23%


                                                       n R&D
                                                            33%

           H Transport
                 5%    0 Base Support
                              8%




                         FY 1997 Revenue by Provider



                       n SUPPlY                   El Depots
                             28%                      24%




           n Transport
                 5%          q Base Support
                                    9%




                                             8
                                                                                  Overview

        The total revenue base and thus the volume of goods and services provided to NWCF
customers in FY 1997 was $2 1,92 1 million. When compared to FY 1996 revenues of $24,3 78
million, this represented over a ten percent decline in FY 1997 due primarily to an overall
decline in workload. As the pie charts indicate, the DON Operation and Maintenance (0 & M)
appropriation is the largest customer of the NWCF, followed by the aggregation of other DON
appropriations which include various procurement accounts, Research, Development, Test and
Evaluation, Shipbuilding and Conversion, and others. The major activity group providers of
goods and services are Research and Development, Supply Management, and Depot
Maintenance. These activity groups satisfy over 85 percent of the needs of the NWCF customers
and remains almost unchanged from FY 1996. In FY 1997, the Defense Automated Printing
Service (DAPS) was transferred from the NWCF under DON management to the Defense
Working Capital Fund (DWCF) under the management of the Defense Logistics Agency (DLA).
 DAPS generated approximately $400 million in revenues per annum.


       Industrial/Services



              18,000

              16,000

              14,000

              12,000

              10,000

               6,090

               6,000

               4,000

               m90
                       0




                       Revenue                      16,821          17,691         15,759
                       &P enses                     16,549          17,536         15,324
                       Operating Results               272              155           435

        The Industrial and Services activity groups have shown positive operating results over
the past three fiscal years. However, FY 1997 includes revenues of $5 11 million that Congress
directed to replenish the NWCF cash balance. After adjusting for these revenues, the FY 1997
operating results were negative $76 million. Although negative, this reflects a trend of continual
improvement in NWCF execution against plan. This was possible because of fewer variations in
planned customer workload versus actual customer workload and through the continued efforts
of NWCF managers to contro1 costs and adapt to those changes in customer workload that did
occur.
Overview

       SUPPlY

           12.OOQ

           10.960

            9m9
            6,000

            4,900

            2,900

                  0

           (2.000)

           (4,000)
           16  mm\
           \-,---,    .
                               Ml995          ’   FY 1996            FY 1997




                          Revenue                            6,935         6,687     6,162
                          J%4Denses                          6,253        10,764     8,1I8
                          Operating Results                    682        (4,07i3   (Z956)


        The Supply Management activity group recorded significant operating losses in FY 1996
and FY 1997. These values, resulting from the implementation of the Federal Accounting
Standards Advisory Board (FASAB) inventory valuation accounting standard, are not considered
representative of the operating results of the Supply Management activity group. The FASAB
standard is implemented in the DOD Financial Management Regulation (FMR) 7000.14-R
Volume 11B and was recently modified by the accounting policy staff      of the USD (Comptroller).
The standard requires the use of the latest acquisition cost method for valuing inventory and also
requires the establishment and use of inventory holding gain and loss accounts and a Cost of
Goods Sold from Inventory calculation

         The calculations required to produce the FY 1997 operating results revealed an error in
the FY 1996 operating results. Correction of the FY 1996 error produces a FY 1996 operating
result of about negative $1.9 billion versus the negative $4.1 billion reported. Notwithstanding
this error, the operating results of negative $1.9 billion in both FY 1996 and FY 1997 were still
not considered representative values for the Supply Management activity group. The USD
(Comptroller) , DFAS, and DON continue to review the calculation methodology.

       Cash Management

       Cash management is the process by which managers maintain a sticient supply of cash
to meet day-to-day business needs while maintaining a reasonable allowance for emergencies.
Cash management consists of developing cash plans, monitoring the execution of this cash plan,


                                                        10
                                                                                   Overview

analyzing collections, disbursements and non-expenditure transfers, identification and correction
of errors, and maintaining an appropriate cash balance to meet liabilities and prevent a violation
of the Anti-Deficiency Act. The USD policy requires each WCF to maintain a cash balance
equal to seven to ten days of operating program cash disbursements plus six months of capital
program cash disbursements. For the NWCF this equates to a cash balance in the range of $750
million to $1,100 million. The following chart displays the NWCF cash balance for the past
three fiscal years.


                              Cash Balance versus Advance Billings
                                       N 1995 - N 1997
                                             ($000)



           2,000
           1,800
           1,600
           1,400
           1,200
           1,000
            800
            600
            400
            200
              0
                      Ml995            Ml996       _    Ml997       -




         The cash balance has been at or above the minimum level for the last three fiscal years.
In addition to the cash balance, the above chart displays the unliquidated advance billings
balances remaining at the end of each fiscal year. Advance billing is the practice of having the
customer pay for agreed upon before completion of the task. Advance billing does not change
the scheduled accomplishment of the work or its cost; it does increase short-term cash
availability.

        Large scale advance billings began in FY 1993 while DBOF cash was under the
management of USD. When cash management was returned by USD to the DOD components in
February 1995, the DON received $442 million, less than the required minimum level.
Additionally, the advance billing liability of $2,190 being carried in the DON segment of the
DBOF at the time of the transfer greatly exceeded the cash received. These two conditions
necessitated additional advance billings to ensure solvency and avoid an Anti-Deficiency Act
violation.

        The above chart displays the downward trend of the advance billing balance and an
improving trend when compared to the cash balance. The DON has taken actions to eliminate
the need for further advance billings and liquidate the advance billing liability. The DON has


                                                11
Overview

included specific factors in prices charged to customers to generate additional cash of about $500
million in FY 1998 and $150 million in FY 1999. In addition, Congress authorized a transfer of
funds into customer accounts of the NWCF in FY 1997 to pay for increased surcharges levied by
the NWCF to replenish the cash balance. These actions are anticipated to eliminate the advance
billing balance by the end of FY 1999 and establish the minimum cash balance required by the
NWCF. Advance billings may be necessary during this “replenishment” time period to ensure
solvency.


                                          Cash Flows
                                       FY 1995 - FY 1997
                                            (%OOO)




                                                                                 m hfl0~

                                                                                In otiw
                                                                                 qNet




        The cash inflows and outflows of the NWCF represent over $44 billion in throughput to
the cash balance. This combination of collections and cash transfers-m of $21,826 million and
disbursements and cash transfers-out of $22,986 million represents a flow of about $170 million
each business day. The greatest cash flows occur in the Depot Maintenance, Supply
Management, and Research and Development activity groups. The significant net outflow of
cash in FY 1997 resulted from the liquidation of about $600 million in advance billings in the
Depot Maintenance and Research and Development activity groups, a net cash outflow in Supply
Management of $550 million, and cash transfers-out to finance the Joint Logistics Service
Center.

        Fill Rate-Supply Management

        The primary function of the Supply Management activity group is to sell material to
customers. One indicator of how successful it is in satisfying customers is the Fill Rate. The Fill
Rate or Supply Material Availability (SMA) as it is called in the DON is calculated as the
percent of customer requisitions satisfied from on hand wholesale managed assets. The overall
DON goal is 85%. SMA for the Navy segment and the Marine Corps segment of the Supply
Management activity group is:




                                                 12
                                                                                     Overview


                                                   Navv            Marine Corns
                          FY   1997                80.4%             79.2% *
                          FY   1996                79.3%             73 8% *
                          FY   1995                78.2%             83:1%
                          FY   1994                80.2%             81.5%

                               *SMA for depot level repairable items only

        For the Navy segment, the upward trend of SMA is attributable to a number of factors.
Demand for wholesale managed items is declining and the number of operating units, both
aviation and ships, continues to decline. Through these declines, coupled with continued
decommissioning of ships and squadrons and efforts to expand asset visibility, more material
becomes available from non-traditional sources vice normal procurement. Increased emphasis
on fully funding repair of unserviceable assets increases their availability to satisfy the customer
requirement. For the Marine Corps segment, the SMA for depot level repairable items has
improved over the past fiscal year. Since the majority of consumable items were transferred to
the management of the Defense Logistics Agency, they are excluded from the SMA data. Even
though the SMA is below the desired goal, the Fleet Marine Force readiness posture is at 91
percent, indicating critical supply parts are available to the customer. Inventory managers
continue to monitor SMA and review backorders and repair actions to expedite material to the
customer.

Ship Availability-Transportation

        The mission of the Transportation activity group is to provide efficient sea transportation,
combat ready logistics forces, and reliable special mission ships for the DOD in peace and war.
The Military Sealift Command ships are distinct from other U.S. Navy ships in that they are non-
combatants, include both government-owned and chartered vessels, and they are crewed by
civilian mariners employed by the U.S. Navy and from private operating companies. Ship
availability is defined as the measurement of the number of days that ships are actually available
to perform the function for which they were contracted, against the number of planned days. The
goal is to ensure that the ships are available for the mission to which they were assigned and is
expressed as a percentage of meeting the number of planned days. Ship availability for the Naval
Fleet Auxiliary Force (NFAF), Afloat Prepositioning Force-Navy (APF-N), and the Special
Mission Support (SMS) force are displayed in the following table, in days.

        Program        FY                                              Percent

        N-FAF           1997           11,315          11 937 */**     105.5%
                        1996           14,330          131859           96.7%

        APF-N           1997             5,110          5,073 **        99.3%
                        1996             5,282          5,258           99.5%



                                                  13
Overview

       SMS            1997            8,434           8,118 *       96.3%
                      1996            4,337           3,933         90.7%

                * TAGOS transferred from NFAF to SMS
               ** Hospital ships transferred from APF-N to NFAF


       Activity Accomplishments

         The NWCF is composed of six primary activity groups consisting of 17 secondary
activity groupings. Facing declining workload, BRAC closings, and organizational changes, the
highly skilled workforce at the NWCF activities continue to press for economies and efficiencies
in all elements of their organizations. Whether their efforts have been directed at computer
systems, combat systems, or the workforce itself, the NWCF activity successes have been
unparalleled. The following are just a few of the many important achievements of these groups.

       SUDD~YOnerations    - Inventory investments at all echelons of supply management were
reduced from about $32 billion in FY 1989 to about $17 billion in FY 1997 (before adjustment to
approximate historical cost). This 47 percent reduction was accomplished, in part, by utilizing
technologies to enhance total asset visibility; by reengineering business practices such as
satisfying small purchase demand through the Purchase Card and Direct Vender Delivery
programs; and by outsourcing SERVMART operations with organizations such as the General
Services Administration and the National Industries for the Blind.

         The standardization of business practices and the consolidation of resources is being
employed in the development of regional partnerships with activities under the Fleet and
Industrial Support Centers. These partnerships are designed to reduce the costs of the supply
infrastructure, investment in inventories, and transform the supply system into a responsive
global network. These partnerships have realized savings of $85 million in labor and non-labor
savings through FY 1997.

        Denot Maintenance - Naval Shipyards have continued to improve and streamline work
processes through the implementation of the Advanced Industrial Management (AIM) system.
AIM in an engineering process which improves performance by providing disciplined work
planning, estimating, and scheduling functions; delivering simplified and complete work
documents to the mechanics; promoting data integration and management; and applying group
and zone technology. AIM allows the shipyards to reshape and downsize their organizational
structure.

        In the Naval Aviation Depots (NADEPs), NADEP North Island won the San Diego
Business Journal 1996 Total Excellence In Management award for manufacturing and received
the Chief of Naval Operations 1996 Environmental Award for recycling. At NADEP Cherry
Point, improved procedures for removing accessory gearboxes from the F4Q5 engine were
implemented to prevent damage to engine quill shafts and an intermediate maintenance repair
procedure was developed for the T45 Starting System Air Producer insulation blankets.


                                               14
                                                                                    Overview


        At the Naval Ordnance Center (NOC), a realignment of the business processes,
organizational structure, and staffing of the Inventory Management and Systems Division
(IMSD) was activated in FY 1997, thus completing actions begun in FY 1996. Movement of the
Ammunition Management Offices of the Atlantic and Pacific Divisions under the IMSD
provides a more efficient interface between the Fleet Commanders and inventory managers.
Additionally, the engineering and information resource management functions of NOC activities
were realigned under the single management of the Naval Warfare Assessment Division, paving
the way for the elimination of duplicative efforts and the introduction of standard systems. This
was part of the NOC strategic plan to focus management of the weapons stations on the core
processes of explosives safety, inventory management, and ordnance distribution.

       At the Marine Corps Depot Maintenance Center in Barstow, the Product Team for the
High Mobility Multipurpose Wheeled Vehicle became the first team to use the new
computerized system for Process Standards. These standards identify each work step required at
each workstation. In addition, the system displays plain-language inspection criteria, exploded
diagrams, and provides a method for requesting and tracking the usage of parts. One of the more
popular features is the “touch screen” which eliminated typing by substituting a simple touch of
an appropriate box on the computer screen. Improvements have been seen in predicting parts
and labor requirements and providing customers with a more uniform product.

         Base SUDDOI~- At the Navy Public Works Centers various acquisition improvements
have been employed. Outsourcing, commitment warranting, and purchase cards have put
customers in direct access to suppliers at the point of sale. Integrated teams have been
established, involving the fleet commanders, users, and other “stakeholders” in providing
innovative contracting tools. Additionally, as the centers implement these contracting tools and
improve the delivery of purchases, the time to complete jobs will continue to decline. From a FY
1992 high of 500 days, the turnaround time has declined to 180 days with commensurate
improvements in productivity.

         Research and Development - In the Naval Surface Warfare Center, Dahlgren Division,
successful integration of the Advanced Lightweight Infhrence Sweep System (ALISS) acoustic
subsystem hardware aboard the QST-35A test-bed was completed. The ALISS program was
instituted to develop the next generation of mine countermeasures to address emerging threats in
shallow and very shallow water. Initial at-sea testing is in progress with the new pulsed power
driven spark gap technology and remote control system aboard a target drone craft especially
modified to serve as the ALISS demonstration platform.

         The Naval Air Warfare Center’s (NAWC) accomplishments ranged from the successful
Iifting of a F/A- 18F 1 aircraft using an updated Shipboard Aimraft Crash Handling and Salvage
Crane as part of the Super Hornet’s carrier suitability test, to successfirlIy stopping an unmanned
F/A-l 8E aircraft using a nylon barricade to demonstrate the Super Hornet’s compatibility with
the emergency barricades used on aircraft carriers. The first Bell Boeing V-22 Osprey built to
production standards was delivered to the NAWC Aircraft Division to begin the new flight test
phase for the demonstration of its performance and versatility.


                                                 15
Overview


        The Space and Naval Warfare Systems Center (SSC), San Diego, participated in the Joint
Warrior Inter-operability Demonstration 1997 (JWID 97) sponsored by the joint staff. The SSC
San Diego managed project COMPASS, the Common Operational Modeling, Planning, and
Simulation Strategy, received the JWID Golden Nugget award for its demonstration. SSC San
Diego also showcased twelve demonstrations which were key to solutions of inter-operability
issues between submarines and joint force commanders.

       As a result of amendments to the Clean Air Act, the production of ozone depleting Halon
1301 has been banned. Halon 1301 is a very effective fire suppression agent used in over 2200
shipboard fire suppression systems. The Naval Research Laboratory’s (NRL’s) efforts are key to
the Halon Elimination Program to eliminate Halon in new construction and minim& its existing
use. NRL recommended systems have been incorporated in the LPD-17 ship construction
drawings. Follow on deliverables are for fire protection for the DD-21 and CV@) ships. To
enhance the Halon replacement performance, NRL invented the Water Spray Cooling System
Gaseous Total Flooding Agent Hybrid. A patent is pending for this system which has been
adopted by the &my for the protection of their watercraft.

        The Naval Facilities Engineering Service Center (NFESC) successfully, demonstrated a
new container handler to Naval forces during Exercise Baltic Challenge in Estonia. The
container handler is rough-terrain capable and can handle containers weighing up to 50,000
pounds. The demonstration was a joint test and evaluation exercise with the German military
and provides an opportunity for joint acquisition through the Naval International Programs’
Office. The NFESC also developed and successfully employed the modeling and simulation of
the Tactical Logistics Distribution Simulation software. This software, developed to support the
Maritime Preposition Force and Beyond Wargame, allows the planner to clearly anticipate and
detect where technology and capability gaps need to be filled for successful execution of the
operation.

        The Naval Undersea Warfare Center set a new national submerged speed record with
special bullets designed for high performance underwater. In a recent test, the launch velocity of
the bullet exceeded the speed of sound. The drag of the bullet is very low due to a phenomenon
known as supercavitation in which the high flow speed causes the water near the bullet tip to
vaporize. The results of this test are likely to open other areas of unexplored physics.

        Information Services - The Naval Computer and Telecommunications Station,
Washington, re-engineered the Fleet Modernization Program Management Information System
(FMPMIS) from a mainframe system to a fault tolerant client/server architecture which
eliminates the need for a costly air-cooled mainf?ame environment. The FMPMIS facilitates the
FMP logistics function for the scheduling of ship overhauls, alterations, and material
requirements. The system now enforces the capture of correct data at the time of source data
entry and eases data entry through the use of a graphical user interface. Most of the data is now
entered using a table of legitimate entries vice manual entry.




                                                16
                                                                                         Overview

            The Fleet Material Support Office successfully completed the implementation of the
    Naval Air Station requirements determination version of the Uniform Automated Data
    Processing System. This will now provide the capability for all Fleet and Industrial Support
    Centers, managed in the Supply Management activity group, to establish partnerships with
    multiple air stations and, thus, facilitate reductions in supply infrastructure and investment in
    inventory and improve supply system responsiveness.

            Systems Accomplishments

            Defense Industrial Financial Manapement System CDIFMS) - DIFMS is the interim
    migratory finance and accounting system for the NWCF Depot Maintenance and Research and
    Development activity groups. Through FY 1997, four systems have been consolidated into
    DIFMS. When this system initiative is completed, a total of 13 systems will have been
    consolidated into DIFMS. These 13 systems, which have operated on 25 operational data bases,
    will be collapsed into 7 DIFMS operational data bases.

            Defense Working Cat&al Accounting System (DWAS] - DWAS is the interim migratory
    finance and accounting system for the NWCF Base Support activity group. An updated software
    package for this off the shelf system is anticipated for February 1998. The first Base Support
    Public Work Center (PWC) is to be converted in April 1998 with final completion of all PWCs
    by FY 2000. Upon completion of all PWCs, two existing systems will have been consolidated
    into DWAS and 10 operational data bases will have been replaced by one DWAS operational
.   database.

             Corns of Engineers Financial Management Svstem KEFMS) - CEFMS is an interim
    migratory finance and accounting system for the NWCF Transportation activity group. The
    latest projected implementation for CEFMS is June 1998 at which time it will replace the
    existing Military Sealift Command Financial Management Information System (FMIS). The
    four operational data bases used for FMIS will be replaced by one CEFMS operational data base.

            Material Financial Control System (MFCS) - MFCS is the interim migratory financial
    system for the NWCF Supply Management activity group to be used in the wholesale and retail
    segments of the inventory. Two shipboard systems have already been replaced by MFCS. Once
    conversion is completed, a total of five systems wiIl have consolidated into MFCS. Of the 16 1
    operational data bases for these existing five systems, only three operational data bases will
    remain under a fully implemented MFCS.

    Financial Management      Issues

               Supply Management       Inventory Valuation and Operating Results. The Statement
    of Federal Financial Accounting Standards Number 3, Accounting for Inventory and Related
    Property, was issued by the FASAB in October 1993. The standard prescribes inventory be
    valued at either historical cost or latest acquisition cost. The latest acquisition cost method,
    which requires the recognition of an allowance account for unrealized holding gains and losses,
    is used in the NWCF to arrive at an historical cost of inventory. The adjustments made to the


                                                      17
Overview

allowance account are a component of the cost of goods sold. The FASAB standard is
incorporated in the DOD Financial Management Regulation 7000.14-R Volume 1lB, which also
describes procedures for implementation.

        The accounting policy and procedures staff from the USD Comptroller and DFAS, with
support from the DON staff and the Naval Audit Service (NAS), have been developing a model
to calculate the value of inventory and cost of goods sold using the general ledger of the Supply
Management activity group. This group has encountered significant difficulties in producing
reliable allowance account and cost of goods sold values because (1) the Supply Management
general ledger was developed many years ago and, thus, does not conform to the cutrent DOD
Standard General Ledger; (2) accounting practices used for depot level repairable inventories
were developed over fifteen years ago necessitating the development of work-around
methodologies; and (3) information required for the calculation is not resident in the general
ledger and must be produced for logistics records; and (4) logistics systems do not produce and
pass to the financial systems all transactions envisioned by the latest acquisition cost method.

       The inventory value calculated for the Navy segment of the Supply Management activity
group for FY 1997 of $12,691,622 thousand is considered representative of the historical cost
value. The inventory value of %9,873,757 thousand calculated last year for FY 1996 was not
considered representative. However, the subsequent discovery and correction of an error in the
FY 1996 valuation calculation resulted in a more representative value for FY 1996 of
$13,777,725 thousand.

        The cost of goods sold calculated for FY 1997 of $5,026,766 thousand and the total
expenses of $7,914,225 thousand are not considered representative values of Supply
Management business. When compared to revenues, the resultant net operating results is a
negative $1,923,799 thousand. In FY 1996 the net operating results was a negative $4,035,147
thousand. One area under review is the valuation of inventory being transferred to disposal. The
value appears to be larger than warranted considering the significant quantities of inventory
being returned to the supply system without cost. The USD (Comptroller), DFAS, DON, and
NAS group recognizes that additional work must be done in the model to calculate the cost of
goods sold and they will be meeting to resolve this issue prior to the FY 1998 CFO report.

        Cash Management. The cash position of the NWCF is improving as noted in the charts
above. However, the lack of timely reporting of collections and disbursements hampers analysis,
error correction, and prevention of violations. As the accounting organization, DFAS is working
to improve the accuracy and timeliness of cash reporting.

        The DON and DFAS are jointly working in several areas to improve cash management.
Through FY 1997 the NWCF cash balance was centralized at the NWCF corporate level. In FY
1998 procedures will be developed toward the goal of establishing cash balances at the activity
group and activity level. Consequently, collections and disbursements will no longer be
transferred to the corporate level at the end of each fiscal year. Procedures are also being
developed to identify non-expenditure transfers of cash to the activity level, Heretofore, these
transfers were held at the corporate level, unseen by individual activities. The DON and DFAS


                                                 18
                                                                                   Overview

are also reviewing activity level collection and disbursement processing procedures to identify
reconciliation problems and develop methods for handling aged and pre-NWCF (i.e., DBOF)
transactions.

        Undistributed Disbursements and Collections. The NWCF Fund Balance with
Treasury represents the value of disbursements, collections, and non-expenditure transfers
processed through the DFAS reporting network to the DON NWCF sub-limit in the U.S.
Treasury. The DFAS/DON Centralized Expenditure and Reimbursement Processing System
(CERPS) is the designated system for reporting disbursement and collection data to the U.S.
Treasury. CERPS also provides transaction level disbursement and collection data to the DFAS
Operating Locations (OPLOCs) for processing into each individual NWCF activity general
ledger.

         Significant differences exist between the disbursements and collections reported to the
U.S. Treasury and the disbursements and collections recorded in the NWCF activity general
ledger. The differences between the U.S. Treasury and activity ledgers are recorded in
undistributed disbursement and undistributed collection accounts. Because the activity level
values are higher than the U.S. Treasury values, these accounts contain abnormal balances. The
DFAS has initiated actions to investigate potential problems with the values reported in CERPS
and with activity general ledger processing. Some indications of problems are the pre-posting of
transactions into the activity ledgers prior to processing offtcially through the CERPS. Also, it
appears that specific coding in the transactions sent to the U.S. Treasury are causing collections
to be processed as negative disbursements, however, the transactions are being corrected when
processed into the activity ledgers, but are not being “recycled” through the U.S. Treasury.
While there may be no impact upon the Fund Balance with Treasury, this causes distortions
between the U.S. Treasury and activity level disbursement and collection values.

         Values reported in the undistributed disbursement and collection accounts are normally
reflected as reductions to the values being reported for accounts payable and accounts receivable,
respectively, to simulate the distribution of the undistributed values. Since the undistributed
disbursements and collections accounts contained abnormal values of over $1 billion each,
increases of about $1 billion rather than reductions of $1 billion were applied to the accounts
payable and accounts receivable, thus overstating the values reported in the DON NWCF CFO
for FY 1996. Since significant abnormal balances continue to exist FY 1997, rather than
overstate accounts payable and accounts receivable again, undistributed disbursements and
undistributed collections are being reported in line l-a.(6), Other Federal Entity Assets, of the
Statement of Financial Position pending the completion of the DFAS investigation.


                       Limitations      of the Financial Statements

        The financial statements have been prepared to report the financial position and results of
operations for the Department of the Navy, pursuant to the requirements of the CFO Act of 1990
as amended by the Government Management Reform Act of 1994. While the statements have



                                                 19
Overview

been prepared from the books and records of the Department in accordance with the formats
prescribed by the Offke of Management and Budget, the statements are different from the
financial statements used to monitor and control budgetary resources that are prepared from the
same books and records.

       The statements should be read with the realization that they are for a Federal entity, that
unfunded liabilities reported in the financial statement cannot be liquidated without the
enactment of an appropriation, and that the payment of all liabilities other than for contracts can
be abrogated by the sovereign entity.




                                                  20
                 Principal Statements




DEPARTMENT OF THE NAVY

 NAVY WORZUNG CAPITAL
        FUND

     CONSOLIDATED

 PHNCIPAL   STATEMENTS
Principal Statements




                       22
                                                                     Principal Statements
Department of Defense
Navy Working Capital Fund - Consolidated Navy Working Capital Fund
Statement of Financial Position
As of September 30,1997
(Thousands)

ASSETS

1. Entity Assets:
   a Transactions with Federal (Intragwemmental) Entities:
        (1) Fund Balance with Treasury (Note 2)                         $746,524      %1,905,994
        (2) Investments, Net (Note 4)                                           0              0
        (3) Accounts Receivable, Net (Note 5)                           1,193,817       2,437,997
        (4) Interest Receiv&le                                                 0                 0
        (5) Advances and Prepayments                                     147,792            108,363
      (6) Other Federal (Tntragwemmental) (Note 6)                        49,698             56,461
   b. Transactions with Non-Federal (Gwemmental) Entities:
      (1) Investments (Note 4)                                                  0                 0
      (2) Accounts Re&vable, Net (Note 5)                                285,53 1       1,610,544
      (3) Credit Program Receivables/ Related
          Foreclosed Property, Net                                              0               0
      (4) Interest Receivable, Net                                            133              81
      (5) Advances and Prepayments                                        218,225         284,722
      (6) Other Non-Federal (Governmental) (Note 6)                     1,164,026               0
   C. Cash and Other Monetary Assets (Note 3)                                   0               0
   d. Inventory, Net (Note 8)                                          13,145,216      10,528,953
   e. Work in Process (Note 9)                                          1,321,327       1,378,813
   f.   Operating Materials/Supplies, Net (Note 10)                       592,074         626,613
   g. Stockpile Materials, Net (Note 11)                                        0               0
   h seized property (Note 12)                                                  0               0
     i. Forfeited Propeny, Net (Note 13)                                        0               0
    j. Goods Held Under Price Support and
        Stabilization Programs, Net (Note 14)                                   0                 0
   k. Property, Plant and Equipment, Net (Note 15)                     .4,623,668       4,534,689
    1. war Resmes                                                               0                0
   m. otller Entity Assets                                                 58,821           203,617
   Il. Total Entity Assets                                            $23,546,852     $23,676,847

2. Non-Entity Assets:
   a. Transxtions with Federal (Intragovernmental) Entities:
        (1)   Fund Balance with Treasury (Note 2)                              SO                SO
        (2)   Accounts Receivable, Net (Note 5)                                 0                 0
        (3)   Interest Receivable, Net                                          0                 0
        (4)   Other (Note 6)                                              393,512           375,620




The accompanying notes are an integral part of these statements.



                                                         23
      Principal Statements
Department of Defense
Navy Working Capital Fnnd - Consolidated Navy Working Capital Fund
Statement of Financial Position
As of September 30,1997
(ThoU.-ds)

ASSETS, Continued

2. Non-Entity Assets:
   b. Transactions with Non-Federal (Governmental) Entities:
      (1) Accounts Receiwble, Net (Note 5)                                    SO                 SO
      (2) Interest Receivable, Net                                             0                  0
      (3) Other (Note 6)                                                       0                  0
   c. Cash and Other Monetary Assets (Note 3)                                  0                  0
   d. Other Non-Entity Assets                                                  0                  0
   e. Total Non-Entity Assets                                          $393,512           $375,620

3. Total Assets                                                      S23,940,364        $24,052,467
                                                                                    >




4. Liabilities Covered by Budgetary Resources:
   a. Transaclions with Federal (Intragovemmental) Entities:
      (1) Accounts Payable                                             $844,275          $1,844,117
      (2) Interest Payable                                                     0                   0
      (3) Debt (Note 16)                                               1,164,026          1,225,977
      (4) Other Federal (&rag ovemmental) Liabilities (Note 17)        1,383,055          3,512,162
   b. Transactions with Non-Federal (Governmental) Entities:
      (1) Accounts Payable                                               (33,134)           329,749
      (2) Accrued Payroll and Benefits
            (a) Salaries and Wages                                       271,230            368,005
            (b) Annual Accrued Leave                                     461,304            506,741
            (c) Severance Pay and Separation Allowance                         0                  0
      (3) Interest Payable                                                      1                 0
      (4) Liabilities for Loan Guarantees (Note 7)                             0                  0
      (5) Lease Liabilities (Note 18)                                          0                  0
      (6) Pensions and Other Achmial Liabilities (Note 19)                     0                  0
      (7) Other Non-Federal (Govemmental)
            Liabilities (Note 17)                                      2,941,801          3,060,717
   c Total Liabilities Covered by Budgetary Besources:                $7,032,558        $10,847,468




The accompanying notes are an integral part of these statements.




                                                          24
                                                                     Principal Statements
Department of Defense
Navy Working Capital Fund - Consolidated Navy Working Capital Fund
Statement of Financial Position
As of September 30,1997
(Thousands)

LIABILlTlES, Continued

5. Liabilities Not Covered by Budgetary Resources:
   a. Transactions with Federal (Intragovernmental) Entities:
      (1) Accounts Payable                                                     SO              SO
      (2) Debt (Note 16)                                                        0               0
      (3) Other Federal (Intragovemmental) Liabilities (Note 17)                0                0
   b. Transactions with Non-Federal (Govemmental) Entities:
        (1)’ Accounts Payable                                                   0                0
        (2) Debt (Note 16)                                                      0                0
        (3) Lease Liabilities (Note 18)                                         0                0
        (4) Pensions and Other Actuarial Liabilities (Note 19)          1,160,071                0
        (5) Other Non-Federal (Governmental) Liabilities (Note 17)             0                 0
   c. Total Liabilities Not Covered by Budgetary Resources            $1,160,071               SO


6. Total Liabilities                                                   $8,192,629     $10,847,468


NET POSITION (Note 20)

7. Balances:
   a Unexpended Appropriations                                                 SO               SO
   b.   hestedCapital                                                  23,516,921      20,695,780
   c.   Cumulative Results of Operations                               ($793,059)       (6,761,473)
   d.   Other                                                            (816,056)        (729,308)
   e.   Future Funding Requirements                                    (1,160,071)                0
    f. Total Net Position                                             $15,747,735     s13,204,999

8. Total Liabilities and Net Position                                 S23,940,364     $24,052,467




The accompanying notes are an integral part of these statements.




                                                           25
     Principal Statements
Department of Defense
Navy Working Capital Fund - Consolidated Navy Working Capital Fund
Statement of Operations and Changes in Net Position
For the Period Ended September 30,1997
(Thousands)

REVENUES AND FINANCING SOURCES

 1. Appropriated Capital Used                                                     SO                 so
 2. Revenues finm Sales of Goods and Services
    a. TothePublic                                                          101,078             236,032
    b. Intragovemmental                                                  19,012,895          24,014,812
 3. Interest and Penalties, Non-Federal                                           0                   0
 4. Interest, Federal                                                             0                   0
 5. Taxes (Note 21)                                                                0                  0
 6. Other Revenues and Financing Sources (Note 22)                          924,536             127,669
 7. Less: Taxes and Receipts Transferred to
    the Treasury or other Agencies                                                0                   0
 8. Total Revenues and Financing Sources                                 $20,038,509        $24,378,513

EXPENSES

 9. Program or Operating Expenses (Note 23)                               $1,246,492         $2,581,038
10. Cost of Goods Sold (Note 24)
    a. TothePublic                                                           101,078             34,488
    b. Inmqywrnmental                                                     17,5 10,488        21,780,840
11. Depreciation and Amortization                                            215,470            239,733
12. Bad Debts and Writeoffs                                                        0                  0
13. Interest
    a. Federal Financing Bank/Treasury Borrowing                              86,770                  0
    b. Federal Securities                                                          0                  0
    c. Other                                                                       0                  0
14. Other Expenses (Note 25)                                               2,399,628          3,664,391
15. Total Expenses                                                       $21,559,926        $28,300,490

16. Excess (Shortage) of Revenues and
    Financing Sources Over Total Expenses
    Before Extraordinary Items                                           ($1,521,417)       ($3,921,977)
17. Plus (Minus) Extraordinary Items (Note 26)                              (566,412)           477,550
18. Excess (Shortage) of Revenues and
    Financing Sources Over Total Expenses                                ($2,087,829)       ($3,444,427)
                                                                                        ,




The accompanying notes are an integral pti       of these stateme-nts.




                                                            26
                                                                     Principal Statements
Department of Defense
Navy Working Capital Fund - Consolidated Navy Working Capital Fund
Statement of Operations and Changes in Net Position
For the Period Ended September 30,1997
(Thousands)

EXPENSES, Continued

19.   Net Position, Beginning Balance, as Previously Stated           $13,204,999     $X9,620,121
20.   Adjustments (Note 27)                                             3,031,250      (1,872,621)
21. Net Position, Beginning Balance, as Restated                      S 16,236,249    $17,747,500
22. Excess (Shortage) of Revenues and
    Financing Sources Over Total Expenses                             ($2,087,829)    ($3,444,427)
23. Plus (Minus) Non Operating Changes (Note 28)                        1,599,315      (1,098,074)
24. Net Position, Ending Balance                                      $15,747,735     $13,204,999




The accompanying notes are an integral part of these statements.




                                                              27
       Principal Statements
Department of Defense
Navy Working Capital Fund - Consolidated Navy Working Capital Fund
Statement of Cash Flows
For the Period Ended September 30,1997
(Thownds)

CASH FLOWS FROM OPERATING ACTIVITIES

 1. Excess (Shortage) of Revenues and Financing
      Sources Over Total Expenses                                    ($2,087,829)        ($3,444,427)

Adjustments Affecting Cash Flow:
 2. Appropriated Capital Used                                                  0
 3. Decrease (Increase) in Accounts Receivable                           161,060            (188,5$
 4. Decrease (Increase) in Other Assets                                  246,027           3,107,610
 5. ~-(D       ecrease) in Accounts Payable                             (296,508)            447,968
 6. Inaease (Decrease) in Other Liabilities                           (2,264,837)           (500,430)
 7. Depreciation and Amortization                                        215,470             239,733
 8. Other Unfunded Expenses                                                    (2)           110,456
 9. Other Adjustments                                                  2,107,144           1,021,659
10. Total Adjustments                                                   $168,354          $4,238,442

11. Net Cash Provided (Used) by Operating Activities                 ($1,919,475)          $794,015

CASH FLOWS,FROM INVESTING ACTIVITIES

12.   Sale of Property, Plant and Equipment                                   SO              $1,382
13.   Purchase of Property, Plant and Equipment                         (240,418)           (176,760)
14.   Sale of Securities                                                       0                   0
15.   Purchase of Securities                                                   0                   0
16.   Collection of Loans Receivable                                           0                   0
17.   Creation of Loans Receivable                                             0                      0
18.   Other Investing Cash Provided (Used)                                     0                      0

19. Net Cash Provided (used) by Investing Activities                   ($240,418)          ($175,378)
                                                                                     >

CASH FLOWS FROM FINANCING ACTIVITIES

20. Appropriations (CurrcxltWanants)                                           SO                  so
21. Add:
    a. Restorations                                                             0                     0
    b. Transfers of Cash from Others                                   1,522,557           1,170,223
22. Deduct:
    a. Withdrawals                                                             0                      0
      b. Transfers of Cash to Others                                     460,183           1,454,714

23.. Net Appropriations                                               $1,062,374           ($284,491)

The accompanying notes are an integral part of these statements




                                                        28
                                                                     Principal Statements
Department of Defense
Navy Working Capital Fund - Consolidated Navy Working Capital Fund
Statement of Cash Flows
For the Period Ended September 30,1997
(Thousands)

CASH FLOWS FROM FINANCING ACTlVITIE S, Continued

24.   Borrowing from the Public                                                SO                SO
25.   Repayments on Loans to the Public                                         0                  0
26.   Borrowing from the Treasmy and the Federal Financing Bank                 0                  0
27.   ~tiyssLoans          from the Treasury and the Federal
                                                                          (61,951)          (37,382)
28. Other Borrowings and Repayments                                             0                 0

29. Net Cash Provided (Used) by Financing Activities                  $1,000,423       ($321,873)

30. Net Cash Provided (Used) by Operating,
    Investing and Financing Activities                                ($1,159,470)      S296,764


31. Fund Balance with Treasury, Cash, and
    Foreign Cmwncy, Beginning                                           1.905.994       1.609.230

32. Fund Balance with Treasury, Cash, and
    Foreign Currency, Ending                                            $746,524       s1,905,994



Supplemental Disclosure of Cash Flow Information:                     1997            1996


3 3. Total Interest Paid                                                       so                SO



Supplemental Schedule of Financing nnd Investing Activity:

34. Property and Equipment Acquired Under
    Capital Lease Obligations                                                  so                  so

35. Property Acquired Under Long-Term Financing
    Arrangements                                                                so                 $0


36. Other Exchanges of Non-cash Assets or Liabilities                           SO                 SO




 The accompanying notes are an integral part of these statements




                                                          29
    Principal Statements




The accompanying notes are an integral part of these statements.




                                                        30
                   Footnotes




NAVY WORlUNG CAPITAL
       FUND

   CONSOLIDATED

  FOOTNOTES TO THE
PHNCIPAL STATEMENTS
Footnotes




            74
                                                                                     Footnotes

  NOTES TO THE FISCAL YEAR 1997 PRINCIPAL STATEMENTS
              NAVY WORKING CAPITAL FUND
                  CONSOLIDATED NOTES
            PERIOD ENDING 30 SEPTEMBER 1997

Note 1. Simd’icant Accounting     Policies:

A. Basis of Presentation

        These financial statements have been prepared to report the financial position and results
of operations of the Department of the Navy (DON) Navy Working Capital Fund (NWCF), as
required by the Chief Financial Officers (CFO) Act of 1990. They have been prepared from the
books and records of the DON, in accordance with Department of Defense (DOD) Guidance on
Form and Content of Audited Financial Statements (as adopted from Office of Management and
Budget (OMB) Bulletin No. 94-O1 of 16 November 1993), “Form and Content of Agency
Financial Statements” and applicable guidance.

         The consolidated statements include the accounts and transactions of the DON NWCF
activities. All policies and procedures, unless otherwise noted, are in compliance with the
Assistant Secretary of the Navy (Financial Management and Comptroller) (ASN (FM&C))
guidance and the DOD Working Capital Fund guidance implemented by the Defense Finance and
Accounting Service (DFAS).

        These statements, therefore, are different from the financial reports, also prepared by
DON pursuant to DOD, DFAS and Navy directives, that are used to monitor and control DON’s
use of budgetary resources. .

       The amounts presented in the financial statements and footnotes (Fiscal Year (FY) 1996
and FY 1997) are rounded to the nearest thousand of dollars.

B. Reporting Entity

        FY 1997 represents the seventh year that the DON has prepared financial statements as
required by the CFO Act. The CFO Act requires that the DON prepare and have audited,
financial statements for each revolving fund and account that performed substantial commercial
functions during the preceding fiscal year.

        The consolidating NWCF financial statements include all activities and functions
previously financed through the Navy Industrial Fund and DON Stock Fund which were
converted to the Defense Business Operations Fund (DBOF) on 1 October 199 1. The Under
Secretary of Defense (Comptroller) (USD(C)) memorandum of 11 December 1996 eliminated
the DBOF and established four working capital funds. One of the four working capital funds is
the NWCF. Establishment of the NWCF did not change any previous organizational reporting
structure.


                                                75
Footnotes

                         NWCF CONSOLIDATED NOTES

       The following identifies the NWCF primary and secondary activity groups.

       Primarv Activitv &oun and Secondary Activitv Grout
       Supply Management
              Navy
              Marine Corps
       Depot Maintenance - Aviation
       Depot Maintenance - Shipyards
       Depot Maintenance - Ordnance
       Depot Maintenance - Other (Marine Corps)
       Transportation
       Base Support
       Research and Development
              Naval Surface Warfare Center (NSWC)
              Naval Undersea Warfare Center (NUWC)
              Naval Air Warfare Center (NAWC)
              Naval Research Laboratory (NRL)
              Naval Facilities Engineering Service Center (NFESC)
              Naval Command, Control and Ocean Surveillance Center (NCCOSC)
       Information Services
              Naval Computer and Telecommunications Command (NAVCOMTELCOM)
              Naval Reserve Force (COMNAVRESFOR)
              Navy, Fleet Material Support Office (FMSO)
       Navy Component

        All significant intra-fund balances and transactions have not been eliminated. Data to
eliminate intra-agency transactions is not readily available in financial systems supporting the
fund.

C. Budgets and Budgetary Accounting

        DON NWCF funded activities provide services and materials to DOD components and
other federal government agencies through buyer-seller relationships. The buyers, which are the
Navy NWCF activities’ customers, ident@ requirements which justify the need for funds from
Congress. DON NWCF activities operate under the revolving fund concept whereby customers
reimburse the activities’ NWCF to cover the cost of services or material provided. The Navy
industrial activities financial management systems which operate under NWCF accumulate all
cost incurred in various programs or jobs plus overhead which are subsequently billed to the
customers. NWCF finances the purchase of consumable and repairable items which are held in
inventory at stock activities until issued with charge to the customer and reimbursement to
NWCF.



                                                76
                                                                                 Footnotes

                        NWCF CONSOLIDATED NOTES

         In FY 1996 the Navy Distribution Depots activity group was combined with the Supply
Management (Navy) activity group while the Navy Logistics Support Activities activity group
was combined with Supply Management (Navy) in FY 1997. The Defense Printing Service
transferred from the DON Commander, Naval Supply Systems Command to Defense Logistics
Agency @LA) on 1 October 1996. The general ledger transferred in whole to DLA at that time.

       In FY 1997, the DON NWCF recorded an operating loss of $1,521,417 thousand.

                                   NWCF Supply Activities
                            Sales, Cost of Sales and Expenses, and
                             Onerating Results bv Activitv Grout
                                        (in thousands)
                                                        Cost of Sales        Operating
Activitv Group                           Sales          and Exnenses          Results
Supply Management
   Navy                                %5,990,426         %7,914,225        ($1,923,799)
   Marine Corps                          171,881             204,190             (32,309)
Subtotal                               %6,162,307          8,118,415        ($1,956,108)


                                 NWCF Industrial Activities
                                  Revenues, Expenses, and
                             Onerating Results bv Activitv Grout
                                       (in thousands)
                                                                             Operating
Activitv &-OUD                        Revenues            Exnenses            Results
Depot Maintenance - Aviation           $1,548,306          $ i,400,506         $147,800
Depot Maintenance - Shipyards           2,956,223           2,576,933            379,290
Depot Maintenance - Ordnance              539,411              539,112                299
Depot Maintenance - Other
       (Marine Corps)                     160,154             148,861              11,293
Transportation                          1,141,101           1,186,425            (45,324)
Base Support                            2,016,428           2,013,269               3,159
Research and Development                7,153,684           7,199,504            (45,820)
Information Services                      243,444             259,450            (16,006)
Navy Component
Subtotal                              $15,758,751        $15,324,060            $434,69 1

NWCF Total                           $21,921,058*       %23,442,475*         (%1,521,417)

*These amounts do not reflect eliminating entries of $2,595,8 19 thousand for intra-activity
revenue and cost of goods and services sold. Also, these amounts do not reflect the Component



                                              77
Footnotes

                         NWCF CONSOLIDATED NOTES

level adjusting entries for imputed revenues and expenses of $713,270 thousand for Office of
Personnel Management pensions and Other Retirement Benefits (ORB). See also Notes 22,25,
and 29.

        This operating loss includes the implementation by the USD(C) and DFAS of DoD
Financial Management Regulation (FMR) 7000.14-R, Volume 11B procedures for Supply
Management (Navy) inventory valuation and Cost of Goods Sold model. The Navy is
considered the prototype in the implementation of this model. The treatment of the Supply
Management (Navy) cost of transfers to disposal overstates expenses by assigning a larger cost to
disposal than is warranted considering the significant quantities of inventory that are sent to
disposal which are received from customers without cost. DFAS, in their implementation of the
USD(C) concept of Holding Gains and Losses (as specified in DOD FMR 7000.14-R Volume
11B) has stated that the issue of how to consider disposal actions needs further study to counter
the understatement of costs of sales and the overstatement of expenses. USD(C) has advised that
the treatment of disposal actions in the operating results calculations is under review and they are
considering applying customer returns without credit as an offset to disposal actions.
Additionally, the reported FY 1996 operating results value of ($3,904,937) thousand should have
been (%1,724,851) thousand due to a cross check problem encountered by DFAS when preparing
the CFO statements. DFAS - Cleveland (CL) has now made corresponding correcting entries to
the Cumulative Results of Operations. See Note 27.

D. Basis of Accounting

        Transactions are recorded on the accrual basis of accounting. Under this method,
revenues are recognized when earned and expenses are recognized when a liability is incurred
without regard to receipt or payment of cash. Budgetary accounting facilitates compliance with
legal constraints and controls over the use of federal funds.

E. Revenues and Other Financing       Sources


         Revenue which is earned primarily from providing services, materials and products to
DON and others is recognized on a percentage of completion or material issue basis in
accordance with NWCF guidance as promulgated by the USD(C). Revenue related to the
distribution of inventory and procurement support is recognized at the point of billing for work
performed against reimbursable work orders. In August 1996, estimating of Revenues and Funds
Collected, and sales, ceased for ships and naval activities in the Supply Management (Navy)
activity group.

F. Accounting    for Intra-governmental    Activities

         The DON NWCF activities interact with, and are dependent upon, other financial
activities of the Government as a whole. Therefore, these fmancial statements do not reflect the


                                                 78
                                                                                     Footnotes

                         NWCF CONSOLIDATED NOTES

results of all financial decisions applicable to the agency as though the agency were a stand alone
entity.

        1. The DON’s proportionate share of the public debt and related expenses of the Federal
Government are not included. Debt issued by the Federal Government and the related interest
costs are not apportioned to Federal agencies. The financial statements, therefore, do not report
any portion of the public debt or interest thereon, nor do the statements report the source of
public financing whether from issuances of debt instruments or tax revenues.

        2. Financing for the construction of DON facilities is obtained through appropriations
from the Congress. To the extent this financing may have been ultimately obtained through the
issuance of public debt instruments, interest costs have not been capitalized since the Treasury
Department does not allocate interest costs to the benefiting agencies.

        3. NWCF civilian employees participate in the Civil Service Retirement System (CSRS)
and Federal Employees Retirement System (FERS), while military personnel are covered by the
Military Retirement System (MRS). Additionally, employees and personnel covered by FERS
and MRS are also covered by Social Security. The individual NWCF activity groups fund a
portion of pension benefits under these retirement systems but do not disclose the assets or
actuarial data on the accumulated plan benefits or unfunded pensions liabilities of its employees.
Reporting such amounts is the responsibility of the Office of Personnel Management for CSRS
and FERS. The retirement actuarial liabilities for military MRS is reported on the CFO financial
statements of the Military Retirement Trust Fund. In FY 1997, the individual NWCF activity
groups contributed the following amounts to the retirement plans, Social Security and to the
Thrift Savings Plan (TSP).




                                                 79
Footnotes

                         NWCF CONSOLIDATED NOTES

                                         (in thousands)
                                                           Social
Activitv &OUD                       CSRS       FERS   MRS Securitv           TSP         Total
Supply Management (Navy) *          $31,611        $0   $0 $14,695                 $0   $46,306
Supply Management (MC)
        (Not Applicable)
Depot Maintenance - Aviation         20,043     19,344             12,807     7,103      59,297
Depot Maintenance - Shipyards        49,532     30,014             22,222    11,030     112,798
Depot Maintenance - Ordnance          6,620      8,734              5,609     3,242      24,205
Depot Maintenance - Other (MC)        2,292      4,046              4,254     1,412      12,004
Transportation                        7,686     10,099              9,554     3,888      31,227
Base Support                         16,411     22,629             16,073     8,488      63,601
Research and Development
   NSWC                              30,196     42,132             25,675    16,124     114,127
   NUWC                              10,029     12,058              7,285     4,759      34,131
   NAWC                              25,197     39,304             24,277    14,963     103,741
                                      6,149      9,462              7,994     3,584      27,189
   NFESC                                766        876                288       362       2,292
   NCCOSC                            11,524     12,066              7,169     4,780      35,539
Information Services
   NAVCOMTELCOM                       2,877    2,183              1,335     835    7,230
   COMNAVRESFOR                         110      242                140      82      574
   FMSO **                            3,311                       1,272     412    4,995
   Total                           $224,354 $213,189        $0 $160,649 $81,064 $679,256
                                  PP_

*The system (Defense Business Management System) supporting this activity group does not
have individual CSRS and FERS contributed amounts.

**Information on contributions related to the identification of specific amounts to CSRS and
FERS is not readily available.

        4. Most legal actions, other than contract claims, to which the NWCF may be a named
party are covered by the provisions of the Federal Tort Claims Act and the provisions of Title
10, United States Code (U.S.C.), Chapter 163, governing military claims. Contingent liabilities
under the Tort Claims Act and Chapter 163, Title 10 U.S.C., are $2,500 and $100,000,
respectively, per occurrence. Either because payments under these statutes are limited to
amounts well below the threshold of materiality for claims payable &om the NWCF or because
payments will be from the permanent, indefinite appropriation “Claims, Judgments, and Relief
Acts” (the Judgment Fund), these legal actions should not materially affect the NWCF operations
or financial condition. Additionally, for the Transportation activity group legal action to which
the Department is a litigant also include, but are not limited to, the Contract Disputes Act,
(CDA), Chapter 9 of Title 441 U.S.C.; Suits in Admiralty Act, Chapter 20, of Title 46 U.S.C.;


                                               80
                                                                                       Footnotes

                           NWCF CONSOLIDATED NOTES

and the Public Vessels Act, Chapter 22, of Title 46 U.S.C.. Payments from the Judgment Fund
as a result of CDA claims are required to be reimbursed out of agency appropriations, current at
the time of entry of the judgment, Title 28 U.S.C. Section 2414.

        5. In FY 1997, the NWCF activity groups sold inventories or services to foreign
governments under the provisions of the Aims Export Control Act of 1976. Under the
provisions of the act, DOD has authority to sell Defense articles and services to foreign countries,
generally at no profit or loss to the U.S. Government. Customers are required to make payments
in advance to a trust fund maintained by the Department of the Treasury from which the Military
Services are reimbursed for the cost of administering and executing the sales. In FY 1997 the
NWCF Supply Management activity group sold $107,990 thousand under the Foreign Military
Sales (FMS) program. In FY 1997 the NWCF industrial activity groups received
reimbursements of $254,184 thousand for assets sold under the FMS program. The following
provides the amount of assets and services sold under the FMS program.

                                           (in thousands)
                                                                SUPPlY            Industrial
          Activitv Groun                                        Activitv           Activitv

          Supply Management (Navy)                               $106,956                      $0
          Supply Management (Marine Corps)                          1,034
          Depot Maintenance - Aviation                                                 30,900
          Depot Maintenance - Shipyards                                                 5,097
          Depot Maintenance - Ordnance                                                 17,192
          Depot Maintenance - Other (Marine Corps)                                        529
          Transportation
          Base Support                                                                    346
          Research and Development
             NSWC                                                                      73,743
             NUWC                                                                      33,687
             NAWC                                                                      71,553
                                                                                          484
             NFESC                                                                         28
             NCCOSC                                                                    17,538
          Information Services
             NAVCOMTELCOM
              COMNAVRESFOR
             FMSO                                                                       3,087
          Total                                                   $107.990           $254.184
Footnotes

                         NWCF CONSOLIDATED NOTES

        6. The balance for Accounts Payable increased by $25,737 thousand during FY 1997
from FY 1996. The primary reason for the increase is due to problems with the Supply
Management (Marine Corps) Accounts Payable function. In the past, the Accounts Payable
function had Accounts Payable matched against overstated undistributed disbursements. To
correct the problem, outstanding Obligations were validated against receipts. Any receipts that
did not have an obligation.were written off. The Marine Corps and DFAS have agreed on
procedures to guard against future reoccurrence and continue on a monthly basis reviewing
Accounts Payable to assure only valid liabilities are recorded and reported properly.

G. Funds with the U. S. Treasury and Cash

        In a memorandum dated 5 January 1995, the USD(C) returned management of DBOF
cash and its associated anti-deficiency limitations to the DON and other military components
effective 1 February 1995. This action effectively merged the component’s responsibility for
monitoring collection and disbursement transactions as well as taking actions to correct
operational problems, with the responsibility for control over the cash balance.

        Funds with the U.S. Treasury are managed at the DON level and not in the individual
activity groups of NWCF. Fund Balances with Treasury reflected on the financial statements
consist of net outlays (disbursements minus collections) and non-expenditure transfers where
applicable. Plans are being formulated to move cash management to the activity groups and
activity level in the DON during FY 1998. This movement will be contingent upon the
development of activity group and activity level cash management procedures by DFAS. See
Note 2.

H. Foreign Currency

       Not Applicable

I. Accounts Receivable

       As presented in the Consolidated NWCF Statement of Financial Position, Accounts
Receivable includes accounts, claims and refunds receivable from other entities.




                                                82
                                                                                    Footnotes

                        NWCF CONSOLIDATED NOTES

                                        (in thousands)
                                                                            Total
                                            Amount        Allowance         Net

         Accounts Receivable
            Government                     $1,194,322            $505     $1,193,817
            Public                            285,53 1                       285,53 1
         Refunds
         Claims
         Total                             $1,479,853            $505     $1,479,348

        The fmancial reporting system for the Supply Management (Navy) activity group was
designed to maintain summary level reporting for Accounts Receivable only. At this level, a
comparison is made between total Revenue from Sales of Goods and Services and total Funds
Collected reported for each month, with the mathematical difference being the change in the
Accounts Receivable balance reported for the month. Accounts Receivable is overstated by
!§10,2 16 thousand due to reconciliations at the Navy Inventory Control Point (NAVICP) that
could not be accomplished prior to year-end closing and payments that have been received but
not officially registered by DFAS. The detail Accounts Receivable records for Supply
Management (Navy) activities are maintained at the activity level.

J. Loans Receivable

       There are no loans receivable recorded.

K. Inventories

       Inventory, Net for supply type activities which includes Navy-managed consumable
items and repairable items, and other Service, DLA, and General Services Administration
managed items, are carried in the accounting records at Standard Price. Standard Price is
composed of the cost of the material plus appropriate surcharges. Inventories for reporting
purposes are revalued from Standard Price to utility value using the Latest Acquisition Cost
(LAC) method prescribed by the USD(C). This revaluation results in a recognition of unrealized
holding gains and losses in the Supply Management (Navy) ending inventory value. Upon
adjustment for unrealized holding gains and losses, the LAC method then results in an
approximation of historical cost. The FY 1996 and FY 1997 inventory values for Supply
Management (Navy) reflect the execution by DFAS of interpreted guidance given by USD(C)
which clarified and provided additional instructions to those contained in DOD FMR 7000.14-R,
Volume 11B. The execution of this guidance resulted in an inventory at cost for Supply
Management (Navy) being portrayed as $9,873,757 thousand for FY 1996 when it should have
been $13,777,724 thousand. The error was due to a cross check problem encountered by DFAS
when preparing the FY 1996 CFO Statements. The Marine Corps was not able to certify the


                                                 83
Footnotes

                         NWCF CONSOLIDATED NOTES

Supply Management (Marine Corps) activity group inventories due to business process changes
and system problems. See Note 3 1.B.2, Supply Management (Marine Corps) .

       For industrial type activities, Operating Materials and Supplies, Net are held for use on
customer work. These inventories are maintained at cost, primarily using a weighted average.
(See Note 10).

L. Investments   in U.S. Government     Securities

       There are no investments in U.S. Government Securities in the NWCF activity groups.

M. Property and Equipment

         DON NWCF procedures are in accordance with DFAS guidance, which requires property
records to be matched with receipt documentation to accurately record and classify assets.
Audits of FY 199 1 and FY 1992 financial statements have shown that documentation to support
the recorded acquisition cost of many older properties is no longer available. Obtaining
appraisals for older property for which original acquisition records are no longer available is not
cost effective, especially considering the number and age of many of DON’s properties. As a
reasonable solution to this dilemma, when original records to support the acquisition cost of
property are no longer available, recorded valuations of property, or other available information
(if the value has not been formally recorded), could be permitted for financial statement purposes
when such valuation represents the best available information. The DOD has requested that the
Federal Accounting Standards Advisory Board endorse the above policy until such time as other
applicable accounting standards are issued by the Board. DON will implement the resulting
policy requirements when the DFAS issues the implementing guidance as prescribed in the DOD
FMR.

         Land, plant property, and equipment are valued at cost. Cost is based upon a specific
amount paid or estimated value if a receipt document is not available. The capitalized amount
includes the cost of the asset plus any additional costs such as transportation, installation and any
internal costs incurred to make the asset ready for use. Based upon the expense/investment
criteria, any piece of plant property or equipment with a unit cost of $100,000 or more and a
useful life of two years or more is capitalized and depreciated. The expense/investment threshold
was $50,000 in FY 1995. Facilities are valued at original cost. Buildings are capitalized when
constructed or at the date of acquisition. Improvements to land and buildings costing more than
$100,000 are capitalized and depreciated over their remaining useful life. Routine maintenance
and repair costs are recorded as an expense when they are incurred.

        Property and equipment in inventory prior to 1 October 1991 are depreciated using the
straight line method of depreciation under the existing expected service life for each item. New



                                                     a4
                                                                                    Footnotes

                         NWCF CONSOLIDATED NOTES

property and equipment items introduced into the NWCF since 1 October 1991 are being
depreciated using the straight line method under the service life schedule set by DFAS guidance.

      Additional information regarding the value of fully depreciated and sponsor owned
equipment is provided in Note 15.

        The General Accounting Office (GAO) has determined that real property used by the
NWCF, but under the jurisdiction of the Military Departments, represents an asset of the NWCF
and such property should be reported on the financial statements as an entity asset to show the
full costs of all resources and assets used in NWCF operations. Some of the buildings carried on
the property records of NWCF primary and secondary activity groups are occupied by other
Navy entities (where the NWCF primary and or secondary activity group is the host activity).
Based on the GAO determination these assets should not have been included in the values of
assets reported on NWCF financial statements. In addition, some of the buildings occupied by
NWCF primary and secondary activity group activities are on the property records of the host
activity (where the NWCF activity is a tenant activity). Based on the GAO determination these
assets should be reported in NWCF financial statements. However, DFAS guidance has not been
published to direct a change of property accountability between host and tenant activities,
therefore, the current reporting procedure is in accordance with current guidance provided to
NWCF activities.

N. Prepaid and Deferred Charges

        Payments in advance of the receipt of goods and services are recorded as prepaid charges
and reported on Lines 1.a.(5) and 1.b.(5) of the Statement of Financial Position at the time of
prepayment and recognized as expenditures and expenses when the related goods and services
are received.

0. Leases

        The following provides specific disclosure by applicable activity groups.

        Transportation   - MSC.    The Military Sealift Command (MSC) Transportation activity
group does not have any capitalized leases. MSC does not report the value of leased ships
(Maritime Prepositioning Ships (MPS) and T5 ships) as capital leases under Line l.k, Entity
Assets, Property, Plant, Equipment, Net on the Statement of Financial Position as recommended
in Naval Audit Service (NAVAUDSVC) Audit Reports 075-S-92 and 035-96. This
NAVAUDSVC recommendation is still being reviewed by higher authority for a determination
as to the applicability to MSC. The debt for the outstanding principal balance on these MPS
ships is, however, reported on Lines 1.b.(6), Entity Assets, Transactions with Non-
Federal(Govemmental) Entities, Other Non-Federal (Governmental) and Line 4.a(3) Liabilities,



                                                85
Footnotes

                         NWCF CONSOLIDATED NOTES

Transactions with Federal (Intragovernmental) Entities, Debt of the Statement of Financial
Position.

        Base SUDDOI-~. As of 30 September 1997, the Public Works Centers (PWCs) were
committed to numerous operating leases and rental agreements. Generally, these leases and
agreements were for rental of equipment, space, and operating facilities. Capital leases prior to
formation of NWCF were “grandfathered”, and continue to be treated as operating leases. only
two long term capital leases remain, and they will both expire within two years.

       Research and DeveloDment.

                NRL. As of 30 September 1997, the NRL is not committed to any significant
multiple-year operating leases and rental agreements for rental of equipment, space, and
operating facilities. The NRL does rent equipment on ammal rental contracts. Total equipment
rentals for FY 1997 were $155 thousand.

               NF’ESC. During FY 1997, NFESC was committed to a small number of
operating leases for office equipment such as copying machines and mobile trailers used for
office space. The dollar values of these leases are immaterial and are recognized as expenses are
incurred and not listed as deferred charges.

                NCCOSC. As of 30 September 1997, NCCOSC was committed to operating
leases and rental agreements. Generally, these leases and agreements were for rental of
equipment, space, and operating facilities. All these leases and agreements are either renewable
on an annual basis or can be canceled on short notice. Therefore, there is no significant future
liability.

        Information   Services.

                NAVCOMTELCOM.           Generally, all leases and agreements were for rental of
operating equipment. Since these leases are operating in nature, rather than capital, no capital
leases are recognized in the Statement of Financial Position.

               COMNAVRESFOR            Generally, all leases and agreements were for rental of
operating equipment. Since these leases are operating in nature, rather than capital, no capital
leases are recognized in the Statement of Financial Position.

               FMSO.    Generally, all leases and agreements were for rental of operating
equipment. Since these leases are operating in nature, rather than capital, no capital leases are
recognized in the Statement of Financial Position.




                                                 86
                                                                                       Footnotes

                          N-WCF CONSOLIDATED NOTES

P. Contingencies

        At any given time, DON may be a party to various legal and administrative actions and
claims brought against it. These relate primarily to tort claims resulting from aircraft, ship, and
vehicle accidents, medical malpractice, property and environmental damages resulting from
Departmental activities, and contract disputes. As discussed under Note 1.F.4, most legal claims,
other than contract claims, to which the NWCF may be a named party are covered by the
provisions of the Federal Tort Claims Act and the provisions of Title 10, U.S.C., Chapter 163
governing military claims. Either because payments under these statutes are limited to amounts
well below the threshold of materiality for claims payable from the Department’s appropriations
or because payments will be from the permanent, indefinite appropriation “Claims, Judgments
and Relief Acts” (the Judgment Fund), these legal actions should not materially affect the
NWCF’s operations or financial condition. The following provides specific disclosure by
applicable activity group.

          SUDD~ Management (Naw). The ultimate resolution of legal actions will not
materially affect the agency’s operations or financial condition. Therefore, no contingent
liabilities related to legal actions have been recognized in the Statement of Financial Position.

        SUDD~VManagement (Marine Corpse. There are no known contingencies related to the
Navy Supply Management (Marine Corps) activity group.

        DeDot Maintenance - Other (Marine COIWS).There are no known contingencies
related to the Depot Maintenance - Other activity group.

        TransDortation - MSC. Contingencies (Reserves) have been established to provide for
anticipated accident and damage repairs and estimated value of claims pending. Their values as
of 30 September 1997, are $2,223 thousand and $3,570 thousand, respectively. It should be
noted that the reserve for accident and damage repairs will be abolished and the remaining value
in such account represents funds already obligated. See Note 30.

        Base SUDDO~~. It is estimated that claims for payments and adjudicated claims that will
be outstanding as of 30 September 1997, will be approximately $7,000,618 thousand. The
ultimate resolution of legal actions still pending will not materially affect the agency’s operations
or financial condition. Therefore, no contingent liabilities have been recognized in the
consolidated Statement of Financial Position. Any settlement of the $7,000,618 thousand should
be covered by the Judgment Fund.

         As of January 1997, the PWCs were a party to fifteen contract appeals before the Armed
Services Board of Contract Appeals. Total value of this appeal is $6,612 thousand which is still
in litigation.



                                                  87
Footnotes

                         NWCF CONSOLIDATED NOTES

Research and Develoument.

                NRC. The NRL payments during FY 1997 for awards, compromises and
settlements resulting from the legal actions were insignificant. As of 30 September 1997, NRL
has an outstanding adjudicated claim for $750 thousands. This is expected to be settled for less
and is expected to be paid from an appropriation other than NWCF. Since the ultimate resolution
of legal actions still pending are not expected to materially affect the NRL’s operation or
financial condition, no contingent liabilities have been recognized in the Statement of Financial
Position.

                 NCCOSC. At the present time there are some known legal claims which would
result in a significant financial impact on NCCOSC’s financial position. Therefore, contingent
liabilities have been recognized in the NCCOSC Statement of Financial Position. Currently
there are three Equal Employment Opportunity complaints for alleged discrimination where an
unfavorable Equal decision could result in $2,850 thousand in damages. There are also two
contracts under appeal, one with the Armed Services Board of Contract Appeals which could
result in a $300 thousand payment and another long standing claim in the amount of $258
thousand which still has not been resolved.

Q. Accrued Leave

        SUDDEN
             Tvne NWCF Activities.

        Navy: Civilian annual leave is earned and the accrued amounts are reduced as leave is
taken. The balances for ammal leave at the end of the fiscal year reflect current pay rates for the
leave that is earned but not taken. Sick and other types of non-vested leave are expensed as
taken. Each year, the balance in the accrued ammal leave account is adjusted to reflect current
pay rates.

        Marine Corps: Civilian ammal leave is accrued as earned and the accrued amount is
reduced as leave is taken. The balances for civilian annual leave and military leave at the end of
the fiscal year reflect current pay rates for the leave that is earned but not taken. Each year, the
balance in the accrued annual leave account is adjusted to reflect current pay rates. To the extent
current fiscal year fund balances are not available to fund annual leave earned but not taken,
funding will be obtained from future financing sources. Sick and other types of non-vested leave
are expensed as taken. Accruals of leave for civilian employees are reported against the
Operations and Maintenance, Marine Corps appropriation.

        Industrial Tvne NWCF Activities. Accrued leave for industrial activities is accrued as it
is earned and the accrual is reduced as leave is taken. At least once per year, the balance in the
accrued ammal leave account is adjusted to reflect current pay rates of cumulative annual leave
earned but not taken. Sick and other types of leave are expense as taken.


                                                 88
                                                                                      Footnotes

                          NWCF CONSOLIDATED NOTES

R   Equity

        Equity for supply type activities consists of invested capital, cumulative results of
operations, and unexpended appropriations. Invested Capital represents the DON capital assets
valued at acquisition cost or best information available; invested capital of inventory items are
valued at the LAC method.

        Increases to invested capital are recorded when capital assets are acquired or constructed
or when asset valuations increase as a result of increases in average costs. Decreases occur as
capital assets depreciate or are consumed in operations, or when average costs decrease.

         Cumulative Results of Operations represents the excess of revenues over expenses since
inception of DBOF (now NWCF), less refunds to customers and returns to the U.S. Treasury.
FY 1996 and FY 1997 Supply Management (Navy) Results of Operations and Invested Capital
reflect the implementation of DOD FMR 7000.14-R Volume 11B as clarified by USD(C) and
DFAS. The reported FY 1996 net operating results of ($3,904,937) thousand should have been
($1,724,85 1) thousand due to a cross check problem encountered by DFAS when preparing the
CFO statements. DFAS-CL has now made corresponding correcting entries to the Cumulative
Results of Operations.

        Equity for industrial type activities consists of invested capital, cumulative results of
operations, other equity, and future funding requirements. Invested capital, as presented in the
Statement of Financial Position, includes donated capital and represents the value of capital
assets as reported at actual cost. Increases to invested capital are recorded when capital assets are
acquired. Decreases occur as capital assets are depreciated or retired as surplus. Cumulative
results of operations represents revenues minus expenses since fund inception, adjusted for
transfers to and from other appropriations and the U.S. Treasury.

S. Aircraft/Ship   Crashes

        The following provides note disclosure as applicable by activity group.

        DeDot Maintenance     - Aviation.   There were no known mishaps.

        TransDortation   - MSC.    No ships were destroyed during FY 1997 due to navigation or
other mishaps. Any ships damaged due to accidents, were repaired and costs associated with the
repair were recorded against reserves for accident and damage.

        Research and Develoument.

               NAWC.      There were no known mishaps.




                                                 89
Footnotes

                          NWCF CONSOLIDATED NOTES

T. Treaties for Use of Foreign Bases

       The following provides note disclosure as applicable by activity group.

       Traxwortation      - MSC.     MSC has the use of land, buildings, and other facilities which
are located overseas and have been obtained through various international treaties and
agreements negotiated by the Department of State. Generally, treaty terms allow MSC continued
use of these properties until the treaties expire.

       Base Support.      The Government of Japan is responsible for facility replacement.

       Research and Development.

                NCCOSC. While some of the NCCOSC operations take place on foreign soil,
the operations are performed as tenants to other Naval activities. NCCOSC’s only significant
presence is in Japan where the NCCOSC Research and Development Division (NRaD) has a
detachment located as a tenant to the Naval Ship Repair Facility, Yokosuka. The detachment in
Yokosuka employs up to 18 Foreign National Indirect Hire personnel under a Master Labor
Contract with Japan. However, Japan now pays the majority of the cost of these employees.
The U.S. Government is liable for any shortfall that is borne by the activity for Special Measures
Agreement expenses incurred which is approximately $235 thousand. These costs can be for
management directed severance obligations, overtime costs or additional schedule pay costs.

U. Comparative     Data

        Comparative data from FY 1996 CFO financial statements is provided.

        The debt for the outstanding principal balance on leased MPS ships is reported on the
Statement of Financial Position on Lines 1.b.(6), Entity Assets, Transactions with Non-
Federal(Governmental) Entities, Other Non-Federal(Govemmental) and Line 4.a.(3) Liabilities,
Transactions with Federal (Intragovernmental) Entities, Debt. Prior to FY 1997 this debt for the
outstanding principal balance was reported on Lines 1-b.(2), Entity Assets, Transactions with
Non-Federal(Govemmental) Entities, Accounts Receivable, Net and Line 4-a.(3) of the
Statement of Financial Position. The outstanding principal balance, however, represented
outstanding loans receivable vice true Accounts Receivable. So as not to distort the true value of
Accounts Receivable, DFAS and the DON agreed to reflect the outstanding principal balance on
Line 1.b.(6). The FY 1997 presentation on the Statement of Financial Position of the related debt
interest payments has also changed. See Note 24.

       Financial data for the Information Services - COMNAVRESFOR NWCF activity group
was part of the NAVCOMTELCOM for FY 1996 and a portion of FY 1997. This is the first




                                                 90
                                                                                      Footnotes

                            NWCF CONSOLIDATED NOTES

submission for the Information Services - FMSO activity group. In FY 1996 FMSO was part of
the Supply Management (Navy) activity group.

V. Undelivered    Orders

        NWCF activities are obligated for goods which have been ordered but not yet received
(undelivered orders). As of 30 September 1997 undelivered orders amounted to $3,467,840
thousand for supply type activities and $3,164,146 thousand for industrial type activities for a
total of $6,63 1,986 thousand.

                                       Undelivered Orders

                                                               SUPPlY            Industrial
          Activitv Grotto                                     Activities         Activities

          Supply Management (Navy)                            3536,445
          Supply Management (Marine Corps)                      (68,605)
          Depot Maintenance - Aviation                                              214,387
          Depot Maintenance - Shipyards                                             580,401
          Depot Maintenance - Ordnance                                               57,252
          Depot Maintenance - Other (Marine Corps)                                   52,575
          Transportation                                                             29,226
          Base Support                                                              485,491
          Research and Development
             NSWC                                                                   681,300
             NUWC                                                                   141,719
             NAWC                                                                   49 1,720
                                                                                    154,235
             NFESC                                                                   22,550
             NCCOSC                                                                 228,329
          Information Services
             NAVCOMTELCOM                                                             14,069
             COMNAVRESFOR                                                              3,462
             FMSO                                                                      7,430

          Total                                                %3,467,840        $3,164,146

         The Marine Corps was not able to certify the Supply Management (Marine Corps)
activity group undelivered orders due to accounting system problems. See Note 3 1.B.2.
The primary reason for the Supply Management (Marine Corps) abnormal balance for
undelivered orders is due to problems with the Accounts Payable function. In the past, the
Accounts Payable function had Accounts Payable matched against overstated undistributed
disbursements. To correct the problem, outstanding obligations were validated against receipts.


                                                 91
Footnotes

                        NWCF CONSOLIDATED NOTES

The Marine Corps and the DFAS have agreed on procedures to guard against future reoccurrence
and continue on a monthly basis reviewing Accounts Payable. In FY 1998, undelivered orders
should be in a normal positive balance.


Note 2. Fund Balances with Treasure (in thousands):

A. Fund and Account Balances:

                                                            Entity Assets
                                                                Appro-      Other
                                  Trust      Revolving          priated     Fund
                                  Funds        Funds             Funds      m          Total

Unobligated Balance Available:
 Available                             $0     %1,988,427             $0         $0   $1,988,427
 Restricted
Reserve For Anticipated
Resources
Obligated (but not expensed)                   3,004,069                              3,004,069
Unfunded Contract Authority                   (4,245,972)                            (4,245,972)
Unused Borrowing Authority
 Treasury Balance              $0               $746,524              $0 A-           $746,524

B. Other Information:      One of the many policy changes made with the creation of the DBOF
(now NWCF) was to manage Fund Balances with Treasury at the DoD’level and not at the
individual activity group of the NWCF. However, in FY 1995 Fund Balances with Treasury
responsibility was transferred back to DON, but not to the individual activity group level. As a
result, the Fund Balances with Treasury represents the net outlays (disbursements minus
collections) and non-expenditure transfers where applicable. The Consolidated NWCF
Statement of Financial Position reflects the 30 September 1997 NWCF cash balance. Included
are non-expenditure cash transfers totaling $909,764 thousand. Transfers of $97,500 thousand
have been made to the Joint Logistics Systems Center (JLSC) to finance costs associated with the
development of automated systems for the NWCF. The transfers were made from or to the
following NWCF activity groups.




                                               92
                                                                                      Footnotes

                            NWCF CONSOLIDATED NOTES

                                                     Non-              Other         Total
                                                  expenditure          Non-          Non-
                                                     JLSC           expenditure   expenditure
Activitv    &OUD                                   Transfers         Transfers     Transfers

Supply Management (Navy)                            ($39,700)         $22,800       (Sly,;;;)
Supply Management (Marine Corps)                                        1,700
Depot Maintenance - Aviation                                                          @;;;
Depot Maintenance - Shipyards                           $~%;
Depot Maintenance - Other (Marine Corps)                 (1:200)                       (1:200)
Transportation                                                         (61,951)       (61,951)
Navy - Component                                                     1,044,7 15     1,044,7 15
    Total                                           ($97,500)       $1,007,264      $909,764

The Transportation activity group non-expenditure cash transfer of $61,95 1 thousand was made
to the Federal Financing Bank (FFB) for the principal payment of loans related to APF-N ships.
See Note 16. The $1,700 thousand transfer to Supply Management (Marine Corps) activity
group from the DLA was made to compensate for items that were transferred to DLA under
Consumable Item Transfer. The transfer-in to Supply Management (Navy) was $22,800
thousand. The transfer-in to the Navy Component was $1,044,715 (See Notes 17 and 28).

        The Fund Balances with Treasury contains information from financial registers that were
not provided to the activity groups. Without these registers, the activity groups can not reconcile
their activity’s balances to the balance reported to Treasury. Plans are being formulated to move
cash management to the activity group level in the DON during FY 1998. This movement will
be contingent upon the development of activity group and activity level cash management
procedures by DFAS.

           The following provides other specific disclosure by activity group:

           SUDD~V
                Management        (NawI.   The Fund Balances with Treasury was understated in FY
1996 due to the $135,000 thousand duplication of Register 06 disbursements processed by
DFAS, subsequently corrected in FY 1997.

         Research and DeveloDment. NRL’s Funds Collected and Funds Disbursed as included
here do not agree with NRL books. However, the net fiscal-year-to-date cash balances do agree.
As previously documented in the AR 01307 certification report, $102,061 thousands of
collections were processed in the financial reporting system as “negative” disbursements due to
incorrect transaction type codes. Thus, collections and disbursements reported in the Centralized
Expenditures/Reimbursement Processing System (CERPS) and herein are each understated by
$102,061 thousand.

           Information   Services - FMSO.      The Treasury Fund Balance is derived using a CERPS
disbursement figure that was manually adjusted for $11,829 thousand of labor disbursements that


                                                   93
Footnotes

                           NWCF CONSOLIDATED NOTES

processed under subhead NClC vice our subhead NFlF. An additional $3,856 thousand of labor
disbursements was discovered to have processed through subhead NC1 C vice NFlF. A Journal
Voucher Optional Form 10 17-G (9-79) was prepared by DFAS - Columbus (CO) and sent to
DFAS - Indianapolis (IN) for each of these revisions which should process through Treasury in
October 1997. The CFO Statement of Financial Position includes an amount of $14,53 1
thousand in Liabilities on Line 4. a. (4), Other Federal (Intragovernmental) Liabilities, that can
not be verified by FMSO.

       Navv Comuonent.        The cash in this activity group includes collections and
disbursements which are pending identification to another activity group, the initial transfer of
$945,875 thousand from the DOD corporate Treasury cash account to the DON corporate
Treasury account which was reestablished on 1 February 1995 in accordance with USD(C)
memorandum of 5 January 1995, and the transfer of end of FY 1995 and FY 1996 cash balances
at the activity group level to the DON NWCF corporate account.


Note 3. Cash, ForeiPn Currencv and Other Monetarv Assets (in thousands):             Not applicable


Note 4. Investments.     Net (in thousands):     Not applicable


Note 5. Accounts Receivable. Net (in thousands):


                                    GZL                  AllcZmce        Allc!Znce          lzt
                                   Amount            For Estimated        Method         Amount
                                     &?              Uncollectibles        &@             Due
A. Entity Receivables:
   Intragovernmental              $1,194,322                      $505                   $1,193,817
   Governmental                      285,53 1                                               285,53 1

B. Non-Entity
   Receivables:
   Intragovemmental                         $0                      SO                            SO
   Governmental

C. Other Information:

         SUDD~V  Manapement (Navvl. The NAVAUDSVC concluded that the use of estimates
in the reporting of Revenue and Funds Collected was not an authorized accounting practice. In
their audit report of the FY 1995 DBOF CFO Financial Statements, NAVAUDSVC
recommended that estimating processes be discontinued for ships and activities. In August 1996,
estimating of Revenue and Funds Collected, and sales, ceased for ships and Naval activities.


                                                    94
                                                                                     Footnotes

                          NWCF CONSOLIDATED NOTES

Procedures were developed by DFAS, with NAVSUP and ASN(FM&C) assistance to streamline
the shipboard financial reporting process by using satellite communications systems that
significantly reduced submission timeframes to DFAS and result in timely reporting.

         SUDD~VManagement (Marine Corks). At the Supply Management (Marine Corps)
activity group level Accounts Receivable are in an abnormal balance because $16.1 million in
reversals were done to correct duplicate, error, and wrong price issue transactions.

       NWCF Industrial     Activities.     Included in the Entity Receivables, Governmental line is
the value of Navy Account 1543 Undistributed Collections - Unmatched. This is an account
with a normal credit balance which represents the value of refunds/collections received which are
initially posted as increases to activity level cash, but must be researched in order to determine
the appropriate receivable to liquidate.

       DeDot Maintenance - Aviation. Revenue billing of $38,000 thousand was not
processed by Treasury resulting in the large Entity Receivables, Intragovernmental balance.

       ‘I’ransDortation - MSC. During FY 1997, MSC did not write off any uncollectible
Accounts Receivable in excess of the write off criteria. Prior to FY 1997, Entity Receivables,
Governmental, included the outstanding principal balance related to loans from the FFB for the
APF-N ships. The principal balance represented outstanding loans receivable vice true Accounts
Receivable. So as not to distort the true value of Accounts Receivable, DFAS and the DON
agreed to reflect the outstanding principal balance in Line 1.b.(6), Entity Assets, Transactions
with Non-Federal (Governmental) Entities, Other Non-Federal (Governmental). See Note 6.


Note 6. Other Federal flntraeovemmental)        and Non-Federal    (Governmental)    Assets (in
thousands):

A. Other Entity Assets:
    1. Federal (Intragovernmental)
       (a) Assets Returned for Credits                                          $50,868
       (b) Gther                                                                 (1,170)
       (c)
       Total                                                                    $49,698

   2. Non-Federal (Governmental)
       (a) FFB Loan Principal for APF-N Ships                                $1,164,026
       0)
       (c)
       Total                                                                 $1,164,026



                                                95
    Footnotes

                             NWCF CONSOLIDATED NOTES

    B. Other Information:      Included in Line A-2.(a) above is the Transportation activity group
    outstanding principal balance of $1,164,026 thousand related to loans from the FFB for the APF-
    N ships. Prior to FY 1997, the principal balance was included in Line 1.b.(2), Entity Assets,
    Transactions with Non-Federal (Governmental) Entities, Accounts Receivable, Net. So as not to
    distort the true value of Accounts Receivable, DFAS and the DON agreed to reflect this
    outstanding principal balance on Line 1.b.(6), Entity Assets, Transactions with Non-Federal
    (Governmental) Entities, Other Non-Federal (Governmental) of the Statement of Financial
    Position. See Note 16.
.
    C. Other Non-Entity     Assets:

       1. Federal (Intragovernmental)
          (a) IMRL Equipment *                                                    $393,512
          (b)
          (cl
          Total                                                                   $393,512

       2. Non-Federal (Governmental)
          (a)
          0)
          (c)
          Total

    D. Other Information:      The $393,512 in Note 6.C.l .(a) reports the FY 1997 gross value of
    Individual Material Readiness List (IMRL) equipment as requested by the ASN(FM&C). The
    NAVAUDSVC Audit report 044-95 has questioned the inclusion of IMRL in this section of the
    Statement of Financial Position. Recommendation 83 recommended USD(C) to prepare and
    issue clarifying guidance in the area of sponsor provided assets and Non-Entity Assets. Pending
    USD(C) guidance, DON will continue to report IMRL as Non-Entity Assets at the departmental
    level only as agreed to in a joint meeting among NAVAUDSVC, DFAS Headquarters, DFAS-
    CL and DON on 21 July 1995. See Note 15, Depot Maintenance - Aviation and Research and
    Development activity groups for additional information as to those activity groups reporting
    IMRL equipment in a statistical account at the activity group level. IMRL equipment is not
    reported in Note 15 at the activity group level.


    Note 7. Loans and Loan Guarantees.       Non-Federal   Borrowers (in thousands):    Not
    applicable




                                                    96
                                                                                     Footnotes

                          NWCF CONSOLIDATED NOTES

Note 8. Inventory, Net (in thousands):

                                               (1)               (2)            (3)       (4)
                                            Inventory        Allowance      Inventory, Valuation
                                             Amount          For Losses        m -- Method
A Inventory Categories:
     Held for Current Sale                  %11,222,16         %3,460,705   %7,761,456    LAC
  :: Held in Reserve for Future Sale
     War Reserve Material                       269,22             26,736      242,488    LAC
  :: Excess, Obsolete and
     Unserviceable                              103,96                         103,960   NRV
  5. Held for Repair                          7,050,15           2,012,841   5,037,312
  Total                              _                      2500,282       $13,145,X6

B. Restrictions   on Inventory Use, Sale, or Disposition:    Generally, there are no restrictions
with regard to the use, sale, or disposition to applicable DOD activities and personnel. Inventory
may be sold to foreign, state and local governments, private parties and contractors in accordance
with DOD, DFAS, and DON policies and guidance or at the direction of the President.

C. Other Information: Inventory, Net applies to the supply activity group and not to the
industrial activity groups. War Reserve Material is included in Note 8 and on Line 1.d, Entity
Assets, Inventory, Net and not on Line 1.l, Entity Assets, War Reserves, in accordance with
DFAS-HQ guidance. This presentation of War Reserve Material is restricted to the Defense
Working Capital Funds (DWCF) and is a departure from the DOD FMR, which requires War
Reserve Material to be reported on Line 1.l on the CFO Statement of Financial Position. War
Reserve Material presentation will be changed to comply with the DOD FMR for FY 1998
reporting.

       SUDD~ Manapement        CNavvl. Inventories are carried in the accounting records at
Standard Price. Standard Price is used in the day-today operations of the fund and is comprised
of the cost of material and surcharges to recover operating and inventory costs in managing the
Supply Management (Navy) activity group. For reporting purposes inventories are valued using
the LAC method. Additionally, an allowance for unrealized holding gains and losses has been
established to value inventory to an approximation of historical cost. The valuation is in
accordance with DOD FMR 7000.14-R Volume 11B recently modified by additional guidance
from USD(C) and DFAS.

       Application of the LAC method requires a series of journal adjustments which (1) remove
the surcharge included in the Standard Price; (2) remove the cost to repair from the value of
unserviceable inventory; (3) reduce to salvage value inventory, which is not expected to survive
the repair process; and (4) reduce to salvage value inventory, which is categorized as Potential
Reutilization/Disposal Stocks. These adjustments are applied to the total of the inventory and are
considered (along with other computed factors) in the inventory valuation model developed by


                                                97
Footnotes

                        NWCF CONSOLIDATED NOTES

USD(C) and DFAS. The surcharge and estimated cost to repair are variable depending upon the
material category being valued. The FY 1997 salvage rate based on current USD guidance at the
time of CFO reporting was 2.7 percent. This method reduced Standard Price inventory value by
$12,487,682 thousand as follows:
                                                 (in thousands)
               Remove surcharge:                   %6,416,665
               Remove cost to repair:              $2,020,841
               Reduce to salvage value:            $4.050.176
               Total reduction:                   $12.487.682

        The reported FY 1996 inventory, net value of %9,873,757 thousand should have been
$13,777,724 th ousand. The error was due to a cross check problem encountered by DFAS when
preparing the FY 1996 Statements.

        The necessary adjustment to inventory based on NAVAUDSVC Audit 035-96,
Recommendation 13 was made in FY 1996 for a net gain of $2,291 thousand. A similar
adjustment to inventory based on NAVAUDSVC Audit 040-97, Finding 1 was made in FY 1997
for a net gain of $12,5 10 thousand. These actions are completed.

     Also, because not all reconciliations could be accomplished prior to year-end closing at
NAVICP, the intransit accounts are overstated by $13,662 thousand.

       The Supply Management (Navy) activity group does not have sponsor funded inventory.

       Su~nk Manapement (Marine Corps\. Inventories are valued at LAC as required by
DOD accounting policies. Generally, these values are based on prices paid for recently acquired
items. Gains and losses that result from valuation changes for stock items are recognized in the
allowance account. only the realized gains and losses are reflected in the Cost of Goods Sold.

        The Supply Management (Marine Corps) activity group does not have sponsor funded
inventory.


Note 9. Work in Process (in thousands):

                                               Work I! kocess         Valuati!n> Method
                                                  Amount
A. Work in Process:
     1. InHouse                                       !§1,242,813         Actual Cost
     2. Contractor                                         30,245
     3. Other Government Activities                       48,269
     4. Government Furnished Materials
     Total                                            $1.321.327



                                                98
                                                                                      Footnotes

                         NWCF CONSOLXDATED NOTES


B. Other Information:     Work-in-Process at NWCF industrial activities consists of costs
incurred for customers, not yet billed. Work-in-Process does not apply to the supply activity
group.


Note 10. ODerating Materials and Swulies        (OM&SL Net (in thousands):


                                    C&S
                                   Amount
                                                 Allci2nce
                                                  For Losses
                                                                    ol&
                                                                     &’
                                                                                     VLZiOIl
                                                                                       Method

A. OM&S Categories:
     1. Held for Use                $583,686          $27,412       $556,274     Weighted Average
     2. Held in Reserve for                                                         and Other
        Future Use                     35,800                         35,800
     3. Excess, Obsolete and
        Unserviceable
        Total                       $6 19,486         $27,412       $592,074

B. Restrictions   on operating materials and supplies:       None

C. Other Information:    Operating Materials and Supplies, Net are held at industrial activity
groups for use on customer work. These inventories are maintained at cost, primarily using a
weighted average. The following specifics by activity group apply.

       DeDot Maintenance       - Aviation. Inventories are valued using the weighted average
method. The majority of inventory is retained for use on customer orders. An allowance for
inventory losses has been established to accrue potential inventory shortfalls over the fiscal year.
This activity group also manufactures inventory which is later used on customer projects. The
cost to produce the mant&actured inventory in FY 1997 was $26,328 thousand.

        DeDot Maintenance - Shirwards. Inventories of operating supplies and non-
consumable items, are valued at weighted average. Direct Material Inventory is valued at
acquisition cost by line item. Generally, these values are based on prices paid for recently
acquired items plus appropriate surcharges.

        Deuot Maintenance - Ordnance. Inventories of operating supplies and non-consumable
items, are valued at weighted average. Direct Material Inventory is valued at acquisition cost by
line item. Generally, these values are based on prices paid for recently acquired items plus
appropriate surcharges.

        DeDot Maintenance      - Other (Marine Corus). Inventories, including operating supplies
and non-consumable items, are valued at Standard Prices. Generally, these prices are based on


                                                 99
Footnotes

                         NWCF CONSOLIDATED NOTES

prices paid for recently acquired items plus appropriate surcharges. The Standard Price is
updated to reflect the LAC by national stock number every month. No gains or losses resulted
from Standard Price changes for NWCF stock items included in the Statement of Operations and
Changes in Net Position.

       Transportation   - MSC.

        1. Active: MSC’s active inventory consists of consumable supplies, subsistence, fuel,
miscellaneous material supplies and MPS equipment. The following is a description of
inventory categories:

          a. Consumable inventories are frozen inventories for United States Navy Ship
(USNS) ships based on the values for a period of three months of actual expenses. Values were
examined during FY 1997 and found to be adequate. Also, a 100% actual physical inventory is
conducted upon transfer or inactivation of the vessel.

           b. Ship subsistence inventories for USNS ships reflect the chief steward’s on-hand
inventory and is processed at the end of each month using current average unit prices. A 100%
actual on board inventory is taken quarterly, in accordance with MSC instructions.

          c. For the ships for which fuel inventory are maintained, inventory is based on the
bunkers available at month end, as reported by the ship operators.

           d. Miscellaneous materials are equipment items stored at Cheatham Annex and
Oakland, CA. A 100% physical inventory was taken in April 1997 for Commander, Military
Sealift Command, Atlantic and for Commander, Military Sealift Command, Pacific. Equipment
items were priced either at their requisition cost or capitalized cost. The latter methodology was
used in cases where the original inventory taken had no unit prices. In such cases, cost was
established by an outside party who was contracted to perform a physical inventory of these
items.

           e. MPS/TS equipment is inventory stored at the contractors’ site.

      2. Inactive: All OX Cognizance Symbol material was transferred to NAVICP
Mechanicsburg and DLA during FY 1994, FY 1995, and FY 1996. The current value is zero.

        3. The unallocated cost account - unmatched for ($10,647) thousand was included in the
operating material and supplies value.

        4. The valuation methods are LAC, Standard Price and other.




                                                100
                                                                                        Footnotes

                             NWCF CONSOLIDATED NOTES

           Base SUDDOI~. These materials are maintained at cost, using a weighted average. An
    adjustment of $227 thousand was made by DFAS Operating Location (OPLOC) Oakland for
    PWC Norfolk under Data Base Code 1541, which was entered into the Department of the Navy
    Industrial Budget Information System, but was not entered into the official accounting system at
    DFAS-CL. Correction will be made in FY 1998.

           Research and DeveloDment.

           NSWC and NUWC. Inventories of operating supplies and non-consumable items, are
    valued at weighted average. Direct Material Inventory is valued at acquisition cost by line item.
    Generally, these values are based on prices paid for recently acquired items plus appropriate
    surcharges.

            NAWC. Inventories are valued using the weighted average method. The majority of
    inventory is retained for use on customer orders. An allowance for inventory losses account has
    been established to accrue potential inventory shortfalls over the fiscal year. The NAWC
    manufacture inventory which is later used on customer projects. The cost to produce the
    manufactured inventory in FY 1997 was $0. The last triennial physical inventory was performed
_   in FY 1995 for NAWC sites. The acceptable error rate for Material and Supplies is (+/-) 5%.
    All sites were within this limit.

            NRL. $119 thousand of the Operating Materials and Supplies Inventory is material
    ordered horn the General Services Administration and paid for, but which has not yet been
    received. The Operating Materials and Supplies Inventory is valued using the weighted average
    method. The NRL conducts an annual wall-to-wall inventory of its Operating Materials and
    Supplies Inventories. The net adjustments resulting from the wall-to-wall inventories in FY
    1997 was a $4 thousand loss. An allowance for inventory losses account has also been
    established to accrue potential inventory short falls over the fiscal year.

            NFESC. NFESC NWCF does not maintain any Operating Material and Supplies. AI1
    operating materials needed to perform the mission of NFESC are purchased on an as needed
    basis preventing inventory build-up and related costs to carry and value inventory.

            NCCOSC. The Operating Materials and Supplies inventory in custody control at the end
    of FY 1997 was zero, and $2,025 thousand in Material-in-Transit (MIT). The MIT will be
    delivered directly to the organizations performing work for customers and the material will not
    be held as part of the Operating Materials and Supplies inventory. Inventory was reduced to zero
    when the shop stores were closed in preparation for the increased usage of the bankcard.




                                                    101
Footnotes

                           NWCF CONSOLIDATED NOTES

       Information     Services.

               NAVCOMTELCOM.          Inventories are valued using the weighted average
method. Materials and supplies physical inventories were taken during the last quarter of FY
1997 using the actual cost method. Resulting inventory adjustments amounted to an increase of
$2 thousand. These adjustments are contained in the Financial and Operating Statements.

                COMNAVRESFOR          The Average Cost method is currently used to price
inventories. Actual physical counts for Materials and Supplies inventories were taken during the
last quarter of FY 1997. Resulting inventory adjustments amounted to a gain of $112 thousand.
These adjustments are contained in the amounts shown in the Statement of Financial Position.

                   FMSO.   This activity group does not have Operating Materials and Supplies, Net.

        The following identifies those industrial activity groups that do not have sponsor funded
material and those that have sponsor funded material, which is recorded in a statistical account,
but not reported in the Statement of Financial Position or related Note 10.

                                                     No
                                                   Sponsor           Sponsor    (in thousands)
                                                   Funded            Funded
 Activitv   &OUD                                   Material          Material      Amount

 Depot Maintenance - Aviation                          X                                    $0
 Depot Maintenance - Shipyards                         X
 Depot Maintenance - Ordnance                                            X               1,758
 Depot Maintenance - Other (Marine Corps)              X
 Transportation
 Base Support                                          f:
 Research and Development
    NSWC                                                                              414,924
    NUWC                                                                 ::           179,422
    NAWC                                               X

    kc                                                 E
    NCCOSC                                                               X            278,164
 Information Services
    NAVCOMTELCOM
    COMNAVRJZSFOR
    FMSO (Note 10 N/A)
    Total                                                                            $874,268


Note 11. Stockuile Materials. Net fin thousands):           Not applicable




                                                 102
                                                                                             Footnotes

                           NWCF CONSOLIDATED NOTES

Note 12. Seized Prouertv (in thousands):       Not applicable


Note 13. Forfeited ProuerW. Net tin thousands):             Not applicable


Note 14. Goods Held Under Price SUDDOI~and Stabilization                 ProPrams, Net (in thousands):
Not applicable


Note 15. Prouertv, Plant and Eauiument.        Net tin thousands):

                                       (1)          (2)            (3)            (4)            (5)
                                     Depre-                                                      Net
                                     ciation      Service      Acquisition   Accumulated        Book
                                     Method        Life          Value       Denreciation       Value


Classes of Fixed Assets

A. Land                               N/A           N/A           $137,862              $0      $137,862
B. Structures. Facilities.
    & Leasehold Improvements           SL         various        7,380,722      4,3 12,775     3,067,947
    Military Equipment
    AJIP Software                      :iI           l-5            83,799         58,924          24,875
    Equipment                                     various        3,575,025      2,512,102       1,062,923
    Assets Under Capital Lease                                       2,272             925           1,347
    Other                              SL         various            4,580             482          4,098
  . Natural Resources
    Construction-in-Progress          N/A           N/A           324,616                        324,616
    Total                                                     m-208

   Other Information:      See next four pages.

*Keys:
            Denreciation Methods                            Range of Service Life
            SL - Straight Line                              I-5      1 to 5 years
            DD - Double-Declining Balance                   6-10     6to 10 years
            SY - Sum of the Years’ Digits                   1l-20    11 to20years
            IN - Interest (sinking fund)                    >20      over 20 years
            PR - Production (activity or use method)
            OT - Other (describe)




                                                   103
Footnotes

                         NWCF CONSOLIDATED NOTES

        1. The depreciation method is straight line and the Service Life varies by class of fixed
asset and activity group as shown below.

                                                            Service Life

                                     B. Structures,                          E.             G.
                                      Facilities &          l&P
 Activity   &OUD
                                       Leasehold
                                     Improvements
                                                            soft-
                                                            Ware
                                                                           we-
                                                                           ment           Other

 Supply Management (Navy)                1l-20              N/A             5-20           N/A
 Supply Management
  (Marine Corps)(Note 15 N/A)             N/A               N/A             N/A            N/A
 Depot Maintenance - Aviation             >20                               6-10
 Depot Maintenance - Shipyards            >20               $2              6-10           ;;:
 Depot Maintenance - Ordnance             >20                l-5            6-10           N/A
 Depot Maintenance - Other
                 (Marine Corps)                             N/A              10
 Transportation                            z                                 10             10
 Base Support                             *20                 z            **10
 Research and Development
    NSWC                                  >20                l-5            6-10           N/A
    NUWC                                  >20                                6-10          N/A
    NAWC                                  >20                ::;             6-10          NJA
                                           20                                5-10          N/A
    gsc                                   *20                N;A           **10            N/A
    NCCOSC                                >20                N/A           various         N/A
 Information Services
    NAVCOMTELCOM                          N/A                l-5            6-10           N/A
    COMNAVRESFOR                          N/A                N/A            N/A            N/A
    FMSO                                  N/A                N/A            N/A            l-5

*Except for facilities in service prior to FY 1992 for which Service Life was established upon
construction based on a variable scale. **Except for General Purpose Vehicles for which
depreciation is 5 years.




                                                 104
                                                                                   Footnotes

                         NWCF CONSOLIDATED NOTES

       2. The  following identifies those activity groups that do not have sponsor funded
equipment and those that have sponsor funded equipment which is recorded in a statistical
account, but not reported in the Statement of Financial Position or related Note 15.

                                                                                (in thousands)
                                                  No
                                                Sponsor          Sponsor             Net
                                                Funded           Funded             Book
 Activitv Grouu                                Equipment        Equipment           Value

 Supply Management (Navy)                            X
 Supply Management (Marine Corps)
                (Note 15 N/A)
 Depot Maintenance - Aviation (IMRL)                                                  $90,700
 Depot Maintenance - Shipyards                                      ::                   8,523
 Depot Maintenance - Ordnance                                       X                   11,323
 Depot Maintenance - Other (Marine Corps)
 Transportation                                      ::
 Base Support                                        X
 Research and Development
    NSWC                                                                               172,993
    NIJWC                                                                              133,168
                                                                                       162,211
    GiY     (I-)                                                                        78,532
    NFESC                                                                                  722
    NCCOSC                                                                              27,948
 Information Services
    NAVCOMTELCOM
    COMNAVRESFOR                                     ::
    FMSO                                             X
    Total                                                                     s686,120




                                               105
Footnotes

                         NWCF CONSOLIDATED NOTES

        3. The following identifies whether or not an activity group has Fixed Assets - Not in
Use. It also indicates when the related accumulated depreciation of Fixed Assets - Not in Use
continues to be reported under Note 15, because the DFAS-CL Center guidance of 16 October
1997 was received too late by our DFAS-CL OPLOC to implement. When implemented the
amount of Accumulated Depreciation - Assets Not in Use will be reported as a contra account to
Fixed Assets - Not in Use which is reported on Line 1.m of the Statement of Financial Position.

                                                                   AssetsNot
                                     No Fixed                        inUSe
                                      Assets -     Note 15           Related       Assets Not
                                    Not in Use     Includes       Depreciation       in Use
                                      on Line    Depreciation      Included on     Included in
                                       l.mof      Related to       Line 1.m of       Note 15
                                   Statement of Fixed Assets-     Statement of       But Not
 Activitv Group                    Financial Pos  Not in Use      Financial Pos    Depreciated

 Supply Management (Navy)                X
 Supply Management
  (Marine Corps)(Note 15 N/A)
 Depot Maintenance - Aviation                                           X
 Depot Maintenance - Shipyards
 Depot Maintenance - Ordnance                            ::
 Depot Maintenance - Other
                  (Marine Corps)                                                        X
 Transportation                          X
 Base Support                                            X
 Research and Development
    NSWC
    NUWC                                                 ::
    NAWC                                 X
                                                         X
    z&c
    NCCOSC                               ::
 Information Services
    NAVCOMTELCOM
     COMNAVRESFOR                                        f:
    FMSO                                 X




                                              106
                                                                            Footnotes

                  NWCF CONSOLIDATED NOTES

4. Fully depreciated assets included in the above Note 15 are as follows.

                                                        (in thousands)

                                                          Amount  of
                                                           Fully
                                                         Depreciated
        Activitv Group                                     Assets

        Supply Management (Navy)                                    $0
        Supply Management (Marine Corps)
                       (Note 15 N/A)
        Depot Maintenance - Aviation                          235,349
        Depot Maintenance - Shipyards                         459,844
        Depot Maintenance - Ordnance                          193,245
        Depot Maintenance - Other (Marine Corps)               17,813
        Transportation                                         10,742
        Base Support                             Not readily available
        Research and Development
           NSWC                                               418,375
           Nuwc                                                84,714
           NAWC                                             1,351,148
           NFESC                                                2,476
           NCCOSC                                              63,588
           NRL                                                183,311
        Information Services
           NAVCOMTELCOM                                         2,415
           COMNAVRESFOR                          Not readily available
           FMSO                                  Not readily available
           Total                                           $3,023,020




                                        107
Footnotes

                         NWCF CONSOLIDATED NOTES

Note 16. Debt (in thousands):

Liabilities Covered by           Beginning        New           Repay-        Ending         Re-
Budgetary Resources              Balance          Borrowines    ments         Balance        financing

A. Intragovernmental     Debt:
   1. Borrowing from the
      Treasury                           $0                $0            $0             $0           $0
   2. Borrowing from Fed-
      eral Financing Bank          1,225,977                        61,951      1,164,026
   3. Borrowing from Other
      Federal Agencies
   Total htragovem-
      mental Debt                %1,225,977                $0      $61,951 $1,164,026                $0


Liabilities Not Covered by
Budgetary Resources

B. 1. Public Debt:
     a. Held by Government
        Accounts                             $0            $0            $0             $0           $0
     b. Held by the public
     c. Total Public Debt                    $0            $0            $0             $0           $0

    2. Agency Debt:
     a. Held by Government
        Accounts                             $0            $0            $0             $0           $0
     b. Held by the public
     c. Total Public Debt                    $0            $0            $0             $0           $0


C. Total Liabilities For Debt
   Not Covered by
   Budgetary Resources:                      $0            $0            $0             $0               $0

D. Total Debt:                    $1225,977                $0      $61,951     $1,164,026                $0

E. Other Information:    The $1,164,026 thousand debt represents the Transportation activity
group outstanding principal balance on the APF-N ships. See Note 6.




                                                  108
                                                                                      Footnotes

                          NWCF CONSOLIDATED NOTES

        The APF-N program provided ships for time charter to MSC to meet requirements not
available in the marketplace. The program was approved by the Congress. The ships were
built/converted by private Interim Vessel Owners using private, non-government financing
obtained from various banking institutions. No payments were made by the government during
the building/conversion phase.

        When each vessel was delivered to MSC for use under the Time Charter Party, the
interim financing was replaced by permanent financing, and vessel ownership was transferred to
the permanent vessel owners (a trust company acting for the benefit of equity investors). The
ships were financed with approximately 30% equity investments and 70% debt borrowings. The
debt is in the form of loans from the FFB to the vessel owners. Capital Hire payments under the
Time Charter are assigned to FFB to cover the loan obligations, and to the vessel owners to cover
the equity obligations.

        The Time Charter Party requires MSC to pay Capital Hire twice a year. These payments
cover repayment of principal and interest on the FFB loans, and any equity payments due the
vessel owners. Separately, Operating Hire is paid twice a month to the vessel operators to cover
crew costs, provisions, ship management, etc., and specified reimbursements such as fuel and
port expenses are paid to the operators. These expenses are paid from the NWCF. APF-N Time
Charters are for five years with four option renewal periods of five years each, for a total of 25
years. At the end of the contract, the ships belong to the ship owner. The government does have
an option to purchase the ships, if the contract is terminated, at the greater of the fair market
value or termination value.

        In order to simplify the payments to the FFB and to meet their requirements, the FFB
cross-disburses the semi-annual principal and interest payments directly from the NWCF. This
is done instead of having MSC make Capital Hire payments to the vessel owners, who would in
turn make their loan obligation payments to the FFB. This is very much the same as other Tie
Charters where payment is assigned directly to a bank. Equity payments, on the other hand, are
made by MSC from the NWCF, upon receipt of invoices.

         The Time Charters contain a clause requiring payment of stipulated termination penalties
in the event the government desires to end the contracts prior to their final expiration (25 years
for the APF-N). These penalties apply whether the termination results from a Termination for
Convenience by the government, or by mere failure of the government to exercise its five-year
renewal options. The contract requires that the ships be sold for the best price obtainable, and, if
that is below the applicable termination value, the government makes up the difference. The
Time Charters also contain casualty loss values in case of total loss of the ships which would be
payable by the government to the vessel owners investors. In case of total loss the Time Charter
requires the contractor to maintain casualty insurance sufficient to cover the casualty values due
to the vessel owners including the amounts that they would owe to the FFB.



                                                109
Footnotes

                        NWCF CONSOLIDATED NOTES

        The DOD Appropriation Act passed in December 1985 required that 10% of the 5th year
termination value of the vessels be obligated from Operations and Maintenance, Navy funds.
This was done as each vessel was delivered. Also, as required by the Act, MSC records the
contingent liability for each current year’s Operating Hire in its NWCF financial statement.


Note 17. Other Liabilities (in thousands):

A. Other Liabilities Covered by Budgetary Resources:

                                                 Non-Current         current
                                                  Liabilities       Liabilities         Total
1. Intragovernmental
   a. Advances-Government                              $66,449        $659,594         $726,043
   b. Advances-Loans                                                    (1,453)          (1,453)
   c. Progress Payments-WIP-In-House                                   795,505          795,505
   d. Progress Payments-Direct Material                                   5,690            5,690
   e. Progress Payments-Other Government
   f. Military Labor                                                     64,668           64,668
   g. Incomplete Voyage Revenue
   h. Undistributed Cash Disbursements                              (1,256,899)      (1,256,899)
   i. Accrued Reserve Revenue                                             5,817           5,817
   j. Miscellaneous Other Liabilities                 1,043,684                       1,043,684
   Total                                             $1,110,133       $272,922       $1,383,055

                                                 Non-Current         Current
                                                  Liabilities       Liabilities         Total
2. Governmental
   a. Advances-Other                                         $0        $94,357           $94,357
   b. Accrued Expenses-Other                                          2,803,887        2,803,887
   c. Progress Payments-Contractor
   d. Miscellaneous Other Liabilities                     (186)          40,173           39,987
   e. Claims                                                              3,570            3,570
   f. Undistributed Cash Disbursements
   Total                                        ($186)              $2,941,987       $2,941,801

B. Other Information:

       SUDD~VManagement       (Naw).    Intragovernmental liabilities is overstated by $41,837
thousand since carcass tracking records at the NAVICP could not be reconciled to financial
records prior to year-end closing.




                                               110
                                                                                          Footnotes

                           NWCF CONSOLIDATED NOTES

         Transnortation   - MSC. other (Intragovernmental) liabilities covered by budgetary
resources include Accrued Reserves for Major Ship Maintenance and Repair, Undistributed Cash
Disbursements, and Military Labor. other (Governmental) liabilities covered by budgetary
resources consist of claims and MSC’s accrued expenses for ship operations inclusive of Capital
Hire for the MRS.

         Research and Develoument.

                NRL. See Note 31 .E.

               NCCOSC. Advance billings directed by ASN(FM&C) during FY 1997
amounted to $50,000 thousand, of which $24,573 thousand remain unliquidated. These billings
represent charges to customers in advance of performance of work based on projected workloads.
The remaining balance of %18,260 thousand represents the amount of money that was received
from non-DOD sponsors in advance to authorize the performance of work or services.

         Information   Services.

                FMSO. The Undistributed Cash Disbursements includes $3,856 thousand of
labor disbursements discovered to have also processed to subhead NClC vice NFIF. A Journal
Voucher Optional Form 1017-G (9-79) was prepared by DFAS-CO and sent to DFAS-IN for
each of these revisions which should process through Treasury in October 1997. The remaining
variance of $10,675 thousand can not be validated by FMSO.

         Navv Comuonent.      The value reported represents the net of collections and
disbursements held in this activity group pending identification to another activity group.
Included in Line A. 1.h above, is an allocation of %1,044,7 15 thousand of disbursements from the
DWCF Corporate account. This allocation was directed by a DFAS-Headquarters (HQ)
memorandum of 10 October 1997. This directed allocation was not supported by specific
transactional information which would identify the value as belonging to the NWCF.
ASN(FM&C) memorandum of 24 November 1997 to DFAS-HQ challenges the validity of this
decision and requests the value be reversed.

C. Other Liabilities Not Covered by Budgetary Resources:

                                                   Non-Current          Current
                                                    Liabilities        Liabilities           Total
 1. Intragovernmental
    a. Cancelled Budget Authority                                 $0                 $0              $0
    b.
    C.
    Total                                                         $0                 $0              $0


                                                 111
Footnotes

                        NWCF CONSOLIDATED NOTES


                                                   Non-Current          Current
2. Governmental                                     Liabilities        Liabilities           Total
   a. Cancelled Budget Authority                                  $0                  $0               $0
   b.
   C.

   Total                                                          $0                  $0               $0

D. Other Information:   Not applicable


Note 18. Leases (in thousands):    Not applicable




                                                          (2)             (3)                 (4)
                                     Acsal
                                      Present                           Assets
                                     Value of          Assumed         Available           Unfunded
Major Program                        Projected          Interest        to Pay             Actuarial
Activities                         Plan Benefits       Rate (%I        Benefits            Liabilitv

A. Pensions and Health Plans:
   1. Pensions                                $0                                     $0                $0
   2. Health Plans
   3.
   Total                                      $0                                     $0                $0

B. Insurance/Annuity
   Programs:

   :-
   3:
    Total                                      $0                                    $0                $0

C. Other:
    1. Workers’ Compensation          %1,160,071                                            $1,160,071
    2.
    3.
    Total                             $1,160,071                                     $0     $1,160,071

D. Total Lines A+B+C:                 $1,160,071                                     $0     $1,160,071




                                               112
                                                                                             Footnotes

                          NWCF CONSOLIDATED NOTES

E. Other Information:     The Note 19.C.l value was computed by DFAS-HQ. Future workers’
compensation (FWC) figures are provided by the Department of Labor. The liability for FWC
benefits includes the expected liability for death, disability, medical, and miscellaneous costs for
approved compensation cases. The liability is detemined using a method that utilizes historical
benefit payment patterns related to a specific incurred period to predict the ulimate payments
related to that period. Consistent with past practice, these projected annual benefit payments
have been discounted to present value using the Office of Management and Budget’s
June lo,1997 economic assumptions for lo-year Treasury notes and bonds. Interest rate
assumptions utilized for discounting were as follows:

                                                1997

                                        -   6.24%   in year   1
                                            5.82%   in year   2
                                            5.60%   in year   3
                                            5.45%   in year   4
                                            5.40%   in year   5 and thereafter


Note 20. Net Position (in thousands):

                                               Revolving         TNst        Appropriated
                                                 Funds           Funds          Funds          Total
    Unexpended
    Appropriations:
    1. Unobligated,
     a. Available                                         $0            $0             $0              $0
     b. Unavailable
    2. Undelivered Orders
   Invested Capital                            23,516,921                                    23,516,921
   Cumulative Results of Operations           (5,793,059)                                    (5,793,059)
   Other                                        (816,056)                                      (8 16,056)
   Future Funding
   Requirements                                (1,160,071)                                   (1,160,071)
   Total                                      $15,747,735       -LS!-                   $0   %15,747,735
   Other Information:

       SUDDEN Manapement (Navv). The value included in Invested Capital of $11,840,672
thousand is influenced by $3,957 thousand of Transfers-In Without Reimbursement resulting
from Fleet and Industrial Supply Center (FISC)/Naval Shipyard (NSY) material transfer
partnerships that occurred in FY 1997. DFAS-CL: Invested Capital and the Cumulative Results
of Operations have been influenced by the Cost of Goods Sold model produced by members of
the USD(C) and DFAS-HQ.




                                                    113
Footnotes

                          NWCF CONSOLIDATED NOTES

       DeDot Maintenance      - Aviation. Note 20-D, Other includes ($72,886) thousand balance
which is the amount of assets transferred out to another Depot, other government agencies, or to
the public.

         DeDot Maintenance - Shbvards.     Included in other is ($63 1,059) primarily attributed to
the four closed NSYs which reflect ($613,000) thousand. This reduction in capital is a result of
transferring closed NSYs assets to various entities without reimbursement.

       Tranwortation      - MSC. Invested Capital includes the FY 1997 principal payment of
$61,95 1 thousand for loans related to the APF-N ships.

       Base Support.     Note 20.D Other includes the transfer/retiring of equipment by PWC, San
Francisco in FY 1997.

       Research and DeveloDment.

               NAWC. The Note 20.D Other ($5,436) thousand includes the amount of plant
property fixed assets transferred out to other government agencies.

               NCCOSC. (1) Unexpended Appropriations is not applicable. (2) Invested
Capital decreased in value by $65,362 thousand from FY 1996 to FY 1997. $61,115 thousand
was due to transfer of cash balances from the NWCF activity level books to the corporate level;
and a decrease of $4,247 thousand occurred in the value of Contributed Fixed Assets due to
adjustments in asset valuations. (3) The change in Cumulative Operating Results from FY 1996
to FY 1997 was $4,972 thousand. The net operating results were reduced $1,369 thousand for a
variance generated by military labor (see Note 26) and $77 thousand for a prior period
adjustment (see Note 27).

        Information    Services.

                NAVCOMTELCOM.        The Invested Capital amount of ($69,377) thousand is the
total of General Ledger Accounts (GLA) 2922,2924,2927, and 2961. The largest amount being
($93,747) thousand in GLA 2961, Net Treasury Balance - NWCF.

                F’MSO. FMSO is a new CFO entity, therefore, in order to bring FMSO in line
with the other industrial activities, it was necessary to zero out the prior-to FY 1997 cash
balance. Because GLA 1100, Undistributed, was a significant number, the result is the abnormal
Net Position of ($25,708) thousand at the activity group level.




                                                114
                                                                                    Footnotes

                         NWCF CONSOLIDATED NOTES

         Navv Comuonent. The Invested Capital represents the initial transfer of cash from the
DOD corporate account to reestablish a DON corporate cash balance, the transfer of end of FY
1995 and FY 1996 cash balances at the activity group level to the DON NWCF corporate
account, and those collections and disbursements being held by this activity group pending
identification to another activity group.


Note 21. Taxes (in thousands):    Not applicable


Note 22. Other Revenues and Financinp      Sources (in thousands):

                                                           1997              1996
A. Other Revenues and Financing      Sources:
   1. Other Revenue                                        $211,266         $127,669
   2. OPM Pension Plan Imputed Financing                    713,270
   3.
   Total                                                   $924,536         $127,669

B. Other Information:      Other Revenues and Financing Sources Note 22.A. 1 applies only to
Supply Management (Navy). The use of the Property Clearance Account to reflect revenue is
questionable. The value in this account represents timing differences between the receipt of
material in the inventory accounting system and the related Accounts Payable posting for
material receipt. Until the inventory accounting system and the allotment accounting system are
integrated in a single system these timing differences will continue. The Note 22.A.2 value was
computed by DFAS-HQ as follows:

                                   Imputed Pension and ORBS

                           CSRSIFERS Retirement               $554,974
                           Health                              157,861
                           Life Insurance                          435
                           Total                       J

The $713,270 represents the imputed financing for pensions and ORBS. ‘The Office of Personnel
Management (OPM) is the administrative entity for pensions and ORBS. OPM accounts for and
reports the pension liability in their financial statements while the employer discloses the
imputed financing. OPM actuaries provide the normal cost rates which are used to calculate the
imputed financing (see Note 25).




                                                115
Footnotes

                          NWCF CONSOLIDATED NOTES

Note 23. Promam or Oueratine Exuenses (in thousands):

                                                                      1997            1996
A. Operating Expenses by Object Classification:
    l  Personal Services and Benefits                               $476,645         $487,028
       Travel and Transportation                                     103,104          109,680
       Rental, Communications and Utilities                           25,340           25,768
       Printing and Reproduction                                       5,85 1           8,157
       Contractual Services                                          526,519          555,448
       Supplies and Materials                                         58,842           68,790
       Equipment not Capitalized                                      20,475           26,963
       Grants, Subsidies and Contributions                               806              712
       Insurance Claims and Indemnities                               17,089           25,835
    10. Other (describe):
        $1 Repair Expense                                              11,821        1,272,657

        (c)
    11. Total Expenses by Object Class                             %1,246,492      $2,581,038


B. Operating Expenses by Program:                                     1997             1996
        1.                                                                   $0               $0
        ::
        4. Unallocated Expense
        Total                                                                $0


C. Other Information:      Program or Operating Expenses applies to the supply activity group
and not to the industrial activity groups. The significant change between FY 1996 and FY 1997,
in the Supply Management (Navy) activity group, is the exclusion of estimated repair expenses
in FY 1997 which is now included in the Cost of Goods Sold, Note 24.




                                              116
                                                                                       Footnotes

                         NWCF CONSOLIDATED NOTES

Note 24. Cost of Goods Sold (in thousandsk

A. Cost of Services Sold:
    1. Beginning Work-in-Process                                                     $1,378,812
    2. Plus: Operating Expenses                                                      15,017,149
    3. Minus: Ending Work-in-Process                                                  1,321,327
    4. Minus: Completed Work for Activity Retention                                      41,119
    Cost of Services Sold                                                          !M,o33,515*

B. Cost of Goods Sold from Inventory
   (using Latest Acquisition Cost):
    1. Beginning Inventory - L.A.C.                                                   $18,813,666
    2. Less: Beginning Allowance for Unrealized
       Holding Gains (Losses)                                                           8,284,713
    3. Plus: Purchases at Cost                                                          3,696,391
    4. Plus: Customer Returns - Credit Given                                              505,855
    5. Plus: DLR Exchange Credits                                                       !1;$5;;d
    6. Less: Inventory Losses Realized
    7. Less: Ending Inventory - L.A.C.                                                 18:645:497
    8. Plus: Ending Allowance for Unrealized
       Holding Gains (Losses)                                                           5,500,283
    9. Less: Equity Transfers of Inventory to Others                                      611,414
    10. Plus: Equity Transfers of Inventory from Others                                 1,038,368
    11. Plus: Other                                                                     5,023,059
          a. Repair Cost Adjustment                                $1,119,092
          b. Beginning Allowance Adjustment from
              Prior Year                                            3,903,967
    12. Equals: Cost of Goods Sold from Inventory                                 m
C. Cost of Goods Sold from Inventory (using Historical Cost):
    1. Beginning Inventory
          a. Plus: Purchases at Cost                                                           $0
          b. Plus: Inventory Gains
          c. Minns: Inventory Losses
    2. Less: Ending Inventory
    Cost of Goods Sold                                                                         $0

* These amounts do not reflect eliminating entries of $2,595,819 thousand for intra-activity cost
of goods or services sold. See Note 19.

D. Other Information:        Note 24.A applies to industrial activity groups and Note 24.B applies to
the supply activity group.

       SUDD~ Manapement CNawL The Cost of Goods Sold calculation identified in the CFO
Act guidance has been prepared in accordance with DOD FMR 7000.14R Volume 1lB, which
provides a new Cost of Goods Sold policy as clarified by USD(C). Additionally, the values




                                                  117
Footnotes

                        NWCF CONSOLIDATED NOTES

portrayed as Costs of Goods Sold is calculated using percentages and adjustments from the
Allowance Account for Holding Gains and Losses.

         T~-an~~ortation - MSC. This includes the costs of MSC government owned and
government operated ships, exclusive of salaries and related costs; and virtually all costs of
government owned, contractor operated ships; and contractor owned, contractor operated ships.
FFB interest payments of $86,770 thousand are excluded from the Note 24.A Cost of Goods Sold
calculation in FY 1997 and included on Line 13.a Expenses, Interest, Federal Financing
Bank/Treasury Borrowing of the Statement of operations and Changes in Net Position.

        Research and Develoument. The NRL Cost of Services Sold does not include
depreciation expense of %10,103 thousand.


Note 25. Other Exuenses (in thousands):
                                                                      1997             1996
A. Other Expenses:
        Inventory Losses-Physical                                   %4,380,983       $7,500,945
    :- Incoming Shipment Losses
    3: Stock Account DLR Program Losses
    4. Shrinkage, Fire, Theft, Losses, etc.                              93,228             62,4 19
        Major Disaster Losses                                               653                628
    :- Accounting Adjustments
    7: Material Returns Without Credit                                  143,187        (32,685)
        Assembly/Disassembly Losses
    !: DLR Carcass Price Reduction
     10. Inventory Control Point Adjustments
     11. Discounts on Material Returns
     12. DLR Advance Credit                                             (61,023)
     13. JLSC Surcharge Reserve                                                           1,100
     14. Summation of USD(C) model entries                         ‘2,8;;66;;$      (3,868,016)
     15. OPM Pension Plan Imputed Expense                                   ,
    Total                                                           %2,399,628       $3,664,391

B. Other Information: In FY 1996 and 1997 Other Expenses was reported by the Supply
Management activity group, except %1,100 thousand was reported in the FY 1996 Depot
Maintenance - Other (Marine Corps) activity group. In FY 1997 Note 25, Line 15 was computed
by DFAS-HQ as follows:

                                  Imputed Pension and ORBS

                           CSRS/FERS Retirement              $554,974
                           Health                             157,861
                           Life Insurance                         435
                           Total                             $713,270


                                               118
                                                                                   Footnotes

                         NWCF CONSOLIDATED NOTES

The $713,270 represents the imputed expense for pensions and ORBS. The OPM is the
administrative entity for pensions and ORBS. OPM accounts for and reports the pension
liability in their financial statements while the employer discloses the imputed expenses. OPM
actuaries provide the normal cost rates which are used to calculate the imputed financing (see
Note 22).

         Sup~hr ManaPement (Naw). DFAS-CL: Note 25.A, Lines 1,4,5 and 7 values are
transcribed from the FY 1997 Trial Balance report produced using the model developed by
members of the USD(C) and DFAS-HQ. Those values are attributed to GLAs. Note 25.A, Line
 14 is a summation of entries to adjust that portion of the FY 1997 Trial Balance report. Those
adjusting entries are also to be found within the model produced by members of the USD(C) and
DFAS-HQ.

       DeDot Maintenance - Other (Marine Cor~sl. In FY 1995 and FY 1996, transfers to
JLSC were recorded as expenses and reported in Note 25.A, Line 13. In FY 1997, $1,200
thousand was transferred to JLSC and recorded as a non-operating transfer.


Note 26. Extraordinarv Items (in thousands):

A. Extraordinary Items:
   1. Surcharges                                         (8566jss85J
   2. Extraordinary Current Year Expense
   3. Reserve Balancing                                      (1,969)
   4. Fixed Asset Adjustments
   5. Passthroughs
   6. Refunds
   7. ACP Cumulative l/l2 Surcharge                             (54)
   8. Redistribution
   9. Transfers
   10. Excess ACP Write-off
   11. Military Labor/Variance                              (1,668)
   Total                                                 ($566,412)

B. Other Information: In FY 1997 Extraordinary Items were reported by the industrial activity
groups and not by the supply activity group.

        Deuot Maintenance - Aviation. $135,190 thousand represents the cash collected in FY
1997 to fund a cash surcharge of $112,628 thousand and the JLSC of $22,562 thousand. The
reserve balancing includes $428 thousand of cash collected in FY 1997 associated with the FY
1996 surcharge to fund the JLSC.

       DeDot Maintenance - Shirwards. Includes a surcharge of $380,254 thousand.




                                              119
Footnotes

                        NWCF CONSOLIDATED NOTES

       DeDot Maintenance    - Ordnance.   Includes a surcharge of $5 1,195 thousand.

       Research and DeveloDment.

              NRL. Extraordinary adjustments in the amount of $2,261 thousand are the result
of aged Accrued Expenses written off as a result of review and validation of accounts in
accordance with Navy Comptroller Manual, Volume 5, paragraph 054922 and DOD 7000.14R
FMR, Volume 4, Chapter 8.

               NCCOSC. A military labor variance of $1,369 thousand was generated when
NCCOSC was required to pay for more military labor than was actually worked, thus creating a
decrease to the accumulated operating expenses in that amount. NCCOSC does not agree with
the recording of the military labor variance as an extraordinary expense. DOD FMR (DOD
7000.14-R), Volume 1lB, Chapter 62, paragraph B.4.c.(3) provides guidance for reporting the
military labor variance on the Statement of Operations as a non-recoverable/deferred amount.

         Information Services - COMNAVRESFOR               Transfers amount of %4,314 thousand
was the activity’s portion of the Cumulative Results of Operations at the time of the transfer
from NAVCOMTELCOM to COMNAVRESFOR. Military costs imposed by headquarters were
significantly higher than the actual costs causing this variance. COMNAVRESFOR NWCF
activity does not have any military billets.


Note 27. Prior Period Adiustments    (in thousands):

A. Prior Period Adjustments:
   1. USD(C) Model Prior Period AOR Adjustment             $2,131,132
   2. Accounts Payable Transfer to Equity                     (52,974)
   3. Prior Period AOR Adjustment                             951,392
   4. Other Fund Transfer                                        1,700
   Total                                                   $3,03 1,250

B. Other Information:

        SUDD~ Management maw). DFAS-CL: Note 27.A, Lines 1 and 3 are products of the
model developed by members of the USD(C) and DFAS-HQ for the Cost of Goods Sold
presentation and Inventory Valuation. Navy: Note 27.A Line 3 is included to accommodate the
transfer of FMSO fbom the Supply Management (Navy) activity group to the Information
Services activity group.

      DeDot Maintenance - Other Marine Cor~sl. In FY 1997, adjustments were made to
Accounts Receivable and the inventory accounts to balance the general ledger to subsidiary



                                              120
                                                                                       Footnotes

                         NWCF CONSOLIDATED NOTES

accounts during the implementation of the Naval Air Systems Command Industrial Financial
Management System.

       Research and DeveloDment.

                NRL. Prior Period Adjustments in the amount of ($38) thousand are the result of
correcting costs erroneously charged to a direct job order in FY 1996.

                NCCOSC. A Prior Period Adjustment was approved by the ASN(FM&C) in the
amount of $77 thousand. This adjustment is the second part of corrections that are being made
by NCCOSC’s In-Service Engineering East Coast Division (NISE East) after a
COMSPAWARSYSCOM Inspector General (IG) investigation completed in FY 1996 revealed
that during NISE East’s conversion to DBOF numerous accounting errors had been made in FY
1994 and FY 1995. This adjustment was made to correct those errors. See Note 3 1 for
additional information.

       Information    Services - FMSO.    An adjustment of $7,090 thousand was made to
transfer FMSO from the Supply Management (Navy) activity group to the Information Services
activity group during FY 1997.

Note 28. Non-Oueratiw      Chawes    - (Transfers and Donations)   (in thousands):

                                                                         1997           1996
A. Increases:
    1. Transfers-In:
      a. Transfers-Without Reimbursement-NWCF                       $1,410,875          $541,720
      b. Transfers-Without Reimbursement-Capital NWCF                   13,148             2,441

    2.knexpended Appropriations
    3. Donations Received
    4. Other Increases                                               3,156,714           719,570
    5. Total Increases                                              $4,580,737        $1,263,731


B. Decreases:
     1. Transfers-Out:
      a. Transfers to Govt. Agency Without Reimbursement            $2,111,824          $795,842
      b. Transfers to All Others Without Reimbursement                    9,439          233,708
      c. Transfers to Others Without Reimbursement-NWCF                 162,684          103,107
      d. Transfers to Others Without Reimbursement-Capital             226,493           126,627
    2. Donations
    3. Other Decreases                                                   470,982        1,102,521
    4. Total Decreases                                               2,98 1,422        %2,361,805

C. Net Non-Operating      Changes (Transfers):                      $1,599,315       ($1,098,074)



                                                 121
Footnotes

                        NWCF CONSOLIDATED NOTES

D. Other Information:

        DeDot Maintenance - Ordnance. Note 28.B.3 Other Decreases of ($3 1,773) thousand is
primarily due to a cash surcharge collection of $51,195 thousand to GLA 2910. This increase
was partially offset by the transfer of the prior year activity cash balance to Net Treasury
Balance - NWCF GLA 2961.

      DeDot Maintenance - Other marine Cor~sl. Note 28.B.l .a Transfers to Government
Agency Without Reimbursement represents the JLSC surcharge for FY 1997 of $1,200 thousand.

       Base SUDDO~~. Note 28.B.3 Other Decreases represents the transfer/retiring of equipment
by PWC, San Francisco in FY 1997.

       Research and DeveloDment.

              NSWC.      Note 28.B.3 Other Decreases ($260,901) thousand is due to the transfer
of the negative prior year activity cash of ($208,995) thousand to Net Treasury Balance (GLA
2961). In addition there was an increase of $60,933 thousand in Assets Capitalized - Contributed
Fixed Assets (GLA 2922).

               NAWC.    The Note 28.B.3 Other Decreases ($284,007) thousand is attributable to
a close out of FY 1996 NWCF Treasury Cash and a large amount of assets capitalized.

               NRL,. Note 28.B.3 Other Decreases consist of the change to non-operating equity
accounts. The largest portion of these changes in FY 1997 is $3,288 thousand of the NRL cash
was transferred to Net Treasury Balance - NWCF. Total cash transfers now equal $132,352
thousand.

              NFESC. Note 28.B.3 Other Decreases ($10,691) represents the FY 1997 year-
end Net Treasury Balance less assets capitalized prior to NWCF.

               NCCOSC. The changes reflected in this note are for changes in Invested Capital
as discussed in Note 20. The largest portion of these changes occurred when $6 1,115 thousand
of NCCOSC cash was transferred to Net Treasury Balance - NWCF

       Information Services - NAVCOMTELCOM.           OPLOC Pensacola reported that the
Note 28.A.l ($2,326) thousand Transfers-Without Reimbursement-NWCF reflects prior year
leave adjustments made in GLA 2941. However, GLA 2923, Liabilities Assumed is the
appropriate GLA for those adjustments and that amount was moved to GLA 2923 in October
1997.




                                              122
                                                                                  Footnotes

                        NWCF CONSOLIDATED NOTES

         Naw Comuonent. The FY 1997 Transfer-In represents the transfer of end of FY 1996
cash balances of $28 1,026 thousand at the activity group level to the DON NWCF corporate
account, the FY 1997 gross value of IMRL of $393,5 12 thousand and a non-expenditure cash
transfer of $1,044,715 thousand from the DWCF Corporate account. The latter cash transfer was
directed by a DFAS-HQ memorandum of 10 October 1997. This cash transfer was made
concunently with an allocation of $1,044,7 15 thousand of disbursements from the DWCF
Corporate account. The allocation of disbursements was not supported by specific transactional
information which would identify the value as belonging to the NWCF. ASN(FM&C)
memorandum of 24 November 1997 to DFAS-HQ challenges the validity of this allocation. The
FY 1996 Transfer-In represents the transfer of end of FY 1995 cash balances of $713,054
thousand at the activity group level to the DON NWCF corporate account and an offsetting
Transfer-Out of $33,961 thousand representing a DON payment of prior year DFAS services.
The FY 1997 Other Decreases consists of $1,160,071 thousand actuarial workers’ compensation
liability. DFAS-HQ guidance requires that changes in the &unded liability for workers’
compensation be reported on Line 23 of the Statement of Operations and Changes in Net
Position. Workers’ compensation liability was not reported in FY 1996.


Note 29. Intrafund Eliminations (in thousands):

Schedule A: General Fund Sales to the General Fund
Not applicable to NWCF.

Schedule B: NWCF Sales to NWCF

Selling Activity:
                                   Column A           Column B       Column c     Column D
                                   Accounts                          Unearned
                                   Receivable         Revenue        Revenue      Collections
Navy Working Capital Fund
   Supply Management                            $0      $754,782           $0        $754,782
   Industrial activities                               1,841,037                     1,841,037
Total                                           $0    $2,595,819           $0       %2,595,819

Customer Activity:
                                   Column A           Column B       Column c     Column D
                                    Accounts
                                    Pavable           Exnenses       Advances    Disbursements
Navy Working Capital Fund
   Supply Management                            $0       $795,097           $0        $795,097
   Industrial activities                                1,800,722                    1,800,722
Total                                           $0     $2,595,8 19          $0      $2,595,8 19




                                                123
Footnotes

                        NWCF CONSOLIDATED NOTES

Schedule C: NWCF Sales to DOD Entities

Selling Activity:
                                   Column A              Column B       Column c     Column D
                                    Accounts                            Unearned
                                   Receivable             Revenue       Revenue     Collections
Navy Working Capital Fund                       $0       $15,798,978           $0   %15,798,978
Unearned Revenues
Total                                           $0       $15,798,978           $0    $15,798,978

Customer Activity:
                                   Column A              Column B       Column c     Column D
                                   Accounts
                                    Payable               ExDenses      AdvancessO Disbursements
Department of the Army GF                       $0          $128.095                    $128,095
Department of the Navy GF                                  13,925;412                  13,925,412
Department of the Air Force GF                                247,100                     247,100
Army WCF                                                      $44,702                     $44,702
Air Force WCF                                                 102,927                     102,927
Defense WCFs                                                 (20,950)                    (20,950)
National Defense Stockpile
U.S. Army Corps of Engineers
Defense Security Asst Agency
Other Defense Organizations                                 1,371,692                   1,371,692
Advances
Total                                           $0       %15,798,978           $0     $15,798,978


Schedule D: NWCF Sales to U.S. Government             Entities

Selling Activity:
                                   Column A              Column B       Column c     Column D
                                   Accounts                             Unearned
                                   Receivable             Revenue       Revenue      Collections
Navy Working Capital Fund                       $0          $646,614           $0        $646,614
Unearned Revenue
Total                                           $0           $646,614          $0       $646,614

Customer Activity:
                                       Column A           Column B      Column c     Column D
                                       Accounts
                                        Payable           ExDenses      Advances    Disbursements
General Services Administration                   $0        %149,423           $0        $149,423
State Department                                             254,445                       254,445
Department of Transportation                                 242,746                       242,746
Advances
Total                             -m              $0 _                         $0        $646=




                                                124
                                                                                       Footnotes

                          NWCF CONSOLIDATED NOTES

E. Otber Information:     In the absence of standard USD(C) policy and procedures for intrafund
eliminating entries, each DFAS Center was tasked by DFAS-HQ to evaluate the Center’s
capability to produce from existing systems the seller data for the numeric portion of Note 29.

The data disclosed for industrial type activities revenues has been developed from field level
revenue classifications reports. The data disclosed for supply type activities revenues has been
developed from the DD Form 1400 (S) “Statement of Inter-Fund Transactions” which is a
departmental report representing billings made via Interfund billings only. The values reported
herein from the DD Form 1400 are considered at the summary level to be representative of
revenues reported in the General Ledger Account for Interfimd billings during FY 1997. The
supporting individual primary and secondary activity group Note 29 data is not readily available
in the financial systems supporting this Fund.

Until standard USD(C) DBOF policy for the treatment of intraftmd elimination transactions is
issued and DFAS implementing procedures and controls are provided, the data disclosed may not
meet the intent of the DOD Guidance on Form and Content of Financial Statements for FY 1997
Financial Activity.

Under Schedule D, Customer Activity, Column B, General Services Administration: the
$149,423 thousand represents Other Federal and non-DOD transactions including General
Services Administration which can not be broken out individually for the categories shown.


Note 30. Contineencies:       The following provides specific activity group disclosure.

       Tranmortation      - MSC. Contingencies (Reserves) have been established to provide for
anticipated accident and damage repairs and estimated value of claims pending. Their values as
of 30 September 1997, are $2,223 thousand and $3,570 thousand, respectively. It should be
noted that the reserve for accident damage repairs will be abolished and the remaining value in
such account represents funds already obligated. MSC has not provided a reserve to cover the
potential total loss of any ship. Funding for any necessary replacement assets would have to be
obtained from sources outside MSC.

       Research and Develomnent.         The NRL has obligation balances totaling $101 thousand
on canceled appropriations.




                                                  125
Footnotes

                         NWCF CONSOLIDATED NOTES

Note 31. Other Disclosures:

A. SUDD~VManapement        RJavvL

         1. Year-end Financial Processing: NWCF activities are required to include all
transactions through 30 September of the reporting fiscal year in their financial reports to higher
levels. Current reporting due dates require all activities to close their “books” prior to 30
September in order to be included in year-end reports. Delays resulting from ADP scheduling
and processing constraints will be encountered and result in some transactions being excluded
from year-end reports. Also, financial processing will preclude some measure of transactions
from processing to accounting records. These transactions are output to exception files and are
reviewed, reconciled, and reprocessed to accounting records. Financial reporting deadlines
provide insufkient time to effect corrections and, thus, corrections are processed and reported in
subsequent reporting periods. Therefore, financial information presented in the financial
statements of this activity group are not as of 30 September 1997. This is not considered
material when viewing and drawing conclusions from these financial statements.

       2. Financial Adjustments Due to Audit Findings:

          a. The necessary adjustment to the Accounts Payable, Federal Account of $6,620
thousand (reduction) based on NAVAUDSVC Audit 035-96, Recommendation 32 was made in
FY 1996. This action is completed.

          b. The necessary adjustment to the Accounts Payable, Non-Federal Account of $564
thousand (reduction) based on NAVAUDSCV Audit 03596,‘Recommendation 38 was made in
FY 1996. This action is completed.

          c. The necessary adjustment to the Other Federal (Intragovernmental) Liabilities
Account of $19,065 thousand (reduction) based on NAVAUDSVC Audit 035-96,
Recommendation 34 was made in FY 1996. This action is completed.

           d. The necessary adjustment to the Advances and Prepayments, Non-Federal Account
of $2 1,463 thousand (reduction) based on NAVAUDSVC Audit Report 035-96,
Recommendation 9 was made in FY 1996. This action is completed.

        3. Adjustments Due to Undistributed Disbursements: Federal and Non-Federal Accounts
Payable were adjusted for undistributed disbursements based on percentages computed from
current relationships between the two accounts. The total value of Accounts Payable was not
changed. Additionally, Accounts Payable is overstated by approximately $33,100 thousand due
to processing problems at DFAS payment offices.




                                                126
                                                                                  Footnotes

                        NWCF CONSOLIDATED NOTES

       4. The FY 1997 Prepayment Standard General Ledger 1452 is overstated by
approximately $18,900 thousand due to processing problems at DFAS payment offkes.

B. SUDD~VManarement       (Marine Cons).

        1. Changes in the Reporting Entity: Line 3A (Earned) of the SF-133 Report should
match the CFO Statement of Operations and Changes in Net Position Line 2b, Revenue from
Sales of Goods and Services, Intragovernmental. Discrepancy is due to new guidance from the
Secretary of Defense dated 20 April 1995, which makes Line 2b reflect Gross Sales instead of
Net Sales. This change is to nullify adjustments to Gross Sales for credit given for material
returns and Depot Level Repairables (DLR) exchanges.

       2. Other Disclosures:

           a. The Marine Corps representatives can not validate the Supply Management
(Marine Corps) activity group FY 1997 CFO Financial Statements and Notes. The Supply
Management (Marine Corps) activity group continues to have problems with inventory values on
financial accounting reports. Many of these problems originated with business process changes
associated with the consolidating of DLRs in DBOF as of 1 October 1993. The business
practices included co-mingling NWCF and Procurement, Marine Corps (PMC) owned
repairables on the same inventory records. Existing financial systems are not able to
accommodate this methodology.

           b. The Marine Corps staff  noted that a more effective and efficient management
approach was needed in regards to the current business practice. In March, 1997 the Marine
Corps advised DFAS that the Marine Corps is changing current policy on funding repairables.
These changes included the capitalization of Critical Low Density (CLD) and War Reserve
Material repairables (currently PMC) under the NWCF management umbrella, on 1 October
1997. In FY 1997 with the changed business process, those problems associated with co-
mingling NWCF and PMC owned repairables should be resolved. This repairable business
practice change alone will not resolve all the problems DON has with data on Supply
Management (Marine Corps) financial reports.

           c. The Marine Corps personnel continue to address the system and financial problems
with DFAS, as appropriate. The accuracy of the future financial data and reports will depend on
the successful replacement/interface of existing financial systems with the Standard Accounting
Budgeting, and Reporting Systems. In March 1997, the Marine Corps and DFAS established an
Integrated Processing Team (IPT) to coordinate and implement the new business practices and
new financial systems. The IPT meets monthly to update the process and discuss any existing
system or financial problems. There has been tremendous progress on establishing creditable
accounting data. Marine Corps personnel plan to coordinate with DFAS representatives to
produce certifiable financial data for FY 1998 year-end financial reports.


                                              127
Footnotes

                         NWCF CONSOLIDATED NOTES

          d. Supply Management (Marine Corps) activity group was not audited during FY
1996 and FY 1997.

C. Tranmortation     - MSC.

        1. Non Compliance with Existing DFAS Guidance: Since the September Industrial Fund
Centralized Disbursement Reimbursement System was not available until 15 October 1997,
detailed treasury cash transactions by others were not processed against MSC’s activity cash
account. Instead, a summary amount was processed in activity cash by debiting the unallocated
cost account - unmatched and crediting the cash account.

       2. Other Financial Statement Disclosures:

           a. It should be noted that Line 4.b.(2).b Liabilities, Transactions with Non-Federal
(Governmental) Entities, Accrued Payroll and Benefits, Annual Accrued Leave of the Statement
of Financial Position includes shore leave for civilian mariners in the amount of $9,763
thousand.

            b. The figures for 1996 and 1997 on the CFO financial statements are not comparable.
The FY 1996, DBC 1520 (Travel Advances) was included in the Statement of Financial Position
on Line 1-a.(5) Entity Assets, Transactions with Federal (Intragovernmental) Entities, Advances
and Prepayments vice Line 1.b.(5) Entity Assets, Transactions with Non Federal (Governmental)
Entities, Advances and Prepayments. It is included in Line 1.b.(5) for FY 1997. The FY 1996,
DBC 1545 (Undistributed Summary Register) was included in the Statement of Financial
Position on Line 4.b.(l) Liabilities, Transactions with Non-Federal (Governmental) Entities,
Accounts Payable vice Line 4.a.( 1) Liabilities, Transactions with Federal (Intragovernmental)
Entities, Accounts Payable. It is included in Line 4.a.(l) for FY 1997. The FY 1996, FFB
interest is included in the Statement of Operations and Changes in Net Position on Line 1O-b.,
Expenses, Cost of Goods Sold, Intragovernmental vice Line 13.a Expenses, Interest, Federal
Financing Bank/Treasury Borrowing. It is included in Line 13.a for FY 1997.

D. Base SUDDOI~.

        1. Cost Sharing Agreement: Per DFAS-IN Center’s 30 October 1997 memorandum,
PWC Yokosuka receives payment from the Government of Japan under a cost sharing
agreement. This funding is treated as a reduction to expenses for accurate unit costing, rather
than a revenue source.

        2. PWCs Rates: PWCs charge annual published rates for services/products provided in
the year of execution, regardless of the fiscal year the work is actually accepted.




                                               128
                                                                                     Footnotes

                         NWCF CONSOLIDATED NOTES

       3. Cash Impacts: Cash impacts for this activity group include transactions for two
activities that are not currently active. PWC Charleston is charged with net transactions of $2
thousand; however, PWC Charleston was never activated. The net transaction is clearly in error.
PWC Cubic Bay has been closed for four years. Financial closet of contingencies continue for
this activity group.

       4. Audits: PWC Great Lakes added $12,839 thousand to Class 1 property and $6,754
thousand to Class 2 property as a result of NAVAUDSVC Audit 97-003 March 1997.

        5. General Ledger: PWC Pearl Harbor is experiencing diffkulty reconciling accounts
since the transfer of accounting responsibilities to DFAS-OPLOC Oakland. PWC Guam
understated Unmatched Disbursements by $2,700 thousand and overstated Undistributed
Disbursements - Unmatched by the same amount. PWC Guam erroneously posted a $942
thousand credit to Undistributed Disbursements - Unmatched and an equal debit to Undistributed
Collections - Unmatched.

E. Research and DeveloDment.

         1. NT&. In Accordance with DFAS policy, in FY 1997 undistributed disbursements of
$7,115 thousand were adjusted to Liabilities, Transactions with Federal (Intragovernmental)
Entities, Accounts Payable, Line 4.a.( 1) on the Statement of Financial Position. These
disbursements have not been distributed in detail registers to NRL through the Industrial Fund
Centralized Disbursement Reimbursement System. These net disbursements were recorded only
in summary registers at the appropriation/subhead level and have not been identified by detail
register, amount, or document to validate that they are NRL transactions. Unmatched
disbursements of $28,496 thousand were adjusted to Liabilities, Transactions with Non-Federal
(Governmental) Entities, Accounts Payable, Line 4.b.(l) and unmatched collections of $3,272
thousand were adjusted to Entities Assets, Transactions with Non-Federal (Governmental)
Entities, Accounts Receivable, Net, Line 1.b.(2) on the Statement of Financial Position. These
disbursements and collections were made by external Disbursing Offices and are reported in the
“unmatched” accounts because they are either not identifiable or have not yet been matched to
specific payable or accrual transactions; some may have been charged to NRL in error. Many,
once identified, will liquidate Liabilities, Transactions with Non-Federal (Governmental)
Entities, Other Non-Federal (Governmental) Line 4-b.(7) on the Statement of Financial Position.
See also Note 17.

        2. NCCOSC.

          a. As part of the BRAC process ongoing consolidations are continuing throughout
NCCOSC. The transfer of NCCOSC east coast operations from St. Inigoes, MD to Charleston,
SC was completed at the end of FY 1997. The final transfer of east coast operations, from
Portsmouth, VA to Charleston, SC, will be completed by the end of FY 1998. NCCOSC


                                               129
Footnotes

                         NWCF CONSOLIDATED NOTES

headquarters was consolidated with its management command, the COMSPAWARSYSCOM;
and COMSPAWARSYSCOM operations moved from Arlington, VA to San Diego, CA during
FY 1997. While these consolidations are expected to result in lower overall overhead costs, they
are not expected to have a significant impact on NCCOSC’s overall cost of operations or the
assets and liabilities of NCCOSC’s NWCF accounts. Costs related to the above BRAC actions
are funded by BFUX appropriations made available for those purposes and will be reported in
the NWCF financial statements as appropriate.

           b. During FY 1996, the COMSPAWARSYSCOM IG investigated (at NISE East’s
request) financial management practices believed to be irregular. Areas were reviewed and
reconciled where it was believed that mishaps had occurred. As a result of the investigation it
was determined that approximately $3,000 thousand was charged incorrectly. All mischarges
had occurred as a result of NISE East’s conversion to DBOF effective FY 1994. All items that
were from the current year have been completed. As indicated in Note 27, $77 thousand has
been written off in FY 1997 as a prior period adjustment. The remaining $782 thousand of
mischarges are part of the Capital Program, and require reprogramming of funds and ASN
(FM&C) approval. This request was forwarded to ASN (FM&C) on 26 November 1996.
Procedures have been put into place to avoid this situation in the future.

F. Information   Services.

        1. NAVCOMTELCOM. Cost overruns were not a major problem during FY 1997.
NAVCOMTELCOM has directed subordinate activities to effect timely renegotiation before cost
of performance has exceeded 75 percent of the funded amount for cost reimbursable orders.
When renegotiation failed and funding is exhausted, services have been terminated. The
customer and its management command were notified in writing of the planned work stoppage.

        2. COMNAVRESFOR COMNAVRESFOR claimancy acquired the NWCF activity
group financial responsibilities on 1 February 1997. All fund balances were transferred over as
of this date. Cost overruns were not a major problem during FY 1997. COMNAVRESFOR has
directed subordinate activities to effect timely renegotiation before cost of performance has
exceeded 75 percent of the funded amount for cost reimbursable orders.

G. DeDot Maintenance         - Other (Marine Cows).

         1. Changes in Reporting Entity. Line 3A (Earned) of the SF 133 Report should match
the CFO Statement of Operations and Changes in Net Position Line 2.b Revenue from Sales of
Goods and Services, Intragovernmental. Discrepancy is due to new guidance from the Secretary
of Defense dated 20 April 1995 which makes Line 2.b reflect Gross Sales instead of Net Sales.
This change is to nullify adjustments to Gross Sales for credit given for material returns. Line
 14 d. on the SF 133 does not match the Principal Statement’s accounts payable because the SF
 133 accounts payable includes accrued liabilities.


                                                130
                                                                                           Footnotes

                          NWCF CONSOLIDATED NOTES

       2. Other Disclosures:

          a. Marine Corps representatives cannot validate the Depot Maintenance - Other
(Marine Corps) activity group 1997 Financial Statements and Notes due to inaccuracies reported
for Accounts ,Payable, Other Liabilities, and Net Operating Position on Year-end Closing
Statements (FMS 2108), Report on Budget Execution (SF Form 133), and 30 September 1997
NWCF Accounting Report (AR 1307).

          b. Depot Maintenance - Other (Marine Corps) activity group was not audited in FY
1996 or FY 1997.

H. Unmatched      Disbursements,    Negative Unliauidated      Oblieations.     and Aeed In-Transit
Disbursements.
                                              (in thousands)

 Treasury Index                September                 September                            Percent
Appropriation 4930                1997                      1996              Change          Change
Unmatched
Disbursements                      $289,887               $424,344            ($134,457)     (3 1.7%)
Negative
Unliquidated
Obligations                Not Applicable           Not Applicable
Aged In-Transit
Disbursements                      $928,225              %1,955,671       ($1,027,446)        (52.5%)

                 Totals        $1,218,112                %2,380,015       (%1.161.903>        (48.8%)




                                                   131
Footnotes

            NWCF CONSOLIDATED NOTES




                       132
         Section D
     Department of the Navy
      Working Capital Fund
Management Representation Letter
                             DEPARTMENT             OF      THE     NAVY
                            OFFICE   OF THE    ASSISTANT       SECRETARY
                        {FINANCIAL   MANAGEMENT AND            COMPTROLLER\
                                     1000   NAVY   PENTAGON
                                 WASHINGTON.       D.C.    20350-1000




MEMORANDUM       FOR AUDITOR GENERAL OF THE NAVY

Subj:        MANAGEMENT REPRESENTATION LETTER FOR FISCAL YEAR 1997
             FINANCIAL STATEMENTS OF THE DEPARTMENT OF THE NAVY WORKING
             CAPITAL FUND (97-0003)

Encl:        (1) Identified Procedural and Systemic Deficiencies

     This representation letter is submitted in connection
with your audit of the Department of the Navy (DON) Navy Working
Capital Fund (NWCF) financial statements as of 30 September 1997
and for the year then ended. For the purpose of expressing an
opinion on whether the financial statements are presented fairly,
in all material respects, in conformity with Federal Financial
Accounting Standards, the Department of Defense (DOD) Financial
Management Regulation (FMR), or component accounting policy and               ’
guidance, we confirm, to the best of our knowledge and belief,
the following representations made. to the Naval Audit Service
 (NAVAUDSVC) during their audit:

     a. We are responsible for the fair presentation in the
Statement of Financial Position, Statement of Operations and
Changes in Net Position, and Statement of Cash Flows in
conformity with Federal Financial Accounting Standards, the DOD
FMR, or component accounting policy and guidance. We are also
responsible for the fair presentation of performance measures in
accordance with Office of Management and Budget (OMB)
requirements.

      b. Except as noted, we have made available to the NAVAUDSVC
all financial records and related data, including all reports
submitted to Department of Treasury and OMB and performance
measurement records prepared by the Defense Finance and
Accounting Service (DFAS) and Assistant Secretary of the Navy
 (Financial Management and Comptroller) (ASN(FM&C)). The
NAVAUDSVC was precluded from performing substantive testing in
various accounts because data was not provided or not provided in
a timely manner by DON and DFAS activities.

        C.     There have been no known:

          (1) Irregularities involving management or employees who
have significant roles in the internal control structure;

          (2) Irregularities involving other employees that could
have a material effect on the financial statements or performance
measures;
Subj:    MANAGEMENT REPRESENTATION LETTER FOR FISCAL YEAR 1997
         FINANCIAL STATEMENTS OF THE DEPARTMENT OF THE NAVY WORKING
         CAPITAL FUND (97-0003)

          (3) Communications from regulatory, investigative, or
other oversight agencies concerning noncompliance with, or
deficiencies in, financial reporting practices that could have a
material effect on the financial statements or performance
measures.

     d. We have no plans or intentions that may materially
affect the carrying value or classification of assets and
liabilities as reflected in the financial statements.

     e.  The following have been properly recorded or disclosed
in the financial statements:

          (1) Related party transactions and related accounts
receivable or payable, including assessments, loans, and
guarantees;

          (2) Arrangements with the Department of Treasury and OMB
regarding restrictions on cash balances;

             (3) Contingent liabilities;

             (4) Unmatched disbursements; and

             (5) Other restricted amounts.

        f.   There are no known:

          (1) Violations or possible violations of laws or
regulations whose effects should be considered for disclosure in
the financial statements or as a basis for recording a loss
contingency;

          (2) Other material liabilities or gain or loss
contingencies that are required to be accrued or disclosed by the
Statement of Financial Accounting Standards, Number 5, Accounting
for Contingencies; or

          (3) Material    unasserted claims or assessments that our
legal representatives     have advised us are probable of assertion
and must be disclosed     in accordance with Statement of Financial
Accounting Standards,     Number 5, Accounting for Contingencies.

     9. All known material transactions have been properly
recorded in the accounting records and reflected in the financial
statements, except for



                                   2
Subj:   MANAGEMENT REPRESENTATION LETTER FOR FISCAL YEAR 1997
        FINANCIAL STATEMENTS OF THE DEPARTMENT OF THE NAVY WORKING
        CAPITAL FUND (97-0003)

          (1) There were no pre-utilization discussions of the
Fiscal Year (FY) 1997 audit report (97-0003) regarding reported
material weaknesses affecting the presentation of the financial
statements.   There are a number of policy issues raised in
previous audits which still have not been addressed by Under
Secretary of Defense (Comptroller) (USD(C)). Therefore, DON did
not make any adjustments to the FY 1997 column on the FY 1997
NWCF Consolidated Statements.

          (2) Values of Military Equipment assets (ships) and
accumulated depreciation for assets used by the Transportation
activity group, but not owned by the NWCF were not included in
the FY 1997 NWCF financial statements. The NAVAUDSVC has
previously recommended that USD(C) provide policy and procedures
on whether or not Military Equipment should be included in the
financial statements of NWCF. The'fixed asset value for Military
Equipment assets (ships) and accumulated depreciation value of
$6,562,370,000 and $1,557,629,000, respectively were disclosed in
the Transportation activity group footnotes which support the
FY 1997 NWCF Consolidated Financial Statements.   The ships are
statistically recorded by the Transportation activity group, but
not included in their financial statements in accordance with
DFAS guidance. This footnote disclosure was inadvertently not
included in the footnotes to the FY 1997 NWCF Consolidated
Financial Statements.

          (3) Meetings among the USD(C), DFAS, NAVAUDSVC and
ASN(FM&C) Office of Financial Operations were held to reexamine
the procedures used to calculate the inventory value, holding
gains and losses, cost of goods sold, and operating results
related to the Supply Management activity group. As a result of
this reexamination, the financial statements were revised to use
the jointly developed procedures.   We all recognize that
additional work must be done to further refine the procedures
used to calculate the cost of goods sold and operating results
for the standardization throughout DOD.

     h. Provision, when material, has been made to reduce
accounts receivable to their estimated net realizable value.

     i. Provision, when material, has been made to reduce excess
or obsolete inventories in the supply system to their estimated
net realizable value. Operating material and supplies held by
industrial activities determined to be excess or obsolete have
not been reduced to their estimated net realizable value.

     j.  The NWCF has satisfactory title to all assets and there
are no liens or encumbrances on such assets, nor has any asset
been pledged as collateral.

                              3
Subj:   MANAGEMENT REPRESENTATION LETTER FOR FISCAL YEAR 1997
        FINANCIAL STATEMENTS OF THE DEPARTMENT OF THE NAVY WORKING
        CAPITAL FUND (97-0003)

     k. We have complied with all aspects of contractual
agreements that would have a material effect on the financial
statements in the event of noncompliance.

     1. DFAS is responsible for establishing and maintaining the
internal control structure of accounting operations and systems
and DON is responsible for internal control of DON feeder systems
and funds administrator processes and procedures.  There have
been no changes to the internal control structure subsequent to
30 September 1997, or other factors that might significantly
affect it.

     m. We have assessed the effectiveness of the DON's internal
control over safeguarding of assets against unauthorized
acquisition, use, or disposition, compliance with laws and
regulations, and financial reporting, based upon control criteria
established under the Federal Manager's Financial Integrity Act
of 1982 and the OMB Circular A-123.

      n. We are responsible for the DON's compliance with
applicable laws and regulations, as promulgated by USD(C) and
DFAS.

     0.  All material intra-governmental transactions and
activities have been appropriately recorded and disclosed.

     P* There are no known material events or transactions that
occurred subsequent to 30 September 1997 that have not been
properly adjusted for or disclosed in the notes to the financial
statements.

     9.  We have identified in enclosure (1) significant material
deficiencies in:   (1) accounting and financial management
systems, policies and procedures; (2) internal control structure;
and (3) noncompliance of laws and regulations identified during
audits of the NWCF.

     r. We have responded fully to all inquiries made to us by
the auditors during the audit.




                               4
          IDENTIFIED PROCEDURAL AND SYSTEMIC DEFICIENCIES


Part  1.   Deficiencies In Accounting  And Financial   Management
Systems, And Departures   From Published Accounting    Policies And
Procedures

A. General Ledger Control/Lack Of Uniform Accounting Systems.
For the Fiscal Year (FY) 1997 financial statements, preparers had
to crosswalk general ledger accounts to the DOD uniform chart of
accounts, then crosswalk the Department of Defense (DOD) accounts
to the account classifications on the financial statements.   This
condition exists because the U.S. Government Standard General
Ledger accounts have not been incorporated into the Defense
Finance and Accounting Service (DFAS) accounting systems.

B. Inadequate Codinq Structure.   The DOD coding structure within
the accounting and financial management systems employed by the
Defense Working Capital Fund (DWCF) activities have not been
developed to capture and report adequately the data necessary for
preparing DWCF financial statements.   For example, a coding
structure does not exist to capture and report on intrafund
eliminations within Department of the Navy's (DON) NWCF primary
and secondary activity groups. Also see Part 3, paragraph D
below.

C.  Lack Of General Ledger Account For Accrued Expenses Other -
Federal. Accrued Expenses Other reported under Other Non-Federal
(Governmental) Liabilities includes both Non-Federal and Federal
liabilities because there is no general ledger account
established for Accrued Expenses Other - Federal.

D. Invalid Material-in-Transit (MIT) And Advances And
Prepayments, Non-Federal.   Invalid MIT and progress payments are
created because receipts and disbursements are being posted by
different criteria. However, work around procedures are in place
to match disbursements recorded at the Contract Line Item Number
(CLIN) level with receipts recorded at the CLIN/Subcontract Line
Item Number (SLIN) level. New software modules of the Material
Financial Control System, Allotment Reporting (PX02) and
Expenditure Reporting (PXO4) are under development for use to
correct the systemic generation of these invalid MIT and progress
payments.   Additionally, DFAS is responsible for developing a
method to provide a detailed payment record by CLIN/SLIN.

E.  Lack Of Coding Structure For The Revaluation Of Excess
Operating Materials/Supplies, Net. DFAS has been requested by
DON to prepare and coordinate the financial and accounting
procedures for operating activities and accounting systems to
implement the DOD FMR policy regarding the revaluation of excess

                                                  Enclosure   (1)
        Operating Materials and Supplies to its estimated net realizable
        value. Additionally, the procedures should recognize the NWCF
        Corporate Board finalization of their review of the policy
        statement for Miscellaneous and Extraordinary Gains and Losses.
        Also see Part 3, paragraph B below.

        F. Lack Of Coding Structure For Reporting Other Revenues And
        Financing Sources And Depreciation. DON has requested DFAS to
    _   coordinate the financial and accounting procedures for ooeratina
        activities and accounting systems to provide for the reporting of
        finance source and expense associated with the use of real
        property assets not acquired with NWCF resources. DON needs to
        work with DFAS to resolve this deficiency. Also see Part 3,
.
        paragraph C below.

        G.  Lack Of Coding Structure For Accountability of Stock-in-
        Transit (SIT). DON is pursuing a system that will provide for
        accountability of SIT issues and receipts of material pertaining
        to repair contractors which are non-reporters.

        Part   2.   Internal   Controls

        A. Inaccurate Reporting Of Plant, Property And Equipment, Net.
        Procedures and controls are not adequate to ensure that the value
        of plant, property and equipment are reported accurately in the
        financial statements. Plant, property and equipment were not
        capitalized as required, were not properly depreciated, were
        missing, and included unsupported costs. Documentation to
        support the recorded acquisition cost of many older properties is
        no longer available.

        B. Inadequate Accounting For Receivables And Payables.
        Procedures and controls are not adequate to ensure that required
        reconciliations, whether performed by DFAS solely or with DON's
        assistance, are being performed to assure that only valid
        transactions are recorded and reported. Accounts Receivable for
        one activity group is based on a computation performed at the
        summary level using the net of sales and collections, however,
        there are unofficial subsidiary records held at the activity
        level.

        C.  Inaccurate Reporting Of Accrued Expenses Other Reported Under
        Other Non-Federal (Governmental) Liabilities. Procedures and
        controls are not adequate to ensure that required reconciliations
        are being performed to assure that only valid transactions are
        recorded and reported.




                                          2
D. Inaccurate Reporting Of Operating Materials/Supplies, Net.
Procedures and controls are not adequate to ensure that the MIT
balances are accurate; physicai inventories are conducted;
physical inventories are completed; unused material returned to
the appropriate inventory account; excess material disposed of
timely; and stock levels reviewed for excesses.

E. Inadequate Accounting For Advances and Prepayments, Non-
Federal. DON's procedures and controls are not adequate to
ensure accuracy of the Advances and Prepayments, Non-Federal
account with regard to performing actual contract reviews to
validate account balances.  DFAS procedures and controls are not
adequate to ensure proper contract close-out, retention of
payment vouchers in contract files, and proper recording of
progress payment liquidation transactions.

F. Inaccurate Reporting Of Work-in-Process (WIP). Procedures
and controls are not adequate to ensure that fixed price order
cost overruns are expensed in the period incurred and not
retained in WIP.

G. Inadequate Cash Management Controls.    Procedures and controls
may not be sufficient within DON and DFAS to ensure adequate cash
management controls exist to avoid Antideficiency violations.
Since some functions having significant impact on cash management
 (such as recording and reconciling disbursements and collections)
are performed by DFAS, DON and DFAS are working together to
strengthen cash management controls. Prior to 1 February 1995,
the Defense Business Operations Fund (DBOF) cash management and
its associated Antideficiency limitations was held at the DOD
level. In a memorandum dated 5 January 1995,.the USD(C)
delegated DBOF cash management responsibilities and its
associated Antideficiency limitations to the DOD components
composing the Fund. This action effectively merged the
component's responsibility for monitoring collection and
disbursement transactions and taking actions to correct
operational problems with the responsibility for control over the
cash balance resulting from the transactions and actions.   Cash
is managed at the DON level and not in the individual activity
groups of the NWCF. Plans are being formulated to record and
account for cash at the activity group and activity level during
FY 1998. This movement will be contingent upon the development
of activity group and activity level accounting/entries by DFAS.

H. Inadequate DOD Guidance For Reporting Sponsored Provided
Equipment And Material.  Procedures and controls are not adequate
to ensure capitalization, prevent duplicative reporting of
sponsor provided assets and ensure proper financial presentation
by either the sponsor or the NWCF activity. Activities did not
capitalize or report these assets because they were not procured


                                3
with their fund.  DOD guidance concerning reporting of property
held for others is not sufficiently clear and is subject to
interpretation. DOD Guidance on Form and Content of Financial
Statements For FY 1994/1995 and subsequent guidance requires
activities to report assets that are held but are not available
to the activity as Non-Entity Assets. However, USD(C) directed
DON to report a class of sponsor provided equipment as Non-Entity
Assets although this equipment was used by the NWCF activities.
The definition of Non-Entity Assets in the DOD Guidance on Form
and Content of Financial Statements For FY 1994/1995 and
subsequent guidance is not clear and conflicts with other
guidance. Non-Entity Assets could be interpreted as all assets
in the custody of the activity that were not classified as
Entity. Additionally, if an item does not meet the
characteristics of an asset, as defined by DOD, the item may be
financially reportable on the sponsors records which conflicts
with the DOD Guidance on Form and Content of Financial Statements
For FY 1994/1995 and subsequent guidance. Draft DOD guidance has
been provided for review and comment.

I. Inaccurate Financial Statements. The Marine Corps is still
experiencing accounting/reporting problems in the Marine Corps
segment of the Supply Management activity group. Many of these
problems originated with business process changes associated with
the consolidation of depot level repairable items in DBOF as of 1
October 1993. The business practices included the co-mingling of
NWCF owned and Procurement, Marine Corps (PMC) owned depot level
repairable items on the same inventory records. The existing
financial systems were not able to accommodate this practice and
resulted in distortions in the NWCF reported data. The Marine
Corps is addressing this problem by transferring the PMC owned
depot level repairable items to the NWCF. In March 1997, the
Marine Corps and the DFAS established an Integrated Processing
Team to discuss and resolve other financial problems and
coordinate and implement new business practices and financial
systems. Because of the uncertainty in the inventory and other
account balances, the Supply Management (Marine Corps) activity
group financial statements and notes could not be validated. In
addition, problems with account balances are also being
experienced in the Marine Corps segment of the Depot Maintenance
activity group. As a result of discrepancies in the balances
between activity level data, Accounting Report 1307, and Report
on Budget Execution (SF-1331, the financial statements for this
activity group could not be validated. The Marine Corps and the
DFAS are working these problems to ensure certifiable statements
and reports in FY 1998.




                                4
J. Inadequate DOD Guidance For Reporting Undistributed
Disbursements And Undistributed Collections. Values reported
in the undistributed disbursement and collection accounts are
normally reflected as reductions to the values being reported for
Accounts Payable and Accounts Receivable, respectively, to
simulate the distribution of the undistributed values.   Since the
undistributed disbursements and collections accounts contained
abnormal values of over $1 billion each, increases of about $1
billion rather than reductions of $1 billion were applied to the
Accounts Payable and Accounts Receivable, thus overstating the
values reported in the DON NWCF Consolidated Statements for FY
1996. Since significant abnormal balances continue to exist in
FY 1997, rather than overstate Accounts Payable and Accounts
Receivable again, undistributed disbursements and undistributed
collections were reported in Line l.a.(6), Other Federal Entity
Assets, of the Statement of Financial Position pending the
completion of the DFAS investigation.

Part   3.   Compliance   With   Laws   And   Regulations

A. Procedures Not Followed In Financial Statements.     Financial
statement account balances were overstated or understated
because:   plant, property and equipment are not always
capitalized as required or properly depreciated; DFAS general
ledger reconciliations of Accounts Receivable, Accounts Payable
and Accrued Expenses Other to subsidiary and source documentation
 (with DON participation as appropriate) are not always performed;
and physical inventories of Operating Materials/Supplies are not
conducted or when conducted are incomplete, unused materials are
not returned to the appropriate inventory account, and stock
levels are not adequately reviewed to determine excesses.

B. Procedures Not Followed For Reporting Excess Operatinq
Materials/Supplies, Net. The financial statements are overstated
because excess Operating Materials/Supplies, Net are not reduced
to their estimated net realizable value. Also see Part 1,
paragraph E above.

C.  Procedures Not Followed For Reportinq Other Revenues And
Financing Sources And Depreciation.  The financial statements are
understated because the financing source and corresponding
depreciation expense received from the use of real property
assets are not being recognized.  Also see Part 1, paragraph F
above.

D. Improper Reporting Of Intrafund Transactions.   Intrafund
transactions have been identified and eliminated from the NWCF
Consolidating Financial Statements for FY 1997. Intrafund
transactions have also been eliminated from the NWCF Consolidated
Financial Statements for FY 1997. Intrafund transactions,
however, have not been identified and eliminated from the ’
supporting individual primary and secondary activity group
financial statements because data is not readily available in
the financial systems supporting the NWCF. There is footnote
disclosure that until standard USD(C) DWCF policy for the
treatment of intrafund elimination transactions is issued and
DFAS implementing procedures and controls are provided, the data
disclosed may not meet the intent of the DOD Guidance on Form and
Content of Financial Statements for FY 1997 Financial Activities.
DOD is pursuing the development of techniques to eliminate the
impact of intrafund transactions in the financial reports, but
does not anticipate that the capability will be available soon.
Also see Part 1, paragraph B above.

E. Cut-off Dates. Financial information presented in the
financial statements is not as of 30 September for all activity
groups.  The current reporting due dates require virtually all
supply activities to close their "books" prior to 30 September.
Financial reporting deadlines provide insufficient time to effect
corrections and, therefore corrections are processed and reported
in subsequent reporting periods.
      Section E
  Department of the Navy
   Working Capital Fund
Legal Representation Letter
                      GENERAL    COUNSEL         OF   THE     NAVY
                          WASHINGTON.     D.C.   203SO-1000




                                        January       21,     1998



MEMORANDUM    FOR THE AUDITOR GENERAL OF THE NAVY

Subj:   LEGAL REPRESENTATION LETTER FOR TKE FISCAL YEAR 1997
        YEAR-END DEPARTMENT OF THE NAVY WORKING CAPITAL FUND
        FINANCIALAUDIT

Ref:    (a)   Auditor General of the Navy ltr 7540/97-0003
              dtd 31 Ott 97

Encl:   (1)   DON AGC (Litigation) memo dtd 15 Jan 98 with encl
        (2)   Office of Counsel, NAVFAC memo dtd 15 Jan 98
        (3)   Acting Counsel, NICP, memo dtd 9 Jan 98 w/encl

     This responds to your request in reference (a) for a legal
representation letter for use by auditors to corroborate
information furnished by management with respect to litigation,
claims, assessments and contingencies in connection with your
examination of the Fiscal Year 1997 Department of the Navy
Working Capital Fund Financial Statements.

     As General Counsel of the Department of the Navy, I have
general supervision of the legal affairs of the Office of the
Navy General Counsel.  In this capacity, I have completed a
review of litigation and claims threatened or asserted involving
the fund to which Office of the General Counsel lawyers devoted
substantial attention in the form of legal consultation or
representation.  This review reflects a threshold of materiality
of $100 million applied to individual and aggregate claims,
litigation, assessments, or contingencies arising out of a single
event or series of events, and includes matters that existed at
30 September 1997, and from that date through the present.

      Subject to the foregoing and to the last paragraph of this
memorandum, I advise you that during the period specified above,
neither I, nor any of the lawyers over whom I exercise general
legal supervision, have given substantive attention to, or
representation, involving the fund in connection with material
loss contingencies coming within the scope of clause (a) of
paragraph 5 of the Statement of Policy referred to in the last
paragraph of this letter, except for the matters reported in
enclosures (11, (2) and (3).

      The information set forth herein is as of the date of this
memorandum and covers matters that existed through the period
stated,  and I disclaim any undertaking to advise you of changes
which thereafter   may be brought to my attention or to the
attention   of the lawyers over whom I exercise general legal
supervision.
      This response   is limited by, and in accordance     with, the ABA
Statement   of Policy Regarding   Lawyers' Responses    to Auditors'
Requests   for Information   (December 1975).   Without   limiting   the
generality   of the foregoing, the limitations set forth in such
Statement on the scope and use of this response (paragraphs 2 and
7) are specifically incorporated herein by reference, and any
description herein of any "loss contingencies" is qualified in
its entirety by paragraph 5 of the Statement and the accompanying
commentary (which is an integral part of the Statement).
Consistent with the last sentence of paragraph 6 of the AHA
Statement of Policy, this will confirm as correct the
Department's understanding that whenever, in the course of
performing legal services for the Department with respect to a
matter recognized to involve an unasserted possible claim or
assessment that may call for financial statement disclosure, I
have formed a professional conclusion that the Department of the
Navy must disclose, or consider disclosure, concerning such
possible  claim or assessment, then I, or one of the lawyers over
whom I exercise general legal supervision, as a matter of
professional responsibility to the Department of the Navy, will
consult with the Department's managers concerning the question of
such disclosure and the applicable requirements of Statement of
Financial Accounting Standards No. 5.




                                  Steven S. Honigman

copy   to:

Secretary of the Navy
Assistant Secretary of the Navy     (Financial Management   &
  Comptroller)
Appendix C. Audit Process
   Audit Work Performed. To fulfill our responsibilities under Public Law
   101-576, the “Chief Financial Officers Act of 1990,” as amended by Public
   Law 103-356, the “Federal Financial Management Act of 1994,” we performed
   oversight of the independent audit conducted by the Naval Audit Service (NAS)
   of the Navy Working Capital Fund Financial Statements for FYs 1997 and
   1996. Our purpose was to determine whether we could rely on the NAS audit.
   We reviewed the NAS audit approach and planning and monitored the the
   progress of the audit at key points, which included reviewing key working
   papers and summaries supporting the Naval Audit Service conclusions.

            Reviewing the NAS Audit Approach. We used the “Federal Financial
   Statement Audit Manual,” January 1993, issued by the President’s Council on
   Integrity and Efficiency, and the “Financial Audit Manual,” December 12,
    1997, issued by the General Accounting Office, as the criteria for reviewing the
   NAS audit approach. We reviewed the notification letter, formulation of
   strategy, entity profile, general risk analysis, cycle memorandums, and audit
   plans and programs. Statisticians in the Quantitative Methods Division, Office
   of the Assistant Inspector General for Auditing, DoD, reviewed and approved
   the NAS sampling plan for the Navy Working Capital Fund Financial Statements
   for FYs 1997 and 1996. The plan called for statistical sampling of 9 line items
   and analytical review of 14 line items at 42 statistically selected activities of the
   Navy Working Capital Fund We also participated in NAS conferences that
   included audit planning and formulation of strategy, as well as presentations on
   issues that developed during the NAS work.

           Monitoring Audit Progress. Through the DOD Financial Statement
   Executive Steering Committee and Integrated Audit Process Team, we provided
   a forum for a centrally managed exchange of guidance and information leading
   to a focused DOD-wide audit of the DOD Consolidated Financial Statements,
   including the supporting financial statements of major DOD Components. We
   performed on-site reviews of the implementation of the NAS audit program for
   the nine statistically sampled line items at five audit locations. As much as
   possible, we performed the audit along with the NAS auditors to ensure that the
   audit steps for each sample item were accurately executed. We also reviewed
   and commented on NAS draft audit reports, including the audit opinion report.
   We reviewed additional documentation, including working papers and
   summaries of NAS audit results and conclusions. Observations from our
   oversight and field work were traced to the draft audit report to ensure the
   accurate compilation of audit results.




                                        7
Appendix C. Audit Pmxss


     Audit Period and Standards. We performed this financial statement audit
     from August 27, 1997, through February 27, 1998, in accordance with auditing
     standards issued by the Comptroller General of the United States, as
     implemented by the Inspector General, DOD. Statisticians in the Quantitative
     Methods Division, Office of the Assistant Inspector General for Auditing,
     DoD,used statistical sampling procedures to identify the sites where we
     performed oversight.
     Contacts During the Audit. We visited or contacted individuals and
     organizations in the DODaudit community. Further details are available on
     request.
Appendix D. Report Distribution


Offke of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)
Director, Defense Logistics Studies Information Exchange

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Cleveland Center
Appendix D. Report Distribution




Non-Defense Federal Organizations and Individuals
Inspector General, Department of Education
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office
Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental Affairs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information and Technology,
     Committee on Government Reform and Oversight
   House Subcommittee on National Security, International Affairs, and Criminal
     Justice, Committee on Government Reform and Oversight
   House Committee on National Security




                                          10
Audit Team Members

This report was prepared by the Finance and Accounting Directorate, Office of
the Assistant Inspector General for Auditing, DoD.
F. Jay Lane
Salvatore D. Guli
Richard B. Bird
Joel IL Chaney
Carrie A. Wade
Joseph E. Wolski
Daniel K. Birnbaum
Laura J.S. Croniger
Gregory M. Mennetti
Melissa A. Sikora
Susanne B. Allen
